<html>
<title> - H.R. 884, ``WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT;'' AND H.R. 1409, ``EASTERN BAND OF CHEROKEE INDIANS LAND EXCHANGE ACT OF 2003.''</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
H.R. 884, ``WESTERN SHOSHONE CLAIMS DISTRIBUTION ACT;'' AND H.R. 1409, 
    ``EASTERN BAND OF CHEROKEE INDIANS LAND EXCHANGE ACT OF 2003.''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 18, 2003

                               __________

                           Serial No. 108-27

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-772              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 18, 2003....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate to Congress from the 
      Virgin Islands, Prepared statement on H.R. 1409............    28
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada, Prepared statement of.....................    25
        ``People's Petition'' submitted for the record...........    93
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement on H.R. 884...........................     5
        Prepared statement on H.R. 1409..........................     6
        ``The Truth about NPCA's Testimony'' from the Eastern 
          Band of Cherokee submitted for the record..............    64
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement on H.R. 884 and H.R. 1409.............     3

Statement of Witnesses:
    Barger, Don, Senior Director, Southern Regional Office, 
      National Parks Conservation Association....................    53
        Prepared statement on H.R. 1409..........................    55
    Blankenship, Cory Matthew, Enrolled Member, Eastern Band of 
      Cherokee Indians...........................................    47
        Prepared statement on H.R. 1409..........................    49
    Ike, Felix, Chairman, Te-Moak Tribe of Western Shoshone 
      Indians of Nevada..........................................    75
        Prepared statement on H.R. 884...........................    77
    Jones, Leon D., Principal Chief, Eastern Band of Cherokee 
      Indians....................................................    38
        Prepared statement on H.R. 1409..........................    40
    Olsen, Michael D., Counselor to the Assistant Secretary for 
      Indian Affairs, U.S. Department of the Interior, Oral 
      statement on H.R. 884......................................    10
        Oral statement on H.R. 1409..............................     7
        Prepared statement on H.R. 884...........................    12
        Prepared statement on H.R. 1409..........................     9
    Piffero, Laura L., Lead Co-Chairman, Western Shoshone Claims 
      Distribution Steering Committee............................    79
        Prepared statement on H.R. 884...........................    82
        Resolution, memorandum and letter submitted for the 
          record.................................................    86
    Yowell, Raymond D., Chief, Western Shoshone National Council.    88
        Prepared statement on H.R. 884...........................    91


      LEGISLATIVE HEARING ON H.R. 884, TO PROVIDE FOR THE USE AND 
DISTRIBUTION OF THE FUNDS AWARDED TO THE WESTERN SHOSHONE IDENTIFIABLE 
 GROUP UNDER INDIAN CLAIMS COMMISSION DOCKET NUMBERS 326-A-1, 326-A-3, 
     AND 326-K, AND FOR OTHER PURPOSES. ``WESTERN SHOSHONE CLAIMS 
   DISTRIBUTION ACT;'' AND H.R. 1409, TO PROVIDE FOR A FEDERAL LAND 
 EXCHANGE FOR THE ENVIRONMENTAL, EDUCATIONAL, AND CULTURAL BENEFIT OF 
 THE AMERICAN PUBLIC AND THE EASTERN BAND OF CHEROKEE INDIANS, AND FOR 
OTHER PURPOSES. ``eastern band of cherokee indians land exchange act of 
                                2003.''

                              ----------                              


                        Wednesday, June 18, 2003

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:09 a.m., in 
room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo (Chairman of the Committee) presiding.
    Present: Representatives Pombo, Duncan, Jones, Gibbons, 
Hayworth, Kildee, Faleomavaega, Pallone, Christensen, Inslee, 
Napolitano, Tom Udall, Bordallo, and Baca.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee will come to order.
    The Committee is meeting today to hear testimony on H.R. 
1409, a bill to provide for Federal land exchange for the 
environmental, educational, and cultural benefit of the 
American public and the Eastern Band of Cherokee Indians; and 
H.R. 884, to provide for the use and distribution of the funds 
awarded to the Western Shoshone identifiable group under the 
Indian Claims Commission Docket Numbers 326-A-1, 326-A-3, and 
326-K.
    Under Rule 4G of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and Ranking 
Minority Member. This will allow us to hear from our witnesses 
sooner and help members keep to their schedules. Therefore, if 
other members have statements, they can be included in the 
hearing record under unanimous consent.
    Today's hearing concerns two bills affecting two groups of 
Native Americans. They are H.R. 1409, sponsored by Congressman 
Charles Taylor of North Carolina, and H.R. 884 by the Vice 
Chairman of the Committee, Jim Gibbons of Nevada.
    H.R. 1409 provides a land exchange between the National 
Park Service and the Eastern Band of Cherokee Indians whose 
reservation is located in western North Carolina. The purpose 
of the land swap is to facilitate the construction of a new 
school badly needed by the Cherokee people. Under the 
legislation, the Eastern Band would give the American public 
high-value, pristine land along the Blue Ridge Parkway in 
exchange for lower-value land called the Ravensford tract, 
which is adjacent to the Cherokee Reservation called the Qualla 
Boundary. The Ravensford tract would be held in trust and added 
to the reservation. The amount of land the Eastern Band 
acquires is only 143 acres, but it has attractive features 
making it ideal for locating a new school. The witnesses from 
the Eastern Band will explain the need for a new school and why 
this tract is a logical site for it.
    It should also be noted that the Ravensford tract was 
supposed to be conveyed to the Eastern Band in the 1940's as 
part of a deal which enabled the construction of the Blue Ridge 
Parkway through their reservation. This tract is part of the 
ancestral homeland of the Cherokee people, but the Congress, 
for no known reason, decided to delete this part of the deal 
after it was agreed to. That was wrong, and I am puzzled why 
anyone today would reject the moral right of the Cherokee to 
reacquire their ancestral land through an exchange which adds 
more value to the National Park System.
    Under this bill, the Park Service will add 218 acres of 
pristine land to the Blue Ridge Parkway. Many of the nearby 
lands are being developed. Adding this parcel to the parkway 
would preserve a pristine view from an overlook on the road. I 
think Congressman Taylor has written an outstanding bill that 
will benefit the American public which uses the Blue Ridge 
Parkway and the Eastern Band of Cherokees who need a new school 
for future leaders of the Indian country, North Carolina, and 
the United States of America.
    The Chairman. The second bill which is the subject of this 
hearing is H.R. 884, sponsored by the gentleman from Nevada and 
the Vice Chairman of the Committee. This bill provides for the 
distribution of more than $140 million to the Western Shoshone 
people. This is money which was awarded to the Indian Claims 
Commission over two decades ago to Western Shoshone people who 
sought compensation for a taking of their aboriginal lands in 
Nevada, California, Idaho, and Utah. The bulk of this money, 
$142 million, would be distributed on a per capita share basis 
to the Western Shoshone of at least one-quarter degree blood. 
About $1.3 million would be placed in an educational trust fund 
for the benefit of the Shoshone people. The judgment fund has 
been sitting in a treasury account gathering interest for over 
20 years because no plan for distributing it has ever been 
implemented. This simply provides for distribution of the 
funds. Without this legislation, over $140 million will 
continue to be out of reach of the people to whom it rightfully 
belongs. While there are some people who continue to pursue the 
Shoshone land claim, it is not right to hold these funds 
hostage in the meantime.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
           Committee on Resources, on H.R. 1409 and H.R. 884

    The Committee will receive testimony on two bills affecting Native 
Americans. They are H.R. 1409, sponsored by Congressman Charles Taylor 
of North Carolina, and H.R. 884, by the Vice-Chairman of the Committee, 
Jim Gibbons of Nevada.
    H.R. 1409 provides a land exchange between the National Park 
Service and the Eastern Band of Cherokee Indians, whose reservation is 
located in western North Carolina. The purpose of the land swap is to 
facilitate the construction of a new school badly needed by the 
Cherokee people.
    Under the legislation, the Eastern Band would give the American 
public high-value, pristine land along the Blue Ridge Parkway in 
exchange for lower-value land called the ``Ravensford Tract,'' which is 
adjacent to the Cherokee Reservation, called the Qualla Boundary. The 
Ravensford Tract would be held in trust and added to the Reservation.
    The amount of land the Eastern Band acquires is only 143 acres, but 
it has attractive features making it ideal for locating a new school. 
The witnesses from the Eastern Band will explain the need for a new 
school and why this tract is the logical site for it.
    It should also be noted that the Ravensford Tract was supposed to 
be conveyed to the Eastern Band in the 1940's as part of a deal which 
enabled the construction of the Blue Ridge Parkway through their 
Reservation.
    This tract is part of the ancestral homeland of the Cherokee 
people. But the Congress, for no known reason, decided to delete this 
part of the deal after it was agreed to. This was wrong, and I'm 
puzzled why anyone today would reject the moral right of the Cherokee 
to re-acquire their ancestral lands through an exchange which adds more 
value to the National Park System.
    Under this bill, the Park Service will add 218 acres of pristine 
land to the Blue Ridge Parkway. Many of the nearby lands are being 
developed. Adding this parcel to the Parkway would preserve a pristine 
view from an overlook on the road.
    I think Congressman Taylor has written an outstanding bill that 
will benefit the American public which uses the Blue Ridge Parkway ... 
and the Eastern Band of Cherokees who need a new school for future 
leaders of Indian Country, North Carolina, and the United States of 
America.
    The second bill which is the subject of this hearing is H.R. 884, 
sponsored by the gentleman from Nevada and Vice Chairman of the 
Committee.
    This bill provides for the distribution of more than $140 million 
to the Western Shoshone people. This is money that was awarded by the 
Indian Claims Commission over two decades ago to Western Shoshone 
people who sought compensation for a taking of their aboriginal lands 
in Nevada, California, Idaho and Utah.
    The bulk of this money--$142 million--would be distributed on a per 
capita share basis to Western Shoshone of at least 1/4 degree blood. 
About $1.3 million would be placed in an education trust fund for the 
benefit of the Shoshone people.
    This judgment fund has been sitting in a Treasury account gathering 
interest for over 20 years because no plan for distributing it has ever 
been implemented. This bill simply provides for a distribution of the 
funds.
    Without this legislation, over $140 million will continue to be out 
of reach of the people to whom it rightfully belongs. While there are 
some people who continue to pursue the Shoshone land claim, it isn't 
right to hold these funds hostage in the meantime.
                                 ______
                                 
    The Chairman. I would like to now recognize the Ranking 
Minority Member, Mr. Kildee, for any statement he may make.

   STATEMENT OF THE HON. DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Well, thank you very much, Mr. Chairman. I want 
to thank you for holding this hearing today on H.R. 1409 and 
H.R. 884.
    H.R. 1409 is a land exchange bill which will allow the 
Eastern Band of Cherokee to build new schools for their 
children. I also want to welcome my friend, Chief Leon Jones, 
Principal Chief of the Eastern Band of Cherokee Indians, who is 
here to testify on behalf of this legislation.
    One of the central promises the U.S. Government made to the 
Indian Nations in their treaties was the promise of education 
for their people. Time and time again, our Government has 
failed to live up to that promise.
    Mr. Chairman, I have visited several of the tribal schools 
in my 26 years here in Congress, and I can honestly say that 
when the Federal Government has run those schools, they have 
not always done a very good job. I have visited schools that a 
Federal judge would not let us keep prisoners in. As a matter 
of fact, we had to destroy a jail in Flint, Michigan, because 
the Federal judge said it was unfit for human habitation, and 
that jail was in better shape than some of the Indian schools I 
have visited.
    So the Federal Government has not done a good job. This 
nation, the Cherokee Nation, wants to build schools for their 
children, and I think we should work with them.
    It is unacceptable that we do not encourage them by 
legislation to do that which they choose to do under their 
sovereignty. In my years of elective office, I have enjoyed the 
support of the environmental community for my commitment to 
protecting our Nation's precious resources. That is something 
of which I am very proud. In fact, I wrote the law establishing 
one of the largest Federal wilderness areas east of the 
Mississippi River. I have also drafted laws protecting some of 
our Nation's most threatened wild and scenic rivers. I have set 
aside a thousand miles of rivers in Michigan as wild and scenic 
rivers. And I know that some of my environmental friends oppose 
this legislation and feel that no land should ever be exchanged 
from the National Park Service. But in this instance, I must 
disagree. We have made commitments to this tribe, this 
sovereign nation, and we should keep that commitment.
    One fact remains indisputable in this case. Before there 
was a park on the Ravensford tract, that land belonged to the 
sovereign Cherokee Nation, and thousands of Cherokee people 
were forcibly removed from this land during the infamous Trail 
of Tears, which, in my view, is one of the most shameful acts 
in our country's history.
    Mr. Chairman, I support this legislation because I believe 
it will give back to the tribe what was traditionally theirs 
and unite their reservation which has significant cultural and 
historic meaning to the Cherokee people. I have seen pictures 
of this land, and I am convinced that the land exchange will 
not endanger the integrity of this park. As a matter of fact, I 
think the park will be enhanced by this exchange.
    I understand that the tribe has agreed to exchange some 
other valuable property that was identified by the National 
Park Service, and this is a very reasonable approach. And when 
we find this type of reasonable approach, I think Congress 
should give its imprimatur to that.
    Mr. Chairman, I also would like to speak on H.R. 884, a 
bill which would provide for the use and distribution of funds 
awarded the Western Shoshone Indians under a 1979 ruling by the 
Indian Claims Commission. The award, which today includes over 
$130 million, is compensation for what is called an 
encroachment by the United States onto Western Shoshone 
ancestral lands. Considering the riches in much of the land, I 
do not think anyone could characterize this as a good deal for 
the Western Shoshone. But it was what was litigated and 
determined to be legal. Disputes and disagreement among the 
Western Shoshone and between the bands in the United States has 
kept the monies from being distributed. Congress has also 
clearly played a part in holding up the distribution of these 
judgment awards.
    I have served on this Committee now for over two decades, 
and during this time several proposals have been submitted 
providing for distribution of these funds. We have seen 
everything from a total straight per capita payment to several 
funds being set up for specific purposes, to proposals with 
overly generous attorneys' fees attached. Each proposal came 
with a promise of wide support throughout the Western Shoshone. 
And each proposal failed to be enacted because ultimately not 
enough members were comfortable with the provisions and the 
support behind them.
    Many Western Shoshone Indians want these awards distributed 
and are frustrated with the delay. They want to receive the 
funds so they can pay a few bills and move onto their lives. 
However, for many other Western Shoshone Indians, no monetary 
compensation can satisfy their hope for the return of some of 
the Western Shoshone ancestral lands.
    Many on this side of the issue believe that accepting the 
awards money would be supporting the Federal actions that took 
their land. Today, we are again faced with a proposal to 
distribute judgment award funds to the Western Shoshone 
Indians. I look forward to hearing from our witnesses and 
learning more about the activities which have brought us up to 
this point.
    I want to thank you, Mr. Chairman, for bringing this bill 
up for a hearing at this time. Because of the long and somewhat 
tumultuous history, I believe we must move carefully and 
deliberately on this bill. Bringing the bill up during the 
first session gives us time to study the issue and fully 
understand its ramifications.
    Again, Mr. Chairman, I thank you for the time.
    [The prepared statements of Mr. Kildee follow:]

 Statement of The Honorable Dale Kildee, a Representative in Congress 
                from the State of Michigan, on H.R. 884

    MR. CHAIRMAN, THANK YOU FOR HOLDING THIS HEARING TODAY ON H.R. 884, 
A BILL WHICH WOULD PROVIDE FOR THE USE AND DISTRIBUTION OF FUNDS 
AWARDED TO THE WESTERN SHOSHONE INDIANS UNDER A 1979 RULING BY THE 
INDIAN CLAIMS COMMISSION. THE AWARD, WHICH TODAY INCLUDES OVER $130 
MILLION, IS COMPENSATION FOR WHAT IS CALLED AN ``ENCROACHMENT'' BY THE 
UNITED STATES ONTO WESTERN SHOSHONE ANCESTRAL LANDS.
    CONSIDERING THE RICHES IN MUCH OF THE LAND, I DON'T THINK ANYONE 
WOULD CHARACTERIZE THIS AS A GOOD DEAL FOR THE WESTERN SHOSHONE BUT IT 
IS WHAT WAS LITIGATED AND DETERMINED TO BE LEGAL.
    DISPUTES AND DISAGREEMENTS AMONG THE WESTERN SHOSHONE AND BETWEEN 
THE BANDS AND THE UNITED STATES HAS KEPT THE MONIES FROM BEING 
DISTRIBUTED. CONGRESS HAS ALSO CLEARLY PLAYED A PART IN HOLDING UP THE 
DISTRIBUTION OF THESE JUDGMENT AWARDS.
    I'VE SERVED ON THIS COMMITTEE FOR OVER TWO DECADES AND DURING THIS 
TIME SEVERAL PROPOSALS HAVE BEEN SUBMITTED PROVIDING FOR DISTRIBUTION 
OF THESE FUNDS. WE'VE SEEN EVERYTHING FROM A TOTAL STRAIGHT PER CAPITA 
PAYMENT, TO SEVERAL FUNDS BEING SET UP FOR SPECIFIC PURPOSES, TO 
PROPOSALS WITH OVERLY GENEROUS ATTORNEY'S FEES ATTACHED. EACH PROPOSAL 
CAME WITH THE PROMISE OF WIDE SUPPORT THROUGHOUT THE WESTERN SHOSHONE.
    YET EACH PROPOSAL FAILED TO BE ENACTED BECAUSE ULTIMATELY NOT 
ENOUGH MEMBERS WERE COMFORTABLE WITH THE PROVISIONS AND THE SUPPORT 
BEHIND THEM.
    MANY WESTERN SHOSHONE INDIANS WANT THESE AWARDS DISTRIBUTED AND ARE 
FRUSTRATED WITH THE DELAY. THEY WANT TO RECEIVE THE FUNDS SO THEY CAN 
PAY A FEW BILLS AND MOVE ON WITH THEIR LIVES.
    HOWEVER, FOR MANY OTHER WESTERN SHOSHONE INDIANS, NO MONETARY 
COMPENSATION CAN SATISFY THEIR HOPE FOR THE RETURN OF SOME OF THE 
WESTERN SHOSHONE ANCESTRAL LANDS. MANY ON THIS SIDE OF THE ISSUE 
BELIEVE THAT ACCEPTING THE AWARD MONIES WOULD BE SUPPORTING THE FEDERAL 
ACTIONS THAT TOOK THEIR LAND.
    TODAY WE ARE AGAIN FACED WITH A PROPOSAL TO DISTRIBUTE JUDGMENT 
AWARD FUNDS TO THE WESTERN SHOSHONE INDIANS. I LOOK FORWARD TO HEARING 
FROM OUR WITNESSES AND LEARNING MORE ABOUT THE ACTIVITIES WHICH HAVE 
BROUGHT U.S. TO THIS POINT.
    I WANT TO THANK CHAIRMAN POMBO FOR BRINGING THIS BILL UP FOR A 
HEARING AT THIS TIME.
    BECAUSE OF THE LONG AND SOMEWHAT TUMULTUOUS HISTORY, I BELIEVE WE 
MUST MOVE CAREFULLY AND DELIBERATIVELY ON THIS LEGISLATION. BRINGING 
THE BILL UP DURING THE FIRST SESSION GIVES U.S. TIME TO STUDY THE ISSUE 
AND FULLY UNDERSTAND ITS RAMIFICATIONS.
    THANK YOU.
                                 ______
                                 

Statement of The Honorable Dale E. Kildee, a Representative in Congress 
                from the State of Michigan, on H.R. 1409

    MR. CHAIRMAN, I WANT TO THANK YOU FOR HOLDING THIS HEARING TODAY ON 
H.R. 1409, A LAND EXCHANGE BILL WHICH WILL ALLOW THE EASTERN BAND OF 
CHEROKEE TO BUILD NEW SCHOOLS FOR THEIR CHILDREN. I ALSO WANT TO 
WELCOME MY FRIEND, CHIEF LEON JONES, PRINCIPAL CHIEF OF THE EASTERN 
BAND OF CHEROKEE INDIANS, WHO IS HERE TO TESTIFY ON BEHALF OF THIS 
LEGISLATION.
    ONE OF THE CENTRAL PROMISES THE U.S. GOVERNMENT MADE TO THE INDIAN 
NATIONS IN THEIR TREATIES WAS THE PROMISE OF EDUCATION FOR THEIR 
PEOPLE. TIME AND TIME AGAIN, OUR GOVERNMENT HAS FAILED TO LIVE UP TO 
THAT PROMISE.
    MR. CHAIRMAN, I HAVE VISITED SEVERAL OF THE TRIBAL SCHOOLS IN MY 26 
YEARS IN CONGRESS, AND I CAN HONESTLY SAY THAT SO MANY OF THESE SCHOOLS 
WERE IN SUCH DISREPAIR THAT A JUDGE WOULDN'T ALLOW CRIMINALS TO STAY IN 
THEM.
    THIS IS THE KIND OF ENVIRONMENT IN WHICH MANY OF OUR INDIAN 
CHILDREN HAVE BEEN FORCED TO LEARN.
    THAT IS UNACCEPTABLE. THROUGH THIS LEGISLATION WE CAN HELP THE 
EASTERN BAND OF CHEROKEE MOVE FORWARD WITH ITS COMMITMENT TO EDUCATE 
ITS CHILDREN.
    IN MY YEARS OF ELECTED OFFICE, I HAVE ENJOYED THE SUPPORT OF THE 
ENVIRONMENTAL COMMUNITY FOR MY COMMITMENT TO PROTECTING OUR NATION'S 
PRECIOUS RESOURCES. THAT IS SOMETHING FOR WHICH I AM VERY PROUD.
    IN FACT, I WROTE THE LAW ESTABLISHING ONE OF THE LARGEST FEDERAL 
WILDERNESS AREAS EAST OF THE MISSISSIPPI RIVER.
    I HAVE ALSO DRAFTED LAWS PROTECTING SOME OF OUR NATION'S MOST 
THREATENED WILD AND SCENIC RIVERS. MY COMMITMENT OF THE ENVIRONMENT IS 
SECOND TO NONE.
    I KNOW THAT SOME OF MY ENVIRONMENTAL FRIENDS OPPOSE THIS 
LEGISLATION AND FEEL THAT NO LAND SHOULD EVER BE EXCHANGED FROM THE 
NATIONAL PARK SERVICE. BUT IN THIS INSTANCE, I MUST DISAGREE.
    ONE FACT REMAINS INDISPUTABLE IN THIS CASE. BEFORE THERE WAS A PARK 
ON THE RAVENSFORD TRACT, THAT LAND BELONGED TO THE SOVEREIGN CHEROKEE 
NATION. AND THOUSANDS OF CHEROKEE PEOPLE WERE FORCIBLY REMOVED FROM 
THIS LAND DURING THE INFAMOUS TRAIL OF TEARS, WHICH IN MY VIEW, IS ONE 
OF THE MOST SHAMEFUL ACTS IN OUR COUNTRY'S HISTORY.
    MR. CHAIRMAN, I SUPPORT THIS LEGISLATION BECAUSE I BELIEVE IT WILL 
GIVE BACK TO THE TRIBE WHAT WAS TRADITIONALLY THEIRS AND UNITE THEIR 
RESERVATION WHICH HAS SIGNIFICANT CULTURAL AND HISTORIC MEANING TO THE 
CHEROKEE PEOPLE.
    I HAVE SEEN PICTURES OF THIS LAND AND I AM CONVINCED THAT THIS LAND 
EXCHANGE WILL NOT ENDANGER THE INTEGRITY OF THIS PARK.
    I UNDERSTAND THAT THE TRIBE HAS AGREED TO EXCHANGE SOME OTHER 
VALUABLE PROPERTY THAT WAS IDENTIFIED BY THE NATIONAL PARK SERVICE. 
THIS IS A REASONABLE APPROACH TO THIS ISSUE.
    I LOOK FORWARD TO HEARING FROM THE WITNESSES TODAY AND MOVING 
FORWARD ON THIS LEGISLATION. THANK YOU.
                                 ______
                                 
    The Chairman. Thank you.
    I would now like to welcome our first panel. Panel one 
consists of Mr. Mike Olsen, Counselor to the Assistant 
Secretary for Indian Affairs of the Department of Interior. He 
is providing testimony on both bills today.
    Please come up. Before you sit down, you forgot.
    [Witness sworn.]
    The Chairman. Let the record show he answered in the 
affirmative.
    Michael, remember that under the Committee rules you must 
limit the oral testimony to 5 minutes, but the entire written 
statement will appear in the record.

    STATEMENT OF MICHAEL OLSEN, COUNSELOR TO THE ASSISTANT 
 SECRETARY OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, 
                          ON H.R. 1409

    Mr. Olsen. OK. Thank you. If you can hear me OK?
    The Chairman. Go ahead.
    Mr. Olsen. OK. I appreciate the opportunity to present the 
views of the Department of the Interior on H.R. 1409. Is that 
OK that we start there? OK. My name is Mike Olsen. I am a 
Counselor to the Assistant Secretary for Indian Affairs. It is 
nice to be back with the Committee, even if it on the other 
side of this table all by myself.
    The Eastern Band of Cherokee Indian Reservation is located 
in western North Carolina and is home to 12,500 enrolled 
members. The reservation is adjacent to both the Great Smoky 
Mountains National Park and the Blue Ridge Parkway, which are 
both under the jurisdiction of the National Park Service.
    H.R. 1409 would direct the Secretary of the Interior to 
exchange with the Eastern Band of Cherokee Indians 
approximately 143 acres of the Great Smoky Mountains National 
Park for 218 acres of tribal land. Just to clarify, the 143-
acre tract is referred to as the Ravensford tract; the 218 
acres that the tribe would be giving up is referred to as the 
Yellow Face tract. The Ravensford tract would be held in trust 
by the United States for the benefit of the tribe, and the 
Yellow Face tract would be added to the parkway.
    The Department has no objection to action by Congress on 
this legislation. We are, however, moving forward with an 
administrative process for evaluation of the environmental 
effects of the proposed exchange and alternatives.
    In the report that accompanied the Department of the 
Interior and Related Agencies Appropriations Act of 2001, the 
House Committee on Appropriations expressed support for a land 
exchange between the tribe and the Park Service so the tribe 
could obtain land suitable for a new school complex. The 
Committee urged the cooperation of the Park Service to ensure 
the exchange with the tribe takes place expeditiously. The Park 
Service held a series of initial scoping meetings in early 
2002. The compilation of the public comments, evaluations, and 
appraisals are contained in a Draft Environmental Impact 
Statement, which was available for public review starting on 
June 13th and extending through August 15th. And the Department 
will update the Committee on the issues raised in this public 
review.
    The tribe has been seeking flat land on which to build a 
new school for over 20 years. The tribe plans to use a portion 
of the Ravensford tract for the construction of an educational 
campus. The bill's findings point out that over 40 years ago, 
the Department of the Interior built the existing Cherokee 
Elementary School which has a capacity of 480 students. The 
school now hosts 794 students in dilapidated buildings and 
mobile classrooms at a dangerous highway intersection in 
downtown Cherokee, North Carolina.
    Under the legislation, the Park Service and the tribe would 
enter into consultations to develop mutually agreed upon 
standards for size, impact, and design of the educational 
facilities in order to minimize or mitigate any adverse impacts 
on natural or cultural resources. The Park Service would also 
be authorized to enter into cooperative agreements to provide 
training, management, and protection of the natural and 
cultural resources on the tract. The development of the tract 
would be restricted to a road and utility corridor, and an 
educational campus and support infrastructure.
    The legislation simply authorizes a land exchange for a 
site for a school. The tribe will still have to go through the 
process necessary for using BIA funds under the school cost 
share demonstration project or replacement priority. In 
addition, while the Park Service will mutually agree on the 
standards for size, impact, and design, the tribe will still 
have to follow BIA requirements with regard to design and 
planning.
    The Ravensford tract is rich in biodiversity and in 
historical artifacts and Cherokee history. The tribe's Historic 
Preservation Office, in consultation with the Park Service, the 
State Historic Preservation Office, and an independent expert 
review panel, has developed a cultural resource mitigation plan 
to ensure the preservation of these properties.
    Finally, the land exchange contemplated in H.R. 1409 
presents an extremely unique situation. The Department does not 
typically support land exchanges that establish restrictions, 
such as those contained in Section 4 of the legislation, on 
tribal trust land. We understand, however, that there was 
mutual agreement between the tribe and the bill's sponsor to 
include these provisions in the bill in order to ensure the 
least amount of impact on the adjoining park property.
    This concludes my testimony, and I would certainly be happy 
to answer questions that you may have.
    [The prepared statement of Mr. Olsen follows:]

Statement of Michael D. Olsen, Counselor to the Assistant Secretary for 
     Indian Affairs, U.S. Department of the Interior, on H.R. 1409

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1409, a bill to provide for a 
Federal land exchange for the environmental, educational, and cultural 
benefit of the American public and the Eastern Band of Cherokee 
Indians.
    The Eastern Band of Cherokee Indian Reservation is located in 
western North Carolina and is home to 12,500 enrolled members. The 
Reservation is adjacent to both the Great Smoky Mountains National Park 
(Park) and Blue Ridge Parkway (Parkway), which are under the 
jurisdiction of the National Park Service (NPS). Congress established 
the Great Smoky Mountains National Park on June 15, 1934. President 
Franklin Delano Roosevelt officially dedicated the Park on September 2, 
1940.
    H.R. 1409 would direct the Secretary of the Interior to exchange 
approximately 143 acres of the Park and Parkway, known as the 
Ravensford tract, to the Eastern Band of Cherokee Indians (Tribe) for 
approximately 218 acres of land, known as the Yellow Face tract, to the 
NPS. The Ravensford tract would be held in trust by the United States 
for the benefit of the Tribe and the Yellow Face tract would be added 
to the Parkway.
    We have no objection to action by Congress in this matter. On the 
administrative front, we are moving forward with a process for 
evaluation of the environmental effects of the proposed exchange and 
alternatives. House Report 106-646, which accompanied the Department of 
the Interior and Related Agencies Appropriations Act of 2001 (P.L. 106-
291), the House Committee on Appropriations expressed its support of 
the Tribe's efforts to enter into a land exchange with the NPS for 
purposes of obtaining land suitable for building a new school complex. 
The Committee urged ``the cooperation of the NPS to ensure the exchange 
with the Tribe takes place expeditiously.'' In response, in January 
2000 the NPS committed to begin this process and on June 14, 2000, a 
general agreement was executed between the NPS and the Tribe to 
identify the resource evaluations and appraisals required to be carried 
out by law. The NPS held initial scoping meetings in Knoxville (TN), 
Asheville (NC), and Cherokee (NC) in early 2002. The compilation of the 
public comments, evaluations and appraisals are contained in a Draft 
Environmental Impact Statement, which is available for public review 
from June 13th through August 15th. The Department will update the 
Committee on the issues raised in this public review.
    The Tribe plans to use a portion of the Ravensford tract for the 
construction of an educational campus, which would replace existing 
schools that were constructed 40 years ago. The Tribe has been seeking 
flat land on which to build a new school for over 20 years. The bill's 
findings point out that the current Cherokee Elementary School was 
built by the Department of the Interior over 40 years ago with a 
capacity of 480 students, but now hosts 794 students in dilapidated 
buildings and mobile classrooms at a dangerous highway intersection in 
downtown Cherokee, North Carolina.
    Under the legislation, the NPS and Tribe would enter into 
consultations to review the planned construction allowing the NPS and 
Tribe to develop mutually agreed upon standards for size, impact, and 
design of construction of the educational facilities in order to 
minimize or mitigate any adverse impacts on natural or cultural 
resources. The NPS would also be authorized to enter into cooperative 
agreements to provide training, management, protection, preservation, 
and interpretation of the natural and cultural resources on the tract. 
The development of the tract would be restricted to road and utility 
corridor, and an educational campus and support infrastructure. No new 
structures would be constructed on the portion of the tract north of 
the point where the Big Cove Road crosses the Raven Fork River.
    The legislation simply authorizes a land exchange for a site for a 
school. The Tribe will still have to go through the process necessary 
for using BIA funds under the school cost share demonstration project 
or replacement priority. In addition, while the NPS will mutually agree 
on the standards for size, impact and design, the Tribe will still have 
to follow BIA requirements with regard to design and planning.
    During the 2002 National Tribal Historic Preservation Officers 
meeting, the Bureau of Indian Affairs (BIA) was given a tour of the 
lands proposed in this exchange. The Ravensford Tract is rich in 
biodiversity and in historical artifacts and Cherokee history. There is 
evidence that this property has more intact archeological properties 
that are historically significant to the Cherokee than any place other 
than a place known as Katooah, which is considered the birthplace of 
the Cherokee. The Tribe's Historic Preservation Office in consultation 
with the NPS, the State Historic Preservation Office, and an 
independent expert peer review panel has developed a cultural resource 
mitigation plan to ensure the preservation of these properties.
    The land exchange contemplated in H.R. 1409 presents an extremely 
unique situation. The Department does not typically support land 
exchanges that establish restrictions, such as the ones contained in 
section 4, on tribal trust land. We understand, however, there was 
mutual agreement between the tribe and the sponsor to include these 
provisions in the bill in order to ensure the least amount of impact on 
the adjoining park property. This concludes my testimony. I would be 
happy to answer any questions that you may have.
                                 ______
                                 
    The Chairman. Mr. Olsen, you may as well do the testimony 
on both bills.
    Mr. Olsen. OK.
    The Chairman. And we will open it up for questions at that 
point.

    STATEMENT OF MICHAEL OLSEN, COUNSELOR TO THE ASSISTANT 
SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, 
                          ON H.R. 884

    Mr. Olsen. Very good. H.R. 884, the Western Shoshone Claims 
Distribution Act.
    Taking a step back, the Western Shoshone judgment funds 
that are discussed, contemplated in this legislation originated 
with two claims filed in 1951 by the Te-Moak Bands of Western 
Shoshone in the Indian Claims Commission. One is an aboriginal 
land claim that was concluded in 1979 for $26.1 million. The 
other is an accounting claim that resulted in two awards. The 
first was for approximately $823,000, which Congress 
appropriated in 1992, and the second award was for $29,000, 
which was appropriated in 1995.
    Section 2 of H.R. 884 proposes to distribute the Western 
Shoshone land claim funds 100 percent per capita to 
approximately 6,500 individuals who have at least one-quarter 
degree of Western Shoshone blood. The balance of this fund, 
including interest, as of June 11, 2003, is $142,472,644.
    Section 3 of the legislation proposes to use the principal 
portion of the Western Shoshone accounting claims funds for a 
non-expendable trust fund. The interest and investment income 
will be available for educational grants and other forms of 
educational assistance to individual Western Shoshone members 
that are enrolled under Section 2 of the legislation and to 
their lineal descendants. The principal fund totals $754,136. 
The interest fund, as of June 11, 2003, totals $632,582.
    Since 1980, numerous attempts have been made to reach 
agreement on the disposition of the Western Shoshone judgment 
funds. Moreover, a large segment of the Western Shoshone people 
have indicated that they support the judgment fund 
distribution. However, the tribal councils of the four 
successor Western Shoshone tribes, which are the Te-Moak, Ely, 
Duckwater, and Yomba, have mostly opposed the distribution of 
the judgment funds because they wanted Western Shoshone 
aboriginal lands returned.
    Now, although the tribal governments were unanimous in 
their opposition in the early 1990's, since 1997 three of the 
four tribal councils have modified their position to support 
the distribution of the judgment funds.
    The Te-Moak Tribal Council enacted a resolution on March 6, 
1997, adopting a plan for the distribution of the funds and 
asked the Department of the Interior to support that plan. The 
next tribal council rescinded that resolution in the summer of 
2000, but the current tribal council rescinded that action in 
January of 2002 and reinstated the 1997 resolution supporting 
distribution.
    The Duckwater Shoshone Tribal Council enacted a resolution 
on March 18, 1998, supporting the Western Shoshone claims 
distribution proposal. On March 10, 1999, the council 
reaffirmed the earlier resolution supporting the distribution 
proposal, and within the last month of 2003, it enacted another 
resolution reconfirming its support of the proposal.
    The Ely Tribal Council enacted a resolution on October 9, 
2001, supporting the bills of the 107th Congress dealing with 
this issue. It, too, has enacted another resolution 
reconfirming its previous support.
    We have been advised that the Yomba Tribal Council 
continues to oppose the distribution. However, Duck Valley, 
Fallon, and Fort McDermitt, three tribes with enrolled members 
that would be eligible to share in the distribution, in the 
judgment fund distribution under this legislation, have also 
enacted resolutions supporting the distribution.
    We testified during the 107th Congress before the Senate 
Committee on Indian Affairs that the Shoshone-Paiute Tribal 
Business Council of Duck Valley withdrew its support by 
resolution dated November 13, 2001. However, the Western 
Shoshones of Duck Valley continue to support the legislative 
language and have taken no action to rescind the resolutions.
    The Department supports the enactment of H.R. 884 because 
we believe that it reflects the wishes of the vast majority of 
the Western Shoshone people. We are also pleased that three of 
the four successor tribes have expressed their support of the 
distribution as well as two other tribes with a significant 
number of tribal members of Western Shoshone descent.
    We understand that many of the beneficiaries continue to 
believe in their rights under the Treaty of Ruby Valley. 
Subsection (2)(9) of the legislation acts as a savings clause 
for whatever rights remain in effect.
    This concludes my prepared statement. We are submitting a 
report to be included in the record that gives more of a 
detailed history of the Western Shoshone claims, and I will be 
happy to answer any of your questions.
    [The prepared statement of Mr. Olsen follows:]

Statement of Michael D. Olsen, Counselor to the Assistant Secretary for 
      Indian Affairs, U.S. Department of the Interior, on H.R. 884

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to present the views of the Department of the 
Interior on H.R. 884, a bill entitled ``The Western Shoshone Claims 
Distribution Act.''
    The distribution of the Western Shoshone judgment funds is a long-
standing issue that needs to be settled. The judgment funds stem from 
two claims that were filed by the Te-Moak Bands of Western Shoshone in 
the Indian Claims Commission in 1951. One is an aboriginal land claim 
that was concluded in 1979 in Docket 326-K for $26.1 million. The other 
is an accounting claim. Several issues in the accounting claim were 
handled separately and resulted in two awards. The first award in the 
accounting claim was for approximately $823,000, and Congress 
appropriated funds to pay the claim in 1992. The second award was for 
$29,000, and funds were appropriated in 1995 to pay the claim. The 
accounting claims were in Dockets 326-A-1 and 326-A-3.
    Since 1980, numerous attempts have been made to reach agreement on 
the disposition of the Western Shoshone judgment funds. The most recent 
attempt began in March 1998, the Western Shoshone Steering Committee 
(WSSC), which is composed of individuals that are tribal members at 
various reservations in Nevada. With the approval of the Te-Moak Tribal 
Council, the WSSC has worked over the past four years investigating if 
the Western Shoshone people were in favor of a judgment fund 
distribution.
    Since 1980, when the BIA held its first Hearing of Record on the 
distribution of the land claims judgment funds, a large segment of the 
Western Shoshone people have indicated that they are in favor of the 
judgment fund distribution. In the meantime, it's important to note 
that the tribal councils of the four successor Western Shoshone tribes 
(Te-Moak, Ely, Duckwater and Yomba) have mostly opposed the 
distribution of the judgment funds because they wanted the Western 
Shoshone aboriginal lands returned. Although the tribal governments 
were unanimous in their opposition in the early 1990's, since 1997, 
three of the four tribal councils have modified their position to 
support the distribution of the judgment funds.
    The Te-Moak Tribal Council enacted Resolution No. 97-TM-10 on March 
6, 1997, adopting a plan for the distribution of these funds and 
requested the Department to support it. That resolution was rescinded 
by the next tribal council in the summer of 2000, but the current 
tribal council rescinded that action in January of 2002 and reinstated 
the 1997 resolution, supporting distribution. It too, has not been 
rescinded. The Duckwater Shoshone Tribal Council enacted Resolution No. 
98-D-12 on March 18, 1998, supporting the Western Shoshone claims 
distribution proposal. On March 10, 1999, they enacted Resolution No. 
99-D-07 reaffirming the earlier resolution supporting the Western 
Shoshone Claims distribution proposal and within the last month of 
2003, they enacted another resolution reconfirming their support of the 
proposal. The Ely Tribal Council enacted Resolution No. 2001-EST-44 on 
October 9, 2001, supporting the bills of the 107th Congress. They, too, 
have enacted another resolution that reconfirms their previous support. 
We have been advised that the Yomba Tribal Council continues to oppose 
the distribution. Several other tribes with enrolled tribal members 
that would be eligible to share in the judgment fund distribution under 
H.R. 884 have also enacted resolutions supporting the distribution. 
Those tribes are Duck Valley, Fallon and Fort McDermitt. We testified 
during the 107th Congress before the Senate Committee on Indian Affairs 
that the Shoshone-Paiute Tribal Business Council of Duck Valley 
withdrew its support by Resolution No. 2002-SPR-012, dated November 13, 
2001. However, the Western Shoshones of Duck Valley continue to support 
the legislative language and have taken no action to rescind the 
resolutions.
    We support the enactment of H.R. 884 because we believe that it 
reflects the wishes of the vast majority of the Western Shoshone 
people. We are also pleased that three of the four successor tribes 
have expressed their support of the distribution, as well as two other 
tribes with a significant number of tribal members of Western Shoshone 
descent.
    Section 2 of H.R. 884 proposes to distribute the Western Shoshone 
land claims funds that were awarded in Docket 326-K, one hundred 
percent (100%) per capita to approximately 6,500 individuals who have 
at least one-quarter (1/4) degree of Western Shoshone Blood. The 
current balance of this fund, including interest, as of June 11, 2003 
is $142,472,644. This section appears to be in accord with the wishes 
of the Western Shoshone people.
    Section 3 proposes to use the principal portion of the Western 
Shoshone accounting claims funds awarded in Dockets 326-A-1 and 326-A-3 
for a non-expendable Trust Fund. The interest and investment income 
will be available for educational grants and other forms of educational 
assistance to individual Western Shoshone members that are enrolled 
under Section 2 of this Act, and to their lineal descendants. The 
principal fund totals $754,136. The interest fund, as of June 11, 2003 
totals $632,582. This section appears to be in accord with the wishes 
of the Western Shoshone people.
    We understand that many of the beneficiaries of this treaty 
continue to believe in their rights under the Treaty of Ruby Valley and 
this subsection acts as a savings clause for whatever rights remain in 
effect. We are concerned that some tribes or individuals may believe 
that Article 5 of the Treaty (land provisions) remains in effect. To be 
safe, the clause should read, ``Receipt of a share of the funds under 
this subsection shall not alter any treaty rights, or the final 
decisions of the Federal Courts regarding those rights, pursuant to the 
`1863 Treaty of Ruby Valley,' inclusive...''
    This concludes my prepared statement. We are submitting a report to 
be included into the record that gives a detailed history of the 
Western Shoshone claims. I will be happy to answer any questions the 
Committee may have.
                                 ______
                                 

            Western Shoshone Claims - Background Information

    In 1935, the Western Shoshone started pursuing their claims against 
the United States by seeking legislation (S. 2510 - 74th Congress, 1st 
Session) to grant jurisdiction to the Court of Claims to hear the 
Western Shoshone claims arising under the Treaty of October 1, 1863, 18 
Stat. 689 (1863 Treaty of Ruby Valley). This bill, and several others 
that were introduced in Congress between 1935 and 1946, did not result 
in legislation. The last bill, S. 2278, was introduced on May 31, 1946. 
The primary reason Congress did not enact this legislation was because 
it deferred action on all special jurisdictional bills for individual 
tribes so that it could pass legislation to create an Indian Claims 
Commission (ICC) with the authority to consider the claims of all 
Indian tribes. The ICC was created under the Act of August 13, 1946, 60 
Stat. 1049.
    The Shoshone claims in Docket 326 were filed before the ICC on 
August 10, 1951. Docket 326 included multiple claims involving the 
Eastern Bands of Shoshone, the Northwestern Bands of Shoshone, the 
Western Shoshone, the Shoshone-Goship Bands, and the mixed Bands of 
Bannock and Shoshone Indians. The ICC closed Docket 326 in 1967 when it 
severed all of the claims into separate Dockets numbering from 326-A 
through 326-K. The Western Shoshone land claims were transferred to 
Docket 326-K and their accounting claims were transferred to Docket 
326-A. 40 Ind. Cl. Comm. 318, 453
    On August 15, 1977, the ICC granted a final award of $26,145,189.89 
in Docket 326-K to the Western Shoshone Identifiable Group as 
represented by the Temoak Bands of Western Shoshone Indians, Nevada. 
See 219 Ct. Cl. 346 (1979) Crt. Denied 444 U.S. 973 (1979) Litigation 
and other actions initiated by some Western Shoshone entities, 
including the Te-Moak Bands (aka Temoak) delayed until December 19, 
1979, the appropriation of funds to satisfy the award.
    The ICC concluded that the Western Shoshone Identifiable Group 
aboriginally exclusively used and occupied a large tract of land 
located principally in Nevada with a small portion extending into 
California. The tract formed roughly a wedge from near the northeast 
corner of Nevada extending south, southwest, with the point of the 
wedge in California, including Death Valley.
    The ICC found that the Western Shoshone California lands were 
acquired by the United States by statute on March 3, 1853, and that 
Indian title to the Nevada lands was extinguished gradually by the 
United States which treated the tract as public lands. On February 11, 
1966, the ICC approved a joint stipulation between the United States 
and the Western Shoshone plaintiff that established July 1, 1872, as 
the aggregate valuation date for the encroachment upon and taking of 
the Nevada lands.
    Prior to the agreement of the Nevada evaluation date the ICC had 
established that the Nevada tract consisted of 22,211,753 acres and the 
California tract consisted of 2,184,650 acres. On October 11, 1972, the 
ICC awarded in an Interlocutory Order $21,350,000 for the Nevada land, 
$200,000 for the California land, and $4,604,600 for the removal of 
minerals from the Nevada tract prior to the 1872 taking date. The ICC 
deducted $9,410.11 as payment on the claim, but nothing for offsets, 
resulting in the 1977 award of $26,145,189.89. See 29 Ind. Cl. Comm. 5.
Pertinent Aspects Concerning the Western Shoshone Land Claims
    Controversy surrounds any discussion concerning the Western 
Shoshone land claims and the distribution of the judgment funds awarded 
in Docket 326-K. The disputed issues include the size and location of 
the claimed land area, whether the 1863 Treaty of Ruby Valley grants 
the Western Shoshone recognized title to the lands described in the 
1863 Treaty of Ruby Valley, and effect the distribution of the judgment 
funds will have on the remaining claims of the Western Shoshone and on 
individual Western Shoshone people.
    The issue concerning the size and location of the claimed land area 
first surfaced in 1935 when the Department of the Interior issued a 
report on S. 2510, dated June 12, 1935, and stated that the Duck Valley 
Indian Reservation was within the country described in the treaty and 
that the contention of the Indians to the contrary was not supported by 
Royce's Indian Land Cessions (Eighteenth Annual Report of the Bureau of 
American Ethnology). In a later report on S. 23 (Senate Report No. 79, 
dated March 5, 1943), the Department of the Interior acknowledged that 
its earlier statement concerning the Duck Valley Reservation was 
erroneous. The report further states that:
        In recent years, there has been discovered a map that was 
        prepared by James Duane Doty, one of the Commissioners who 
        negotiated the treaties with the Western and four other bands 
        of Shoshone Indians in 1863. The map accompanied the treaties 
        concluded by Commissioner Doty with these Indians and roughly 
        depicted the boundaries of the lands claimed by them as 
        described in the separate treaties. An examination of the map 
        discloses that the Duck Valley Reservation is not within the 
        country described in the treaty with the Western Shoshones, 
        but, as contended by them for many years, is situated a 
        considerable number of miles north of their country. Further 
        support is given to the contention of the Indians by a map 
        prepared by the General Land Office of this Department in May, 
        1939, showing the boundaries of the lands claimed by the 
        various bands of Shoshone Indians in the treaties of 1863 and 
        the acreage of such lands in each State. This map also shows 
        that the Duck Valley Reservation is far north of the lands 
        described in the Western Shoshone Treaty of 1863. The map shows 
        in addition that the lands described in the Western Shoshone 
        Treaty comprised approximately 15,811,000 acres situated 
        entirely within the State of Nevada.
    This same issue is discussed in ICC Finding of Fact No. 73 (40 Ind. 
Cl. Comm. 318, 400-403). The ICC found that:
    <bullet> The locations of the boundaries of the Western Shoshone 
country, described by metes and bounds in Article V of the Treaty of 
Ruby Valley, are not free from doubt. The decision in the valuation 
proceeding herein noted that the territorial claim of the Western 
Shoshones, as described in the Treaty of Ruby Valley and depicted by 
Royce, Indian Land Cessions in the United States, supra, was larger 
than the area of the claim in Docket 326-K (29 Ind. Cl. Comm. 5, 47, 
note 5). The Western Shoshone lands are shown as Area 444 on Royce's 
maps of Nevada, California, Utah, Oregon, and Idaho. Royce Area 444 
extends far north into Idaho, northwest into Oregon, east into Utah, 
and covers more Nevada land than is included in the Docket 326-K claim. 
According to Royce's maps and cession schedules, the Lemhi reserve, 
established by Executive Order of February 12, 1875 (for the Shoshoni, 
Bannocks, and Sheepeaters), the Carlin Farms reserve, established by 
Executive Order of May 10, 1877, and the Duck Valley reserve, 
established by Executive Order of April 16, 1877, were all located 
within the boundaries of the Western Shoshone country as described in 
the Treaty of Ruby Valley.
    <bullet> Leaders of the Western Shoshones who lived near the area 
of the Duck Valley Reservation suggested that the Duck Valley land be 
set aside for all Western Shoshones, but the Temoak bands, who lived in 
the Ruby Valley area south of Duck Valley objected because the 
reservation was not within their country. The Temoak bands believed 
that the treaty promised them a reservation in Ruby Valley. This 
disagreement is consistent with the observations of Powell and Ingalls 
who reported in 1873 that each local group wanted a separate 
reservation in its particular aboriginal area.
    <bullet> Royce relied on data and information of the Bureau of 
Indian Affairs and the General Land Office in preparing his material. 
(Royce, supra, p. 644.)
    <bullet> The Royce maps, in an official publication of the United 
States (as is the 18th Annual Report of the Bureau of American 
Ethnology), show the Duck Valley Reservation as being within the lands 
described in Article V of the Treaty of Ruby Valley and within the 
aboriginal area of the Western Shoshones. These maps and the notes in 
the Land Cession Schedules . . . indicate that officers of the United 
States believed in 1877 when the reservation was established that it 
was within the Western Shoshone aboriginal area. However, plaintiff's 
exhibit 72 in the offsets proceeding includes a report accompanying a 
letter of July 11, 1941, of the Department of the Interior to the 
Chairman of the Committee on Indian Affairs of the House of 
Representatives which states that according to maps available to the 
Department in 1941, the country of the Western Shoshones, as described 
in the Treaty of Ruby Valley, was much less extensive than that shown 
as Area 444 on the Royce maps, and that according to the then recently 
discovered maps, the Duck Valley Reservation was outside of the Western 
Shoshone aboriginal lands. In 1935, before the discovery of the maps 
referred to in the 1941 report, the Department of the Interior reported 
to Congress that the reservation was within the Western Shoshone 
aboriginal area.
    <bullet> In sum, from about 1869 through 1877, the United States 
assisted some Western Shoshones in maintaining small farms and one or 
more reservations within the aboriginal areas, and in 1877, set aside 
the Duck Valley Reservation for all Western Shoshones. Between 1877 and 
1941, the Department of the Interior records indicated that the 
reservation was within the plaintiff's aboriginal area, but since 1941 
the matter has been open to doubt.
    We are mentioning this issue because we note that the map used by 
the Western Shoshone National Council to show the claimed area is 
different than the maps used by the United States and the ICC in Docket 
326-K. The Western Shoshone aboriginal land area was established in 
1962 by the ICC, and it is much larger than the land area described in 
the 1863 Treaty of Ruby Valley. We have attached copies of the maps to 
this report. The first map is a portion of a larger map that was 
included with the Final Report of the Indian Claims Commission that was 
issued in 1978. The second map shows the boundaries of the Western 
Shoshone aboriginal land area and the 1863 Treaty area.
    The second issue concerns whether the Western Shoshone have 
recognized title to the lands described in the 1863 Treaty of Ruby 
Valley. This issue was discussed by the United States Supreme Court in 
its decision in Northwestern Bands of Shoshone Indians v. The United 
States, 324 U.S. 335 (1945). The decision specifically pertains to the 
claims of the Northwestern Bands of Shoshone under the 1863 Box Elder 
Treaty, but it also discusses the five treaties entered into with the 
Shoshones, including the 1863 Ruby Valley Treaty. The following are 
excerpts from the Supreme Court decision:
        On July 5, 1862, 12 Stat. 512, 529, Congress appropriated 
        $20,000 for defraying the expenses of negotiating a treaty with 
        the Shoshones. The appropriation followed a letter from the 
        Secretary of the Interior to the chairman of the House 
        Committee on Indian Affairs expressing the view that the lands 
        owned by the Indians of Utah were largely unfit for cultivation 
        and that it was ``not probable that any considerable portion of 
        them will be required for settlement for many years.'' A 
        special commission was promptly appointed and instructed that 
        it was not expected that the proposed treaty would extinguish 
        Indian title to the lands but only secure freedom from 
        molestation for the routes of travel and ``also a definite 
        acknowledgment as well of the boundaries of the entire country 
        they claim as of the limits within which they will confine 
        themselves, which limits it is hardly necessary to state should 
        be as remote from said routes as practicable.''

        As the distances made it impracticable to gather the Shoshone 
        Nation into one council for treaty purposes, the commissioners 
        made five treaties in an endeavor to clear up the difficulties 
        in the Shoshone country. These are set out in full in the 
        report below. 95 Ct. Cl. 642. Four will be found also in 13 
        Stat. 663, 681, and 18 Stat. 685, 689. . . Northwestern Bands, 
        324 U.S. 335, 341-342 (1935)
    Later in the opinion the Court stated:
        Without seeking any cession or relinquishment of claim from the 
        Shoshone, except the Eastern Shoshone relinquishment of July 3, 
        1868, just referred to, the United States has treated the rest 
        of the Shoshone territory as a part of the public domain. 
        School lands were granted. . . National forests were freely 
        created. . . The lands were opened to public settlement under 
        the homestead laws. . . Thus we have administration of this 
        territory by the United States proceeding as though no Indian 
        land titles were involved.

        The Court of Claims examined the evidence adduced before it and 
        reached the conclusion as a finding of fact that the United 
        States ``did not intend that it [the treaty] should be a 
        stipulation of recognition and acknowledgment of any exclusive 
        use and occupancy right or title of the Indians, parties 
        thereto . . . The treaty was intended to be, and was, a treaty 
        of peace and amity with stipulated annuities for the purposes 
        of accomplishing those objects and achieving that end.'' . . . 
        324 U.S. 335, 346 (1945)
    In its conclusion, the Supreme Court held that:
        It seems to us clear that the circumstances leading up to and 
        following the execution of the Box Elder Treaty that the 
        parties did not intend to recognize or acknowledge by that 
        treaty the Indian title to the lands in question. Whether the 
        lands were in fact held by the Shoshones by Indian title from 
        occupancy or otherwise or what rights flow to the Indians from 
        such title is not involved. Since the rights if any the 
        Shoshones have, did not arise under or grow out of the Box 
        Elder treaty, no recovery may be had under the jurisdictional 
        act. 324 U.S. 335, 354 (1945)
    The Supreme Court decision caused an uproar. Congressman Karl E. 
Mundt of South Dakota was critical of the decision and his comments 
were included in the Extension of Remarks portion of the Congressional 
Record. Congressman Mundt's remarks, dated March 14, 1945, were 
included in the Appendix to the Congressional Record, 79th Congress, 
1st Session, page A1185. Copies of Congressman Mundt's remarks and the 
Supreme Court decision are attached.
    The controversy escalated in the 1970's when the Bureau of Land 
Management filed suit against Mary and Carrie Dann for trespass 
violations on public domain lands. Given a choice, some of the Western 
Shoshone would prefer to acquire additional trust lands within their 
aboriginal land areas rather than accept compensation for the loss of 
those lands.
    In 1974 the United States filed a complaint against Mary and Carrie 
Dann alleging that they had trespassed on public lands by grazing their 
cattle there without a permit from the Bureau of Land Management. The 
government sought an injunction and damages. The Danns based their 
defense on the grounds that they were members of the Western Shoshone 
Tribe of Indians, and that the Western Shoshone held aboriginal title 
to the lands in question.
    Meanwhile, the Western Shoshone Legal Defense and Education 
Association (Association) filed a petition before the ICC requesting it 
to suspend further action in the proceedings in Docket 326-K until the 
United States District Court for the Nevada District had decided the 
trespass action brought by the United States in the case of United 
States v. Dann, Civil No. R-74-60, BRT, (D. Nev.). The Association also 
petitioned for leave to file an amended claim in Docket 326-K. The 
Association asserted that Indian title to the greater portion of the 
aboriginal lands of the Western Shoshone had not been extinguished. It 
also asserted that an award of damages in Docket 326-K would extinguish 
the Western Shoshone claim to lands.
    In the Dann case, the government argued that any title that the 
Western Shoshone ever had to the land in question had been 
extinguished, and that this fact had been conclusively established in 
proceedings brought before the ICC on behalf of the Western Shoshone.
    In 1975, the District Court accepted the government's arguments in 
the Dann case and granted summary judgment against the Danns.
    On February 20, 1975, the ICC denied the petition to stay the 
proceeding and for leave to present an amended claim. In 1976 and 1977, 
the Te-Moak Bands of Western Shoshone filed several motions before the 
ICC to stay the proceedings in Docket 326-K. The motions were denied by 
the ICC on August 15, 1977. The claims in Docket 326-K were transferred 
to the United States Claims Court (Claims Court) prior to the 
termination of the ICC on September 30, 1978. On December 6, 1979, the 
Claims Court certified the award of $26,145,189.89 and the funds were 
appropriated under 31 U.S.C. 1304.
    On March 11, 1980, the BIA issued its first results of research 
report in Docket 326-K. The report described the difficulties in 
identifying the beneficiary. The Western Shoshone entities were 
described as being extremely scattered. The report found that ``It is 
not possible to describe the Western Shoshone in terms of forming a 
tribe or a group of organized tribes, particularly in view of the 
Shoshone-Paiute combined organizations and the very real possibility 
that many Western Shoshone descendants (including those who strongly 
identify as Shoshone people) are not and never have been associated 
with any reservation entity.'' On that basis, the report identified 
those Western Shoshone people, and their descendants, who derive from 
the census and other rolls of twelve identified Shoshone and Shoshone-
Paiute entities, and other descendants who prove Western Shoshone 
ancestry on the basis of rolls and records to the satisfaction of the 
Secretary of the Interior, to be the beneficiaries of the award in 
Docket 326-K.
    The Bureau of Indian Affairs (BIA) held a hearing of record on July 
26, 1980, in Elko, Nevada. Approximately 425 people attended the 
meeting to hear about the proposed plan for the use and distribution of 
the funds awarded in the Docket 326-K funds. Those in attendance were 
given the opportunity to testify at the hearing. A three-minute time 
limitation for testimony was established because a large number of 
those present wished to testify. The meeting was dominated by those 
opposed to the judgment fund plan. Many of those in favor of the plan 
felt intimidated and submitted written testimony with the request that 
it not be read publicly. At the conclusion of the meeting it appeared 
that the majority were opposed to the plan and wanted the funds 
invested until the Dann litigation was settled. Once the written 
comments were tallied it showed a different sentiment. The results of 
the written and oral comments were 75 against the fund distribution and 
194 for the distribution of the funds with most asking for 100 percent 
per capita to individuals with at least 1/4 degree Western Shoshone 
Indian blood.
    The BIA issued an amended Results of Research Report on January 22, 
1982, for Docket 326-K. The report was amended to bring it in line with 
the BIA's ``overall policy to designate successor tribes as 
beneficiaries of claims awards whenever possible in order that there 
might be maximum opportunity for those tribes that so wish to develop 
programming proposals for the use of judgment funds.'' In that report, 
four tribes were designated as the tribal successors to the Western 
Shoshone entity of the period of 1853 to 1872. Those tribes are 1) Te-
Moak, 2) Duckwater, 3) Yomba, and 4) Ely. The remaining beneficiaries 
consist of all other persons of Western Shoshone ancestry, in their 
individual capacity who otherwise meet the criteria detailed in the 
March 11, 1980 Results of Research Report.
    On May 19, 1983, the Ninth Circuit Court of Appeals ruled in favor 
of the Danns. The Ninth Circuit held that the lower court was correct 
in concluding that the Western Shoshone title was not extinguished as a 
matter of law by application or administration of the public land laws, 
but reversed the lower court's holding that the Danns were barred by 
res judicata or collateral estoppel from asserting aboriginal title as 
a defense to the claim of trespass. This ruling was reversed by the 
United States Supreme Court on February 20, 1985. The Supreme Court 
held that ``To hold, as the court below has, that payment does not 
occur until after the final plan of distribution has been approved by 
Congress would frustrate the purpose of finality . . . while subjecting 
the United States to continued liability for claims and demands that 
'touch' the matter previously litigated and resolved by the Indian 
Claims Commission.''
    Since 1983 the Department of the Interior has been meeting with 
Western Shoshone organizations for the purpose of negotiating a 
legislative settlement to the land claims issue. In 1985, the Western 
Shoshone National Council received a grant from the Administration for 
Native Americans so that they could develop an inventory and historical 
analysis of the Western Shoshone aboriginal lands and other natural 
resources subject to the 1863 Treaty of Ruby Valley. Meetings were held 
in 1985 and 1986 with the Western Shoshone leadership for the purpose 
of developing a plan for the distribution of the judgment funds, and to 
identify lands that could be transferred to the Western Shoshone tribes 
to increase the reservation land base. Nothing was accomplished due to 
the dynamics of tribal politics and power struggles within the 
leadership.
    A legislative proposal was drafted by an attorney representing the 
organization called the ``Western Shoshone Distribution Association.'' 
The legislative proposal was used as the basis for H.R. 3384 that was 
introduced on September 28, 1989. This bill provided for the 
establishment of a Western Shoshone roll and the apportionment and 
distribution of the funds. A hearing was held on April 26, 1990, but no 
action was taken because the tribal governments, the Western Shoshone 
National Council, and the Administration opposed the bill. An attempt 
was made to revise the bill to address Interior's concerns but the 
Chairman of the Committee on Interior and Insular Affairs advised the 
Department in September 1990 that the bill would not be scheduled for 
full Committee consideration because all of the tribal governments 
adamantly opposed the bill and wished to begin negotiations with BIA to 
develop a plan to distribute the funds.
    In November 1990, legislation was drafted regarding the use of 
rangeland resources in Nevada, but never introduced. In January 1991, 
the Duckwater Shoshone Tribe drafted proposed legislation concerning 
the Tribe's asserted claim to the lands of the Western Shoshone nation. 
This proposal was never introduced. Another legislative proposal was 
drafted by the attorney for the Western Shoshone Distribution 
Association. It was used as the basis for H.R. 3897, which was 
introduced on November 22, 1991. Although a hearing was scheduled for 
April 30, 1992, it was never held and this caused the bill to die 
without action.
    On January 22, 1994, the Western Shoshone leaders met with the 
Secretary of the Interior in Denver, Colorado. As a result of that 
meeting, efforts were made to establish another Federal/Tribal 
negotiation team. Efforts were made to provide the members of the 
successor Tribes of the Western Shoshone with an inventory of public 
lands that were available for transfer to the tribes. The Bureau of 
Land Management continues to meet with some of the tribal governments, 
but to date no tangible results have been achieved.
Docket 326-A-1 and A-3
    The claims in Docket 326-A-1 called for an accounting of two funds. 
The first was the $100,000 annuity to be paid to the Western Shoshone 
Indians under Article VII of the 1863 Treaty of Ruby Valley. In the 
Opinion of the ICC, dated April 29, 1970, 23 Ind. Cl. Comm. 74, the ICC 
found that the Government had not paid $16,392.76 of the Treaty funds 
to the Western Shoshone. The ICC also found that the Government 
improperly disbursed $9,930.74 of the Treaty funds. Those two amounts 
total $26,323.50, which could have potentially been awarded to the 
Western Shoshone. The subsequent ICC and Claims Court decisions never 
discussed the Treaty accounting claims again. It was inadvertently 
omitted from the award.
    The second fund was the Indian Monies Proceeds of Labor (IMPL) fund 
for the Western Shoshone Indians. The time-period of the accounting 
spanned from 1886 to 1951. The plaintiff asked the government to 
allocate the funds in the IMPL account between the various Western 
Shoshone Reservations. The government said that it could not allocate 
the funds because the records did not have sufficient information to 
allow such an allocation. The reports do show that the bulk of the 
funds were collected from the Duck Valley Reservation between 1919 and 
the mid to late 1930's.
    On December 3, 1991, the United States Claims Court entered a final 
judgment of $823,752.64, in Docket 326-A-1, on behalf of the Te-Moak 
Bands of Western Shoshone Indians of Nevada, suing on behalf of the 
Western Shoshone Nation of Indians. On June 16, 1995, in Docket 326-A-
3, the Court of Federal Claims awarded $29,396.60 in interest on the 
award previously entered in Docket 326-A-1. The funds to satisfy these 
awards were appropriated under 31 U.S.C. Sec. 1304 on March 23, 1992, 
and August 21, 1995, respectively.
    In 1992, the BIA issued a Results of Research Report that 
erroneously identified the Te-Moak Band of Western Shoshone as the sole 
beneficiary of the funds awarded in Dockets 326-A-1 and A-3. On April 
29, 1997, the report was withdrawn.
    The BIA extended invitations to the Tribal leaders at Duck Valley 
<SUP>1</SUP>, Duckwater, Ely, Yomba, Te-Moak, and the Death Valley 
Timbi-Sha Shoshone Band of California asking them to attend a meeting 
scheduled for May 22, 1997, at Elko, Nevada, to discuss the disposition 
of the funds. The Chairperson from Ely informed the BIA that she would 
not be able to attend. The attorney representing the Timbi-Sha Shoshone 
informed us that they would not attend because they did not believe 
they had an interest in the judgment fund. No acknowledgment or 
response was received from the Chairman at Yomba. Representatives from 
Te-Moak, Duckwater and Duck Valley attended, as well as the Shoshone 
representatives from the Fallon Reservation <SUP>2</SUP>. During the 
meeting we asked the tribal representatives to make recommendations on 
how the funds could be divided. They were advised that the record did 
not contain sufficient information for the government to allocate the 
funds between the reservations. The tribal representatives arrived at 
recommendations on how the funds could best be expended for the benefit 
of the Western Shoshone people by establishing a perpetual fund 
utilizing the interest to fund scholarship grants. This recommendation 
is contained in the legislative proposal.
---------------------------------------------------------------------------
    \1\ The Business Council of the Shoshone-Paiute Tribes of the Duck 
Valley Reservation (Business Council) enacted Resolution No. 97-SPR-63 
dated February 11, 1997. The resolution granted recognition to the 
organization of Western Shoshone descendants called the ``Western 
Shoshone of Duck Valley Reservation'' for the purpose of handling all 
matters relating to the Western Shoshone claims until negotiations are 
finalized. The Business Council withdrew its recognition of the Western 
Shoshone organization and rescinded Resolution No. 97-SPR-63 four years 
later by Resolution No. 2002-SPR-012 dated November 13, 2001. The 
second resolution was enacted six months after S. 958 was introduced in 
Congress.
    \2\ The Business Council of the Fallon Paiute-Shoshone Tribes 
enacted Resolution No. 97-F015, dated February 11, 1997, and amended it 
with Resolution No. 97-F-063, dated May 27, 1997. The resolution 
granted official recognition of the Fallon Shoshone Claims Committee to 
represent, negotiate, and make decisions on behalf of the Fallon Band 
of Western Shoshone in all matters relating to the claims issue.
---------------------------------------------------------------------------

       Members of the Western Shoshone Claims Steering Committee,

    Te-Moak Tribe:
     1. WSSC Co-Chair Leta Jim, Vice-Chairperson, Te-Moak Tribal 
Council Member, and Elko Band Council Member
     2. WSSC Co-Chair Larry Piffero, Te-Moak Tribal Council Member, 
and Elko Band Council Member
     3. Wilbur Woods, Chairman, Elko Band Council
     4. Grace Begay, Wells Band Council Member
     5. Lydia Sam, Chairperson, Battle Mountain Band
     6. Larson Bill, Tribal Representative, South Fork Band Council
    Duckwater Tribe:
     7. Henry Blackeye, Jr., Chairman, Duckwater Tribal Council
     8. Tim Thompson, Vice-Chairman, Duckwater Tribal Council
     9. Henry Blackeye, Sr., Secretary, Duckwater Tribal Council
    10. Jerry Millett, Member, Duckwater Tribal Council
    11. Douglas George, Sr., Member, Duckwater Tribal Council
    Ely Area: None
    Yomba Area:
    12. Glen Hooper, Tribal Representative, Yomba Area
    Owyhee Area:
    13. Iliane Premo, Chairperson, Western Shoshone Council at the 
Duck Valley Reservation
    14. Mildred Scissions, Member, Western Shoshone Council at the 
Duck Valley Reservation
    15. David Jones, Member, Western Shoshone Council at the Duck 
Valley Reservation
    Fallon Area:
    16. Nancy Stewart, Co-Chairperson, Fallon Shoshone Claims 
Committee
    17. Ermert Nihoa, Co-Chairman, Fallon Shoshone Claims Committee
    18. Iola Byers, Member, Fallon Shoshone Claims Committee
    19. Betty Robison, Interpreter for the Fallon Shoshone Claims 
Committee
    20. Nevada Iverson, Member, Fallon Shoshone Claims Committee
    21. Kathy Bowen-Curley, Member, Fallon Shoshone Claims Committee
    22. Steven Amick, Member, Fallon Shoshone Claims Committee
    23. Francine Tohannie, Secretary for the Fallon Shoshone Claims 
Committee
    24. Ernest Hooper, Interpreter for the Fallon Shoshone Claims 
Committee
    25. Nila Shanley, Member, Fallon Shoshone Claims Committee
    26. Winford Graham, Member, Fallon Shoshone Claims Committee
    27. Wayne Ellison, Member, Fallon Shoshone Claims Committee
    28. Lynette Fisherman, Member, Fallon Shoshone Claims Committee
    29. Vana Roman, Member, Fallon Shoshone Claims Committee
    30. Cordelia Nordwall, Member, Fallon Shoshone Claims Committee
    31. Barbara Culbertson, Member, Fallon shoshone Claims Committee
    Fort Hall Area:
    32. Everett Jim, Tribal Representative, Fort Hall Western Shoshone
Data Concerning the Western Shoshone Reservations and Tribal Enrollment
    <bullet> Treaty of Ruby Valley entered into on October 1, 1863, 
with the Western Shoshone Indians.
    <bullet> First Western Shoshone Reservation was established 
outside the aboriginal territory at Duck Valley by Executive Order 
dated April 16, 1877, for all Western Shoshone. Carlin Reserve Farm was 
established the same year, but it was later abolished.
    <bullet> In 1885 Paddy Cap's Band of Paiute were sent to the Duck 
Valley Reservation. By Executive Order of May 4, 1886, approximately 
69,000 acres were added to the Duck Valley Reservation for them and 
other such Indians as the Secretary of the Interior may see fit to 
settle thereon.
    <bullet> In 1917, a reservation was established at Battle Mountain 
for homeless Shoshone.
    <bullet> In 1918, 160 acres were reserved at Elko, Nevada for 
Shoshone and Paiute Indians living near Elko.
    <bullet> The Act of June 27, 1930, authorized the purchase of 10 
acres at Ely for the Shoshone already living there.
    <bullet> The Act of June 18, 1934, authorized the purchase of 
lands for Yomba Shoshone. The Proclamation is dated October 27, 1938.
    <bullet> Proclamation dated February 8, 1941, proclaimed a total 
of 9,548.46 acres within Elko County, Nevada to be an Indian 
Reservation for the use and benefit of the Te-Moak Bands of Western 
Shoshone.
    <bullet> South Fork Indian Colony was established under the 1941 
proclamation.
    <bullet> Wells Colony was established under the Act of October 15, 
1977.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7772.013
                                 
[GRAPHIC] [TIFF OMITTED] T7772.014
                                 

    The Chairman. Thank you, Mr. Olsen. I just have a couple of 
questions for you.
    On H.R. 1409, I have not had the opportunity to visit the 
site yet, but in the pictures that I have seen, it appears that 
the land that the tribe is trying to obtain has electrical 
lines going across it. It has had some development over the 
years that has occurred on that site even though there is not a 
lot there right now other than electrical lines and such. And 
the land that they would exchange appears to be pristine lands 
that have some value in terms of protection and adding to the 
park site.
    Would it not make sense to you and the Department of 
Interior to have the pristine lands in the park and protected 
from development and to take the other lands that have had 
development and are crisscrossed with power lines, to use that 
as the school site?
    Mr. Olsen. Well, I think that the Park Service as a result 
of the exchange would be, as you say, receiving land that is in 
much more pristine condition than the land that the tribe would 
be acquiring, the Ravensford tract. And, in fact, it is also 
home of two endangered species that would be coming under 
National Park Service protection. Whereas, as you have pointed 
out, the land that the tribe would be obtaining is not in that 
pristine condition.
    In addition, as was pointed out before, the tribe is giving 
up 218 acres versus the 143 that it would be acquiring. So the 
tribe is able to accomplish what it is aiming for through the 
legislation, but the Park Service as well comes out not in 
terrible shape.
    The Chairman. Further, under the current rules that we 
operate under in terms of the relationship between Native 
Americans and the Federal Government, don't we have a 
responsibility to try to help improve the conditions on the 
reservations and provide better facilities for education on 
those reservations?
    Mr. Olsen. Indeed we do. We have certainly a trust 
responsibility to the Eastern Band of Cherokee as we do to 
other tribes, and we certainly take that responsibility 
seriously. And, in fact, one of the goals of this 
administration is to improve the education and educational 
facilities that Indian students attend. In fact, President Bush 
has made it a priority to do that, and we feel very strongly 
about that.
    The Chairman. I just wonder--and I know this may be--you 
may not be able to answer this question, but I wonder if we 
don't do this, if we don't make this exchange and provide this 
particular piece of property for them to build the school on, 
is the Park Service or someone else at Interior willing to step 
forward and provide a different piece of property that is 
suitable for them to build on?
    Mr. Olsen. I am not certain that I can answer that. I don't 
know that there is another suitable piece of property. I am 
accompanied by Randy Jones, who is the Deputy Director of the 
Park Service, who may be able to answer that question. My 
understand is that the tribe has gone to great lengths in the 
past to determine or to find or to come up with property that 
would be suitable for construction, ideally flat land, and has 
been unable to find any other property that would work.
    The Chairman. That fits with what I have been told. I have 
had the opportunity to talk to both the chairman of the tribe 
and the staff, and this is apparently an issue that has been 
kicking around for a number of years. And from what I have been 
able to gather, there has not been another site which has been 
identified that would be acceptable not only to the tribe but 
to anybody else. And I just think that at this point in time, 
we have an obligation to move forward with this, and I 
appreciate your testimony here today because I do think this is 
something that is extremely important, so thank you.
    At this time I would like to recognize Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mike, I have always enjoyed working with you in your other 
capacity and look forward to working with you in your new 
responsibilities.
    Mr. Olsen. Thank you.
    Mr. Kildee. This legislation, 1409, specifically bans 
gaming on these lands. Has the tribe talked to the BIA about 
using these lands for anything other than a school?
    Mr. Olsen. Not that we are aware of. There has not been any 
discussion between the tribe and the Bureau regarding use other 
than for education.
    Mr. Kildee. And that is my understanding, too. I have been 
talking to the tribe for quite some time. I just wanted to make 
sure that was part of the record.
    Would the BIA anticipate any problems taking this land into 
trust on behalf of the tribe? Would you anticipate any problems 
at all taking this land into trust?
    Mr. Olsen. Pursuant to the legislation?
    Mr. Kildee. Yes.
    Mr. Olsen. No. We feel that it is in the best interest of 
the tribe for this to go through, and, no, I do not believe so. 
I don't know if I am addressing your question, but this--
    Mr. Kildee. Yes, you are. This legislation, you support 
this legislation and this legislation would clear the way for 
you to accept this.
    Mr. Olsen. The Department does not objection to the 
legislation moving forward, and we feel that it is in the best 
interest of the tribe for the Congress to act on it.
    Mr. Kildee. How would you describe just briefly the basic 
condition of schools in Indian country?
    Mr. Olsen. Well, we certainly have an amount of work to do. 
There is approximately a $600 million backlog in replacement 
construction, and like I said before, it is a priority of this 
administration to correct those problems. It is a priority of 
President Bush to do that.
    We recognize that there is work to be done, and we are 
committed to doing that.
    Mr. Kildee. And this certainly dates back to many 
administrations. I can recall--I have been in Congress now 27 
years. About 25 years ago, I began to travel to various 
schools, particularly in the Western part of the United States. 
After a while, I would get a call from a BIA principal saying, 
``Would you come and visit my school or just tell the BIA you 
are coming?'' because a week ahead of time, they are, you know, 
fixing things up before we get there. So this condition 
certainly has gone through many administrations, and I think 
anything we can do to encourage construction of proper schools 
is a step in the right direction. I appreciate your position on 
that.
    Let me ask another question. Could you explain to the 
Committee the process in H.R. 884 used to name the four tribes 
as the successor tribes for these Shoshone lands?
    Mr. Olsen. So that you know, I am accompanied also on this 
legislation as well by Daisy West, who is a Tribal Relations 
officer. And I am going to ask her to come up and answer that 
question for you.
    Mr. Kildee. I will repeat the question. Could you explain 
the process used to name the four tribes as the successor 
tribes?
    Ms. West. Historical research was done by a historian back 
in the 1970's to identify the tribal groups that were at the 
time of taking, which at the time of taking was in, I think, 
1870-something, 1872, I think. And then they traced the 
migration of those groups to where they are presently today. 
They identified that the majority of the Shoshone are with four 
present-day tribal governments: Te-Moak, Yomba, Ely, and 
Duckwater. And those tribal governments are composed primarily 
of Shoshone people, Western Shoshone people.
    They also identified other groups, which I think goes to 
around 17 or so, that are mixed with Paiute and Shoshone. And 
the Western Shoshone that are with those groups would also be 
eligible to participate under this distribution.
    Mr. Kildee. Thank you. I am always interested in both 
genealogical and geographical studies that are made here, and I 
appreciate your response. Thank you very much.
    The Chairman. The gentleman's time has expired. I would 
like to ask our witness, if you are going to answer any more 
questions, I am going to have to swear you in. But I would like 
you to state your name and your position for the record.
    Ms. West. My name is Daisy West, and I am Tribal Relations 
officer with the Bureau of Indian Affairs in the Office of 
Tribal Services.
    The Chairman. There may be other questions for you, and the 
gentleman from the Park Service, if you could just come up, and 
both of you, I am just going to swear you in right now. That 
way if there are any questions for you, I do not have to stop.
    [Witnesses sworn.]
    The Chairman. Let the record show that both answered in the 
affirmative. Thank you.
    Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman. I would 
like to welcome our guests here today as well on these two very 
important bills. I am fully in support of H.R. 1409 and its 
effects on the Cherokee Tribe. I also would like to ask a 
question to focus on Mr. Olsen with regard to 884.
    Mr. Olsen, what is the current status of the Indian Claims 
Commission?
    Mr. Olsen. My understanding is the Indian Claims Commission 
no longer exists. In fact, in the legislation forming the 
Commission, there was a provision that said after a certain 
period of time, the Commission would go away.
    Mr. Gibbons. Do you know the date that the Commission 
dissolved?
    Mr. Olsen. I don't know the exact date.
    September 1978, I am being told.
    Mr. Gibbons. OK.
    Mr. Olsen. But we can certainly check on that and make sure 
we get you the accurate answer.
    Mr. Gibbons. OK. So any requirement of a defunct or 
dissolved commission to perform an act would be very difficult, 
at best, since the Commission no longer exists. Is that 
correct?
    Mr. Olsen. Right.
    Mr. Gibbons. One of the requirements under the finality of 
the Supreme Court decision was a report that was due from the 
Indian Claims Commission. If the Indian Claims Commission is no 
longer in existence and has not been in existence for some 
number of decades, it would be impossible for that report to 
Congress to be submitted. Is that correct?
    Mr. Olsen. If the commission does not exist, it would be 
difficult for it to put together a report.
    Mr. Gibbons. OK. Is there an alternative body within the 
Bureau of Indian Affairs or another similar organization that 
could substitute that report?
    Mr. Olsen. I am not aware of one, no.
    Mr. Gibbons. Mr. Olsen, the money that is in the account 
for the distribution to the Western Shoshone tribes has been 
there for a number of decades as well, since the late 1980's 
when the Supreme Court ruled on a final decision on the 
distribution of the money for the claims that were made in that 
Supreme Court case. Is that correct?
    Mr. Olsen. That is right.
    Mr. Gibbons. That money has not yet been distributed to 
these tribal members, has it?
    Mr. Olsen. That is correct.
    Mr. Gibbons. And as it sits there today and, if this bill 
does not pass, will sit there tomorrow and day on and day on 
after that, without being distributed or used by these members 
as well. So this bill simply takes what the Supreme Court 
ordered back in 1982 and actually divests the Bureau of Indian 
Affairs of that money and gives the money as it now stands to 
the tribes as a result of that Court decision.
    Mr. Olsen. That is correct.
    Mr. Gibbons. Mr. Chairman, I have an opening statement on 
H.R. 884 which I would like to submit for the record on this as 
well.
    The Chairman. Without objection, it will be included.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                 from the State of Nevada, on H.R. 884

    Mr. Chairman, thank you for holding this hearing today to discuss 
the Western Shoshone Claims Distribution Act.
    H.R. 884 requires the Secretary of the Interior to establish a 
judgement roll consisting of all Western Shoshones who have at least 1/
4 degree of Western Shoshone blood, are citizens of the United States, 
and are living at the date of enactment of this legislation.
    The Secretary would then distribute and use the funds in two ways.
    First, the Secretary would distribute the $1.43 million from Docket 
326-K to each person on the judgement roll through a per-capita share.
    Second, using the $1.4 million awarded under Docket Numbers 326-A-1 
and 326-A-3, the Secretary would establish the ``Western Shoshone 
Educational Trust Fund'' and an administrative committee to oversee the 
distribution of accumulated and future interest and income for 
educational grants.
    It is important for the members of this Committee to understand 
that my constituents-the Western Shoshone people- have expressed to me 
in an overwhelming majority, their desire to see these funds 
distributed.
    In fact, the Western Shoshone have voted not once, but TWICE on 
this issue-in both instances over 90% of the voters favored the 
distribution reflected in this legislation.
    The vast majority of the Western Shoshone people have formed a 
cohesive group which operates under a democratic process to express the 
will of the tribal members.
    Just last year, in 2002, 1,647 Western Shoshone members voted in 
favor of the distribution while only 156 voted against it.
    These numbers account for approximately 65% of the eligible 
Shoshone voters.
    It is overwhelmingly obvious that the tribe wants these funds 
distributed.
    It is very disturbing to me to see the will of this Tribe thwarted 
by a small minority who have a very loud voice.
    There is one point that the opposition makes in their testimony 
that I would like to respond to--that is that the Indians Claim 
Commission (ICC) has not filed a report to Congress.
    This report is one of two criteria required for final judgement of 
the Western Shoshone Claim.
    I would like to point out that the Indian Claims Commission no 
longer exists, therefore making it impossible for this report to be 
issued.
    It is also important for this Committee to understand that the U.S. 
Supreme Court ruled on this issue nearly 20 years ago.
    The Supreme Court ruling is so clear that it made the need for the 
ICC report obsolete.
    In the U.S. V. Dann case, the Supreme Court held that payment of 
the ICC award had occurred when the $26 million was placed in the 
Western Shoshones' trust account, therefore giving the Western Shoshone 
Claim finality.
    It is important to note that H.R. 884 specifically ensures that the 
funds distribution is not a waiver of existing treaty rights, nor will 
it prevent the Tribe, Band or individual Shoshone Indians from pursuing 
other rights guaranteed by law.
    Lastly, H.R. 884 is a bipartisan effort in both the House and the 
Senate, and it is supported by the Nevada Delegation.
    The opposition has fought this issue in the courts all the way to 
the Supreme Court without success.
    They are now fighting it in the Legislative branch.
    The time is long overdue for the will of the majority of the 
Western Shoshone people to prevail!
    I urge each member of this Committee to support the Western 
Shoshone people in their endeavor to put this issue to rest once and 
for all.
                                 ______
                                 
    Mr. Gibbons. Mr. Olsen, do you know, since you have related 
the historical process by which various different nations or 
tribes within the Indians have voted up or down on this 
agreement to accept this money, do you know what the vote was 
or what the support level is for the distribution of this 
money?
    Mr. Olsen. I cannot give you exact numbers, but it is--
based on what we know, it is a significant amount of--I mean, a 
vast majority of the Western Shoshone people are in support of 
the distribution.
    Mr. Gibbons. In fact, it is about 90 percent of the 
population there that supports the distribution of this money?
    Mr. Olsen. Yes, that is what I have been told.
    Mr. Gibbons. So it would be a rather small number of 
individuals who are opposed to this on the presumption that if 
accepting this money precludes any further claim or settlement 
that may come from any claim they have for future land?
    Mr. Olsen. Correct.
    Mr. Gibbons. But the majority do accept and do wish to have 
this money distributed to them.
    Mr. Olsen. Yes.
    Mr. Gibbons. Thank you, Mr. Olsen.
    Mr. Chairman, I have no further questions.
    The Chairman. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Attorney Olsen, I think in response to the question of 
supporting the legislation, I just wanted to follow up on that. 
I think you said you did not have--the Department or the Bureau 
had no objection to the legislation?
    Mr. Olsen. Yes. On H.R. 1409?
    Mrs. Christensen. 1409.
    Mr. Olsen. Yes.
    Mrs. Christensen. But does the Department support--by 
passing the EIS or by doing legislation to accomplish this 
exchange, is that a policy of the Department to--for us to 
legislate while the process is going on?
    Mr. Olsen. Would you answer that one?
    Mr. Durand Jones. Well, of course, as the delegate knows, 
we do not control the timetable or the desires of this 
Committee or the Congress in how it proceeds. We, at the 
direction of our appropriations bill, prepared the 
Environmental Impact Statement. It was released to the public 
last week, and we are now in the public comment period. There 
will be public hearings on the EIS process. And that is one of 
the reasons why at this point we do not take a more definitive 
stand on the legislation because we still are going through the 
NEPA process. But we have been in negotiations with the members 
of the tribe concerning the restrictive covenants that are in 
the legislation, which we think go a long way toward protecting 
the values that the park is interested in, and also in defining 
the acreage involved in that the acreage is a little over 20 
acres less than their original request. And that is a result of 
ongoing discussions and negotiations.
    Mrs. Christensen. I guess my main concern, I really am 
leaning toward supporting this bill, but my main concern is 
really setting a precedent or opening some doors that we might 
not want to open for the future by doing this piece of 
legislation.
    Mr. Durand Jones. Looking back, I believe there are 
numerous examples of the Congress acting for the sake of making 
good public policy before we in the executive branch have 
completed all of our bureaucratic steps.
    Mrs. Christensen. Do you believe that the Park Service has 
the authority to complete the exchange administratively without 
legislation?
    Mr. Durand Jones. I think it is not totally clear. The 
legislation for Blue Ridge Parkway has flexible boundary 
authority in that once lands are acquired, the boundary can be 
automatically expanded. However, the lands to be added to Blue 
Ridge are clearly outside the existing boundary as it exists 
today. And, therefore, we think it is best that this be 
accomplished by legislation rather than trying to look at it 
administratively.
    Mrs. Christensen. OK. I think I still have some time.
    Mr. Olsen, is it the case that the BIA currently has 
approximately $8 million in Fiscal Year 2003 in Federal funds 
for improvements to the school that has not been spent? And if 
that $8 million is there and has not been spent--I have seen 
some pictures of the school and I share the Administration's 
concern about the education of our children and the environment 
in which they are educated. Why has it not been spent? Or could 
you tell us what the immediate plans are for spending that $8 
million?
    Mr. Olsen. Certainly. I am not entirely certain. I know 
that the tribe is planning to use that money in order to put--
use that money and put it toward the construction of the new 
educational facility that this legislation contemplates.
    Mrs. Christensen. But it is my understanding that is going 
to take about 7 years.
    Mr. Olsen. To construct the school?
    Mrs. Christensen. Yes.
    Mr. Olsen. That very well could be. I don't know exactly 
what the timeframe is. I know that the tribe and the Park 
Service have engaged in the discussions that the legislation 
requires and have been doing that over the course of several 
months. And the tribe is ready to begin work once the exchange 
is approved.
    Mrs. Christensen. I would just like to respectfully suggest 
that the $8 million be spent--if it is going to take that long 
to get a school, I don't think the children should be in some 
of the conditions I saw for the next 7 years.
    My last question would be: In your testimony, I think you 
said--or in the preliminary report of the EIS, it says that 
certain alternatives were eliminated from further study. I 
wonder if you would just--alternatives for the school site. I 
wonder if you would just respond to that. Did the alternatives 
that were excluded include the north end of the Cherokee 
business district and an area by the Aconee Road?
    Mr. Olsen. You want comment on why that was excluded?
    Mrs. Christensen. Yes.
    Mr. Olsen. I do not know and would certainly be more than 
happy to provide you an answer in writing. But we can certainly 
address that question.
    Mrs. Christensen. Mr. Chairman, I would appreciate some 
further information on those specific sites.
    The Chairman. The record will remain open in order to allow 
the Administration the opportunity to provide a written 
response to you.
    Mrs. Christensen. And I also have an opening statement that 
I would like to submit for the record.
    The Chairman. Without objection.
    Mrs. Christensen. Thank you.
    [The prepared statement of Mrs. Christensen follows:]

 Statement of The Honorable Donna Christensen, a Delegate to Congress 
                 from the Virgin Islands, on H.R. 1409

    Mr. Chairman, as the Ranking Member on the Subcommittee on National 
Parks, Recreation and Public Lands, I would like to make a few, brief 
comments regarding one of the bills before the Full Committee today.
    H.R. 1409 would require the Secretary of the Interior to exchange 
approximately 143 acres of Federal land currently located within the 
Great Smokey Mountains National Park, known as the Ravensford Tract, 
for approximately 218 acres, currently owned by the Eastern Band of 
Cherokee Indians, known as the Yellowface Tract.
    Upon completion of the exchange, the Ravensford Tract would be held 
in trust for the benefit of the Tribe and the boundary of the Park 
would be altered to exclude the land. The Yellowface tract, located 
some thirty miles from the Park, would be added to the Blue Ridge 
Parkway.
    It is our understanding that the Eastern Band is pursuing this 
exchange to provide the Tribe with land on which to build three new 
school facilities, an obviously worthy goal. Furthermore, this proposed 
exchange appears to include lands to which the Tribe has a historical 
claim. We are very interested in hearing from our witnesses today 
regarding both of these issues.
    However, it must be noted that transferring lands located within a 
National Park to private ownership, regardless of the use to which 
those lands may be put, is exceedingly rare and raises a number of 
serious questions. Furthermore, to approve legislation which will 
short-circuit an ongoing EIS process designed to address these 
questions, would be problematic.
    It is our hope that today's hearing might provide sufficient 
information that, in working with the Tribe, the National Park Service 
and Mr. Taylor, we might be able to craft a solution that addresses the 
Tribe's needs without negatively impacting our most visited National 
Park.
    We would like to thank the witnesses for their time and effort to 
be here today and look forward to their insights on both of the 
measures before the Committee today.
                                 ______
                                 
    The Chairman. Mr. Hayworth?
    Mr. Hayworth. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for holding this hearing. And I have more than passing 
interest in H.R. 1409. I am pleased to be a cosponsor of this 
legislation, and I just wanted to take time--it is a common 
affliction that certainly my co-Chair on the Native American 
Caucus knows, indeed all Members of Congress here, of having to 
be three places at one time during the course of a day. But I 
wanted to stop by, and, Mr. Chairman, I have an opening 
statement for the record which I would like to submit. And I 
also just wanted to thank Chief Leon Jones and others from the 
Eastern Band of Cherokee Indians for being here to discuss what 
is transpiring there. I believe this is an innovative win-win 
solution that the Park Service and the Eastern Band has worked 
out. And as mention was made in previous testimony, this is not 
uncommon, but this legislative solution is needed. So I look 
forward to reviewing the record. I thank my friends from the 
Eastern Band for being here. And again, Chairman and 
colleagues, thank you for holding the hearing.
    Mr. Kildee. Would the gentleman yield?
    Mr. Hayworth. I would gladly yield to my good friend from 
Michigan.
    Mr. Kildee. I want to thank the co-Chair of the Native 
American Caucus because our staffs have worked together, 
studied this very, very thoroughly, and have concluded that 
this is a very, very good exchange. And I appreciate your 
continuing good work on this and other issues.
    Mr. Hayworth. I thank my friend from Michigan. As this 
illustrates, though we divide by part for purposes of the rules 
of the House, it is interesting that in the case of the first 
Americans, there are only two types of people who serve in 
Congress: those who represent what we now call Indian country 
and those who represent what was once Indian country.
    And with that acknowledgment, I would yield back to the 
balance of my time with thanks to the Chair.
    The Chairman. Thank you.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Olsen, there are several questions that I have, and 
part of it is a little bit of my inquisitive nature on what 
happens if the tribe decides to use it for gaming. Are there 
covenant restrictions?
    Mr. Olsen. We are talking about H.R. 1409, the Eastern Band 
of Cherokee bill?
    Mrs. Napolitano. Right.
    Mr. Olsen. OK. Well, gaming is explicitly prohibited in the 
legislation. I don't believe that there is a remedy provided in 
the legislation, but it is explicitly prohibited. And our 
understanding is that the tribe has no intent to construct any 
sort of gaming facility on that land.
    Mrs. Napolitano. Well, the Federal Government has long 
ignored my Indian brothers and sisters, and I think it is time 
we owned up to some of the responsibilities that have been 
ignored for many, many, many generations.
    I am concerned that it may begin not only setting a 
precedent, but if there is such a covenant that prohibits 
gaming, that we are sure that there is--sometimes there is no 
other way for the tribes to be able to survive, if you will. 
They need help and we certainly should be able to provide them, 
which leads to me the question of how old is the school on the 
other bill--or, no, on that one, that these deplorable 
conditions are found, that the Department of Interior or Park 
Service or the agencies, whoever's jurisdiction it falls under, 
have not taken action to be able to assist in the construction 
or reconstruction or putting them in a condition that they will 
be usable.
    When I look at some of the information about they are using 
a condemned building, that sends shivers up my spine. As a 
grandmother, I would not tolerate it, and I don't see why we 
should allow the Federal Government not to take action to 
remedy those conditions.
    Mr. Olsen. Understood, and as I stated before, we certainly 
feel that it is in the best interest of this tribe for the 
legislation to move forward, and--
    Mrs. Christensen. OK, but this has not happened yesterday. 
Why has action not been taken to remedy the conditions under 
which these children go to school?
    Mr. Olsen. I don't know. We are faced--again, I mean, it is 
the same answer that I gave before. We are faced with a 
significant backlog. I understand that it is a problem, and it 
is a priority to correct, and we are doing what we can little 
by little to correct those problems.
    Mrs. Christensen. Mr. Chair, maybe we should have a 
hearing, Mr. Chair, Chairman Pombo, I suggest, to see what the 
condition of the Indian schools are in so that we may not hear 
it in this Committee room at the time we are trying to work on 
legislation to address some of the shortfalls that we have had 
in those areas.
    The Chairman. If the lady will yield to me, we are actively 
looking at that. This is obviously part of that process.
    I am told that this particular school is at least 40 years 
old. That is 40 years of mismanagement that has occurred over 
the years that has allowed this to happen. I don't think there 
is any possible way that Mr. Olsen can explain to you why in 
the last couple of months that he has been on the job that over 
40 years this school was mismanaged and things happened in the 
BIA. But if you want to get serious about taking care of these 
problems, we have got to seriously look at the entire issue of 
how we have dealt with the BIA over the last 100 years. That is 
where the real problem is.
    Mrs. Christensen. Let's do so, sir.
    My next question will be on the distribution on 884. How 
many members will receive these dollars? Because I was looking 
at you report, and it says 1,230 voted, 3 opposed, but that is 
just the voting members. How many members are there in the 
tribes that are getting reimbursed? And are the ones opposing 
going to be receiving remuneration?
    Mr. Olsen. There are approximately 6,000 to 6,500 who would 
be receiving money through the distribution, and those who are 
opposed are included.
    Mrs. Christensen. OK. The next question--
    Mr. Olsen. They can choose to apply, but they are eligible 
as everyone else.
    Mrs. Christensen. But does accepting the funding prevent 
their ability to litigate in the future toward the return of 
their land?
    Mr. Olsen. I am sorry. I did not hear your question.
    Mrs. Christensen. Would their accepting money preclude them 
from enjoining to get back their tribal lands that they are 
seeking, those that are opposed because of that?
    Mr. Olsen. No, it would not. But we feel that pursuant to 
the Treaty of Ruby Valley, which is the treaty at issue, that 
was a treaty of peace and friendship, and there is some 
question about whether the Western Shoshone people had title to 
that land, recognized title to that land.
    Mrs. Christensen. Thank you, Mr. Chair.
    Mr. Kildee. Mr. Chairman, parliamentary inquiry. I have a 
markup over on my other committee. Are we under general leave 
to submit additional questions in writing to the witnesses 
today?
    The Chairman. Yes, all the witnesses will be asked to 
respond to any questions that are submitted in writing, to 
answer those in writing so that they can be included in the 
hearing record.
    Mr. Kildee. Thank you, Mr. Chairman.
    The Chairman. Mr. Jones?
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much, and I want to say to Mr. Kildee before he leaves, thank 
you for your statement regarding your longevity and trying to 
help the Indians who have certainly not been treated fairly in 
the history of our country. So I thank you as well as the 
Chairman for his comments.
    Mr. Chairman, thank you for bringing both these bills up. 
It is nice to see the bipartisan support for this legislation 
as well as others. H.R. 1409 was introduced by Congressman 
Charles Taylor. The Cherokees live in his district, and this 
has been an issue that, when Chief Leon Jones is on the next 
panel, I think he can tell the Committee as well as myself the 
long history of trying to get this land exchange accomplished.
    Regarding Mrs. Christensen's statement about taking 7 
years, that possibly could be if it went through the 
administrative process. I don't know, and I would like for Mr. 
Olsen in a moment to answer that question.
    The beauty of this is that we all get on the floor of the 
House from time to time and talk about our children and wanting 
them to have the best education possible so they can compete in 
the world. And when you see what the Indian children have to 
deal with--I want my staffer if he would, to hold up just four 
enlargements so you can really see just how bad the school is.
    The first one is the steel beam rusting through the ceiling 
at the school. That in itself--if it is not condemned, it 
should be condemned.
    Then the next photograph is a major crack in the wall of 
the school.
    The third photograph is cracks in the gymnasium.
    I think those three photographs are deplorable. The last 
photograph would be the temporary building that the students 
are trying to learn in and become successful.
    This is a situation that I think requires this legislation, 
and I am delighted, Mr. Chairman, that you are holding this 
hearing.
    The problem is I do not understand those that will be in 
opposition to this land exchange. Mr. Olsen, would you say that 
the land swap--what the taxpayers will be receiving from the 
Cherokee Indians--is an excellent deal for the taxpayers of 
this country?
    Mr. Olsen. The tribe would be giving up 218 acres of 
pristine land that, arguably, would--it would go under Park 
Service protection, would arguably provide for a better--or 
provide for protection of the view shed. The tribe would be 
obtaining 143 acres, which, comparing the two, obviously there 
is a 70-acre difference that the tribe is giving up to the 
park.
    Mr. Jones of North Carolina. Mr. Chairman, with that, I 
think many points have been made before I had my opportunity, 
and I hope showing the photographs to the members of the 
Committee will re-emphasize the need for this land exchange. 
So, with that, I yield back my time.
    Mr. Gibbons. [Presiding.] Thank you, Mr. Jones.
    The gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Boy, that was quick. Thank you, Mr. 
Chairman. I just want to offer my full support of the 
gentleman's bill from North Carolina, Mr. Taylor, and, of 
course, to my colleague, Mr. Jones. This is in reference to 
H.R. 1409, and I want the gentleman to know that he certainly 
has my full support on this land exchange proposal.
    Mr. Chairman, as you know, it is always comity and practice 
as a matter of courtesy to members and our colleagues. Given 
the fact that you had introduced this legislation with 
reference to Shoshone Tribe, presumably predominantly in your 
State of Nevada, I would be the last person to second-guess 
your wisdom and expertise and understanding of what has been 
the problem for all these years.
    At the same time, I don't think there is any negative 
connotation in terms of your participation. You are just simply 
trying to implement what has been decided by the Indian Claims 
Commission and also in reference to what the Supreme Court had 
ruled.
    But I had also read that there are some real strong 
feelings among some of the Shoshone members, tribal members, on 
how the Supreme Court ruling came about, the fact that you have 
got the Te-Moak, the Duckwater, the Ely, the Fallon, the Fort 
McDermitt, the Yomba, these are all different clans that make 
up the Shoshone Tribe, if I am to understand it correctly. This 
is my understanding of the bill.
    What are we talking about, Mr. Olsen, in terms of the 
principal that is to be distributed if this bill passes? I read 
here $26 million, with interest, $130 million, but then I hear 
someone else, it is only $900,000. Can you clarify what exactly 
we are talking about?
    Mr. Olsen. Refreshing my recollection here, the 
distribution that would take place as a per capita payment to 
the approximately 6,500 Western Shoshone people would be 
$142,472,644, which works out to be roughly $30,000 per person.
    Mr. Faleomavaega. Well, right now I am going to register as 
a member of the Shoshone Tribe.
    [Laughter.]
    Mr. Faleomavaega. The first opportunity I have. I found out 
that some of my ancestors settled among the Paiutes and the 
Shoshones in Nevada a thousand years ago.
    Mr. Olsen, there is one concern, I think, with some of the 
tribal members in raising the question how the U.S. Government 
got to obtain the land that belonged to the Shoshone. Was there 
a treaty agreement or relationship between the Shoshone Tribe 
and the U.S.? Because we have sisters here by the name of the 
Dann sisters that had their cattle got taken by the BLM with no 
reason whatsoever. I mean, this is ridiculous.
    Could you explain how the Federal Government ended up 
owning the so-called Shoshone tribal lands?
    Mr. Olsen. One of the claims is, as I mentioned before, for 
the taking of land, and it was a result of the gradual 
encroachment of the United States on the Shoshone land.
    Mr. Faleomavaega. Was it the United States or the ranchers?
    Mr. Olsen. Both.
    Mr. Faleomavaega. Both. And we are talking about how much 
was taken by the Federal Government that belongs to the 
Shoshone people? Acreage. Half of Nevada?
    Mr. Olsen. Well, there is a difference between what is 
being claimed by some who are opposed to this distribution and 
what is described, basically. And I cannot give you an exact 
number of acreage, but, again, certainly will be happy to--
    Mr. Faleomavaega. My colleague from Nevada tells me one-
third of the State of Nevada belonged to the Shoshone people.
    Mr. Olsen. That is a big piece of land.
    Mr. Faleomavaega. Big piece of land. And it was taken by 
the Federal Government with no treaty agreements, nothing. This 
is what you might call adversary possession of the land. I go 
back to my original question. Was there a treaty relationship 
between the Federal Government and the Shoshone people allowing 
the Federal Government to take the land?
    Mr. Olsen. Referring back to the treaty, the treaty allowed 
people to pass through the land, but, you know, going back to 
what I had said before, we are talking about it is a taking, 
the gradual encroachment on the land. And that is about the 
best answer I can provide you now, and we will certainly, you 
know, provide a better historical perspective if that is what 
you are after.
    Mr. Faleomavaega. So what we are looking at in this 
proposed bill is the distribution of funds of approximately 
$140 million.
    Mr. Olsen. Correct.
    Mr. Faleomavaega. Among some 6,500 Shoshone.
    Mr. Olsen. That is right.
    Mr. Faleomavaega. Among the four different clans that make 
up the Shoshone Tribe.
    Mr. Olsen. Among the four successor bands as well as others 
who would be entitled to that distribution.
    Mr. Faleomavaega. I see. And if by chance there is no 
agreement, the interest continues to buildup on this fund.
    Mr. Olsen. It will continue to grow.
    Mr. Faleomavaega. Are the Shoshone people so anxious that 
they really want the money or do they not care about the money? 
I get the impression from Mr. Yowell's testimony here that it 
is not the money, but the principle involved here on how the 
Federal Government ended up owning what is known as Shoshone 
territory. I think maybe this is where we are having problems 
and where some of the tribal members have very strong feelings 
about this issue because once we establish the foundation of 
how this came about in the first place, then the funds become 
relevant in terms of what else needs to be done.
    Is there any portion of this one-third of the State of 
Nevada that was used for nuclear testing?
    Mr. Olsen. I am not in a position to--
    Mr. Faleomavaega. Have you been to Nevada?
    Mr. Olsen. I have been to Nevada, certainly.
    Mr. Faleomavaega. But what portion of the State of Nevada 
are you aware of that we are talking about?
    Mr. Olsen. Congressman, can you--
    [Laughter.]
    Mr. Gibbons. Predominantly the Shoshone area would be the 
eastern part of Nevada.
    Mr. Faleomavaega. Eastern part, I see.
    Mr. Olsen. I am not aware--I cannot answer whether there 
has been nuclear testing on that.
    Mr. Faleomavaega. Mr. Chairman, I think my time is up. I 
will wait for the second round. Thank you.
    Mr. Gibbons. The gentleman from Tennessee?
    Mr. Duncan. I have no questions, Mr. Gibbons. I thank you 
for calling this hearing, but since I did not hear the 
testimony, I will not ask any questions at this point, and I 
will listen to the next panel.
    Mr. Gibbons. Ms. Bordallo is next.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Olsen, I have a question on H.R. 884. How many trespass 
violations have been issued on Western Shoshone ancestral 
lands? Is the use of the land an ongoing concern to the 
Department? I believe it was approximately 3 years ago when a 
trespassing violation was issued for grazing on the BLM land 
without a permit. But I wanted to know if this is an isolated 
issue, or are there other land-use violations?
    Mr. Olsen. There have been trespass violations issued to 
both Western Shoshone and non-Indian people.
    Ms. Bordallo. You don't have a number?
    Mr. Olsen. I don't have a number.
    Ms. Bordallo. Has it been frequent?
    Mr. Olsen. Well, I know that it is more than one. I don't 
know how frequent it is. But we can certainly obtain that 
information and get that back to you.
    Ms. Bordallo. All right. And my other question, Mr. 
Chairman, does the treaty preclude a land settlement?
    Mr. Olsen. No, the treaty does not preclude a land 
settlement.
    Ms. Bordallo. All right. I have no further questions, Mr. 
Chairman.
    Mr. Gibbons. Mr. Udall?
    Mr. Tom Udall. Thank you, Mr. Chairman.
    Mr. Olsen, your testimony refers to the support for the 
distribution of funds by three of the four successor tribes. 
What documentation is there that shows this support?
    Mr. Olsen. Well, tribal resolutions, basically, the 
resolutions that I referenced before in my testimony.
    Mr. Tom Udall. Was there an election or anything like that 
that was supervised by the BIA?
    Mr. Olsen. Over the course of a number of years, there have 
been various referendum votes, surveys, but they were not 
supervised by the Bureau of Indian Affairs.
    Mr. Tom Udall. So this was not an official election 
supervised by the BIA and then officially accepted as an 
election held by a sovereign Indian tribe?
    Mr. Olsen. It was not supervised by the Bureau of Indian 
Affairs.
    Mr. Tom Udall. And yet you are willing to testify today 
that 90 percent--is that the figure you have used--90 percent 
of the tribe support this bill and support the distribution?
    Mr. Olsen. Ninety percent is the number that I have heard. 
I used ``vast majority''--
    Mr. Tom Udall. That is your figure? That is the Interior 
Department's figure?
    Mr. Olsen. That is the number that Congressman Gibbons 
used, but that is the number that I have heard. I would say a 
vast majority of the Western Shoshone members. I mean, 90 
percent is probably fairly accurate.
    Mr. Tom Udall. Can you give the Committee any documentation 
of that? Is there any evidence of that other than in several 
resolutions? There is no certified election? I mean, what is 
there for the Committee to rely on to show that there is this 
kind of, as you put it, overwhelming or the 90 percent figure 
that has been used by the Chairman, what is there to show that?
    Mr. Olsen. We will certainly provide, be more than happy to 
provide whatever we have to the Committee that demonstrates the 
support, absolutely.
    Mr. Tom Udall. Well, I would very much like to see that 
kind of evidence, and please, Mr. Chairman, if it is 
acceptable, have it submitted for the record.
    My understanding, there are about 6,000-plus members, 
something in--
    Mr. Olsen. Yes, 6,000-plus who would be eligible for the 
distribution.
    Mr. Tom Udall. And 1,500 voted for it? Is that right?
    Mr. Olsen. That is, I believe, the number.
    Mr. Tom Udall. Then how do we get to 90 percent and 
overwhelming if we--that is only one-quarter.
    Mr. Olsen. Well, as I am being advised here, the 6,000 also 
includes minor children.
    Mr. Tom Udall. So do you know the figure for the 6,000-plus 
for adults that would be eligible to vote?
    Mr. Olsen. I don't. I don't.
    Mr. Gibbons. Mr. Udall, would you yield to me to answer the 
question?
    Mr. Tom Udall. Well, I would like them to answer the 
question, actually, because I think that is who normally 
certifies an election by a tribe, the Bureau of Indian Affairs 
and the Interior Department, if they are able to answer. No 
disrespect at all to you, Mr. Gibbons, but--
    Mr. Olsen. I am unable to answer that question. I don't 
know what the percentage of voting adults--
    Mr. Tom Udall. Are you able to answer?
    Ms. West. First of all, I would like to clarify that most 
elections are not--tribal elections are not certified by the 
Bureau of Indian Affairs. They are certified by the tribes 
themselves. The only elections that we certify are those that 
are required to be certified within the tribal governing 
document. This is not the type of election that the Secretary 
had the authority or the requirement to certify.
    Mr. Tom Udall. Is the Interior Department committed to 
begin negotiation with the Western Shoshone Nation to establish 
a culturally and economically adequate land base for all 
Federally recognized Western Shoshone tribal governments and 
communities?
    Mr. Olsen. If that is something that the Committee wanted 
to pursue, I am sure that we would be more than happy to 
participate and provide support and assist in that.
    Mr. Tom Udall. Is it accurate to say that--the Federally 
recognized Shoshone tribes in Nevada currently hold a total of 
about 24,000 acres of Indian trust land. This is less than one 
one-hundredth of the Western Shoshone ancestral lands. Is that 
fair to say that?
    Mr. Olsen. I believe that 24,000 acres is the correct 
figure of trust land.
    Mr. Tom Udall. And is it the position of the Interior 
Department that they should have more land to have an 
economically viable land base?
    Mr. Olsen. On that I cannot say that that is the position 
of the Department of the Interior.
    Mr. Tom Udall. And, Mr. Gibbons, Mr. Chairman, if I have 
time, I will be happy to yield to you to insert anything in the 
record that you would like to have in there.
    Mr. Gibbons. That is all right, Mr. Udall. I think the 
answer was adequately given before. But I did notice your time 
is up.
    Mr. Baca?
    Mr. Baca. Thank you very much, Mr. Chairman.
    I guess I have one question. Have the Western Shoshone 
Indians expressed any opposition to this measure?
    Mr. Olsen. Have Western Shoshone people expressed 
opposition?
    Mr. Baca. Yes.
    Mr. Olsen. I am sorry. I am not hearing very well. Yes, 
there have been tribal members, Western Shoshone people, who 
have expressed opposition.
    Mr. Baca. And what do you think the consequences of that 
will be?
    Mr. Olsen. The consequence of their--
    Mr. Baca. The opposition right now. Is there any formal 
agreements that they can--
    Mr. Olsen. I am not aware of any formal agreement. I think 
it depends on what the community decides to do with the 
legislation.
    Mr. Baca. Will the funds improve the economic conditions of 
the Western Shoshone Indians?
    Mr. Olsen. I am assuming that it would. A $30,000 payment 
to each eligible member, I think the feeling is that, yes, it 
would improve the economic condition. That is why I think there 
is a desire for this to move forward. This money has been 
sitting. The Western Shoshone people are entitled to it. It is 
their money. And I think the feeling is that, yes, it would 
improve the economic condition. It is their money, and they 
should receive it.
    Mr. Baca. What are the current conditions right now?
    Mr. Olsen. I can't speak specifically. I have not visited 
the area. But my understanding is the vast--well, a good 
portion of the people are living in poverty, that it is--suffer 
some. It is a desperate situation.
    Mr. Baca. Well, it is something that I would support. I 
believe when you look at sovereign countries and you look at 
Native--we have not given enough, even from what we have done--
we have always taken, and it seems like we have the right to 
give back not only for sovereignty but to improve conditions in 
education, health, road conditions, tribal pride, tribal 
respect, and give them back a portion of the land. I think it 
is what we have done; we have taken the land away. It is time 
that we give it back as well. And that is toward any Native 
American Indian that we have in this country. Hopefully, if we 
have hearings, we will produce and we begin to identify and to 
give back to Native Americans, because they truly are the first 
people in this country and should be recognized as 
contributors. And I think we have an obligation to improve 
conditions within each of the reservations as well, and we 
should not rely on gaming of others, but also as part of our 
responsibilities to make sure that conditions are improved and 
they have the same rights that anybody else. Because when we 
talk about leave no child behind, that means in our 
reservations and other places as well, from both educational, 
technology, health improvements. So hopefully we will work 
along those areas and that we as individuals can all come 
together in a bipartisan and again support our Native Americans 
who are truly in a lot of these conditions that are very poor 
conditions. And I think it is our responsibility to do whatever 
we can to make conditions a lot better.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Baca. Just for the Committee's 
record, this bill deals only with the distribution of an 
account which was a judgment from a court to the tribes, and 
without this distribution, of course, this money sits in that 
account growing interest, helps no one, has not helped anyone 
for more than 20 years. And the purpose of this bill is not to 
adjudicate the validity of anybody's claim on the land, but to 
distribute the funds that are in this account.
    We all agree with your comments, and we agree with the 
status of our Native Americans and needs of those individuals. 
But this bill does not deal with that.
    Right now, since we have finished discussion and all 
members have questioned this panel, I would like to dismiss 
this panel and call up the second panel.
    Mr. Gibbons. The second panel is Mr. Leon D. Jones, 
Principal Chief, Eastern Band of Cherokee Indians; Cory Matthew 
Blankenship, Eastern Band of Cherokee Indians; Don Barger, 
Senior Regional District Representative, National Parks 
Conservation Association.
    Gentlemen, while we are getting prepared, we have a custom 
in this Committee to swear you in, so if you would all rise and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that each of the 
individuals testifying before us today has responded in the 
affirmative, and I would turn to my friend, Mr. Jones, for an 
introduction of the witnesses.
    Mr. Jones of North Carolina. Mr. Chairman, on behalf of 
Congressman Charles Taylor, I am delighted to introduce Chief 
Leon Jones and Cory Blankenship, and I will be very brief in 
the introduction.
    Chief Jones is the Principal Chief of the Eastern Band of 
Cherokee Indians based in Cherokee, North Carolina. He served 
as tribal court judge and council member before serving as 
chief, the only person to serve in all three branches of 
Eastern Cherokee government. Also, Chief Leon Jones is a 26-
year veteran of the military, both Air Force and the United 
States Marine Corps. We welcome you, sir.
    Cory Blankenship is a recent graduate of Cherokee High 
School and a product of the Cherokee school system. He will 
attend NC State in Raleigh, North Carolina, on a 4-year 
academic scholarship, and is a long-time advocate of the land 
exchange, and I welcome both these gentlemen to the Committee.
    Mr. Gibbons. Thank you very much, Mr. Jones.
    We will begin now with the testimony of Chief Leon Jones. 
You are welcome to the Committee. The floor is yours. We look 
forward to your testimony, Chief Jones.

         STATEMENT OF LEON D. JONES, PRINCIPAL CHIEF, 
                EASTERN BAND OF CHEROKEE INDIANS

    Mr. Leon Jones. Thank you, Mr. Chairman. Mr. Chairman, my 
name is Leon Jones. I do have the honor of being the chief of 
the Eastern Band of Cherokee Indians in North Carolina.
    Mr. Pombo, Ranking Member Mr. Kildee--I am a little 
nervous, as you can probably understand--members of the 
Resource Committee, and other distinguished Members of 
Congress, thanks for this opportunity to be here.
    I have a prepared statement. However, everything that is in 
my prepared statement has been said. There is no need for me 
going back over things you have already heard and repeating. I 
am going to hit a couple of high points and then talk from my 
heart, if you don't mind, sir.
    This is very important not only to the Eastern Band of 
Cherokee Indians but the entire nation. As has been said by our 
President and by each one of us as we campaigned for office, 
education is our highest priority, to educate our children, 
leave no child behind. Our President says that and so do I. I 
have committed myself to that.
    The land under consideration is tremendously important. It 
is important to the future of my tribe, and it is important to 
the future of the United States because we do want to educate 
every child we have.
    The land under consideration, the Yellow Face, or Waterrock 
Knob, is a piece of property that was pointed out by the park 
as one that they desired, one that would be of benefit for 
them. We reacquired that piece of property, and we are now 
ready to make the exchange.
    We have some pictures. We have pictures of the view of how 
beautiful Waterrock Knob is. You will see them right here. And 
this piece of property is in danger because--has been in danger 
because the properties on both sides of it have been bulldozed 
and house sites have been prepared.
    This is the view from the Blue Ridge Parkway, one that the 
Blue Ridge Parkway was designed to protect, and we want to help 
the Blue Ridge Parkway to protect this property.
    Seventy-five years ago, the property that we are asking for 
was a lumber mill. You can see that on my right. It is not 
pristine property. This property here is 218 acres of very 
pristine property. It has water on it. It has endangered 
species on it, Federally endangered species. Those species need 
to be protected.
    Conversely, the piece there that you see has been disturbed 
greatly. It is the ancestral lands of the Eastern Band of 
Cherokee Indians. That has been proven through archaeological 
studies. We now want to use it for schools to educate our 
children. This piece of property was supposed to be returned to 
my tribe back in 1940 when the Blue Ridge Parkway was built. 
For some reason, when it reached Congress, this piece of 
property was taken out of the legislation and not returned to 
us. The money was given to us to buy it, and then we were not 
allowed to. So we feel that this property is our ancestral 
lands, and we feel that we should have it back. We need it for 
our children. We want to build three schools: an elementary, a 
middle school, and a high school. Having all three schools 
together will help us teach our native language along with a 
modern curriculum.
    We do it in a multi-age, communal setting that is 
consistent with our culture. The vision will replace the 
dilapidated, overcrowded, and dangerous schools that the 
Government built for us years ago and that we still use. You 
have seen some of the pictures of the schools in the poor 
condition that they are in.
    To address the Park Service concerns, we have already spent 
over $1.5 million on environmental and archaeological studies. 
We have designed and redesigned the site plan to minimize any 
impact. We have changed the footprint of this school to miss 
things that were very important. The current site plan 
preserves the views from the Blue Ridge Parkway. It provides a 
buffer around the wetlands next to the exchange tract. It 
avoids any impact on 12 of the 14 archaeological sites found on 
this property. And it calls for approximately $3 million of 
careful research for the two sites in the construction area.
    We have taken all the steps to preserve and to do a fair 
exchange. The land that we want to exchange is the highest 
piece of property owned by a person east of the Mississippi, 
highest piece of pristine land in the United States--or east of 
the Mississippi, I should say. We have purchased it. The option 
on the property was about to run out. We went ahead and 
purchased it so that we could exchange it for this piece of 
property.
    The most important thing for me, ladies and gentlemen, is 
the children and the future of this tribe. The future of this 
tribe, like the future of the United States, depends on 
educating our people in the highest and best way that we know 
how, and that is exactly what we want to do.
    Before I close, I want to thank the National Park Service 
Director Fran Mainella and the people working with her in the 
Interior Department for dealing in good faith with the Eastern 
Band over the last 4 years. Although we have not always found 
agreement on every issue, they have demonstrated a willingness 
to work through the issues, and in many cases, we have become 
friends.
    Chairman Pombo and members of this Committee, the Eastern 
Band of Cherokee Indians has the resources to make this vision 
a reality. You can make it possible. Please help us as we 
strive to leave no child behind. Help us to protect our unique 
culture, our unique heritage, our language, and our identity. 
For the benefit of the Cherokee people and the American public, 
we respectfully ask that you support our land exchange.
    Thank you, ladies and gentlemen.
    [The prepared statement of Leon Jones follows:]

               Statement of Principal Chief Leon Jones, 
             Eastern Band of Cherokee Indians, on H.R. 1409

    Chairman Pombo, Ranking Member Rahall, Members of the Resources 
Committee and other distinguished Members of Congress, thank you for 
the opportunity to speak today.
    I come before you to speak about an important issue--perhaps the 
most important issue--facing our two Nations, the United States and the 
Eastern Band of Cherokee. That is the education of our children. Our 
Nations cannot be strong without well-educated members. President Bush 
and this Congress have pledged to ``leave no child behind,'' and I have 
made the same pledge for my people, the Cherokee people.
    The Ravensford-Yellow Face Land Exchange under consideration by 
this Committee today is tremendously important for the future of the 
Eastern Band of Cherokee. But first let me discuss why it is important 
for the National Park Service and the American public.
    With Congress's approval of this exchange, the Yellow Face (or 
Waterrock Knob) tract will be placed under the protection of the 
National Park Service. We asked the Park Service what land they would 
like to acquire, and they selected this property, among other options.
    The views from Waterrock Knob are increasingly threatened by non-
Indian housing development. The parcel next to the Yellow Face tract, 
and just beyond this view, already has house sites bulldozed on it. 
Yellow Face, and the splendor of this view from Waterrock Knob, 
urgently need protection so they can be enjoyed by the American public 
for years to come. In contrast, the Ravensford tract that we seek for 
schools is a smaller, disturbed, and less valuable piece of land. 
Seventy-five years ago, it was a lumber mill town. We have a picture of 
what it looked like then. You can see that it was anything but 
pristine. We also have pictures of its current uses. It is a road 
corridor for tribal members and visitors traveling between downtown 
Cherokee and the Big Cove Community. It is also the corridor for major 
power, telephone, water and sewer lines serving both Big Cove and the 
National Park Service facilities across the river from Ravensford.
    The Ravensford tract currently splits the Qualla Boundary, 
isolating the Big Cove community from the rest of the Qualla Boundary. 
Archaeological research has confirmed what we already knew--that it is 
part of our ancestral homeland. Sixty-five years ago, we negotiated a 
deal with the United States to exchange the Ravensford tract for the 
Blue Ridge Parkway right-of-way through our land. At the last minute, 
the deal was changed without our knowledge, and Ravensford was removed 
from the legislation. The details of this unfortunate history are 
described in my written testimony.
    But let me get back to the main reason I am here. This exchange 
will provide the Cherokee people with the only suitable location we can 
get to build a new three-school education center. We envision this new 
campus as a ``cultural village'' where Cherokee children can honor 
their past while embracing the future. Having all three schools 
together will help with the teaching of our native language and the 
modern curriculum. And we can do it in a multi-age, communal setting 
that is consistent with our culture. This vision will replace the 
dilapidated, overcrowded and dangerous schools that the Government 
built for us years ago and that we still have to use.
    We plan to build state-of-the-art facilities with all of the modern 
requirements for a school system, and with cultural features like a 
seven sided ``council'' room in the school. The schools are designed 
for geothermal heating to be both safe and comfortable for our 
children, and friendly to the environment.
    Before I close, I want to thank National Park Service Director Fran 
Mainella, and the people working with her in the Interior Department 
for dealing in good faith with the Eastern Band over the last four 
years. Although we have not always found agreement on every issue, they 
have demonstrated a willingness to work through the issues. And in many 
cases, we have become friends.
    Chairman Pombo and members of the Committee, the Eastern Band of 
Cherokee Indians has the resources to make this vision a reality, and 
you can make it possible. Please help us as we strive to ``leave no 
child behind.'' Help us protect our unique culture, heritage, language 
and identity. For the benefit of the Cherokee people--and the American 
public--we respectfully ask you to support this land exchange.

                 Positive Impacts of the Land Exchange

    NPS will acquire the Yellow Face tract from the Eastern Band and 
protect it for the American public:
    <bullet> Includes 218 acres adjacent to the Blue Ridge Parkway.
    <bullet> In the foreground view from Waterrock Knob Visitor 
Center.
    <bullet> Area is under rapid development; home sites are now 
available on an adjacent tract.
    <bullet> Endangered species: Carolina Northern Flying Squirrel, 
Rock Gnome Lichen.
    <bullet> Seven acres of high-altitude wetland seeps.
    <bullet> Fair market value exceeds Ravensford value.
    Transfer of Ravensford to the Eastern Band with agreed restrictions 
has many benefits:
    <bullet> Benefits the Eastern Cherokee and American public by 
helping preserve Cherokee language and culture.
    <bullet> Cherokee children can be moved from the dilapidated, 
overcrowded, and dangerous elementary school to a safer location with 
less traffic.
    <bullet> Helps United States meet a high priority goal of 
improving Indian education.
    <bullet> Reunites two parts of the Cherokee reservation and 
restores Tribal territorial integrity.
    <bullet> Rectifies an historical injustice to the Eastern Band 
(1940 Act).
    <bullet> The Eastern Band's agreement to reduce its request from 
168 to 143 acres protects resources.
    <bullet> Wetlands and alluvial forest adjacent to site remain in 
NPS ownership. EBCI has offered to help restore wetlands and will 
likely create additional wet meadow areas.
    <bullet> 12 of 14 archaeology sites are preserved in place without 
development. Knowledge increased through careful research of the two 
archaeology sites affected by construction.
    <bullet> Development restrictions protect views from Parkway near 
Ravensford.
    <bullet> Federal environmental and cultural resource laws will 
continue to apply.
    <bullet> No Federally-listed threatened or endangered species have 
been found at Ravensford.

        History of Ravensford Tract and Eastern Band of Cherokee

    The Eastern Band of Cherokee Indians' seeks to reunite the Big Cove 
Community with the rest of the Qualla Boundary based in part on our 
need for territorial integrity. The Ravensford Tract is the 
transportation, utilities, and geographical link between these 
communities. Reunification of the Boundary through the Ravensford Tract 
is important to the Tribe for significant historical reasons.
    The history of the Cherokee Nation is known to most Americans. 
Between 1700 and 1838, European-Americans settled on the Tribe's 
original territory of over 100,000 square miles. Despite a number of 
treaties over more than a century promising no further incursions on 
the Nation's territory, most Cherokees were forcibly removed from the 
Southeast over the Trail of Tears to Oklahoma. The Eastern Band 
consists of descendants of those Cherokees who remained in the 
mountains to avoid the Trail of Tears, and those who returned from 
Oklahoma afterward. Through determination and with some assistance from 
friends like Will Thomas, members of the Eastern Band eventually 
repurchased a small part of the Nation's original territory. They 
fought lawsuits in the late 1800's to keep their land and finally, in 
1925, deeded the repurchased land to the United States to be preserved 
in trust for the Tribe.
    When European-Americans settled in the Cherokee Nation's territory, 
they established themselves firmly in the rich bottomlands like the 
Ravensford Tract. After the Trail of Tears, it was difficult for the 
Eastern Band to repurchase very much of this prime land, so most of the 
present day Qualla Boundary is steep and difficult terrain.
    The Ravensford Tract resonates with the Eastern Band as part of 
that history. Ravensford was also involved in a particular injustice 
the Tribe suffered in the mid-20th Century. In 1933, the Tribe had 
granted a right-of-way to the State of North Carolina for a highway 
from Soco Gap to Cherokee, to assist with transportation and economic 
development. That project was put on hold in 1935 when the United 
States Interior Department proposed to locate the last 12 miles of the 
Blue Ridge Parkway along that route through Soco Valley. When the Tribe 
learned that the Parkway would take valuable bottomland on which many 
enrolled members lived and require a 200 to 800 foot inaccessible 
right-of-way, it soundly rejected that proposed route. Tribal leaders 
and the Interior Department negotiated for several years to find 
another route, despite significant opposition among influential Tribal 
members. In 1939, the Secretary of the Interior proposed legislation 
allowing him to condemn a right of way over the Qualla Boundary. H.R. 
6668, 76th Cong., 1st Sess. (1939). The Senate Committee on Indian 
Affairs sent a representative to negotiate with the Tribe in North 
Carolina. Over the course of a year, an acceptable compromise was 
negotiated.
    The compromise negotiated with the Senate's representative is laid 
out in a revised Senate Committee version of H.R. 6668. See Senate 
Report No. 1491 at 2 (1940). The compromise had several elements: (1) 
The Tribe agreed to a ridge route over its territory for the Blue Ridge 
Parkway. (2) The State of North Carolina agreed to go back to its 
original plan to build the Soco Valley highway with public access for 
Tribal members and visitors. (3) The State agreed to pay the United 
States, in trust for the Tribe, $40,000 for the Blue Ridge Parkway 
route. (4) With those funds, the Tribe would be permitted to purchase 
replacement lands adjacent to the Tribe's territory in the Great Smoky 
Mountains National Park, including both the Boundary Tree Tract and the 
Ravensford Tract. The Chief and Tribal Council supported this 
agreement, although the Parkway was still opposed by a vocal minority 
in Cherokee.
    The agreement was approved and reported favorably by the Senate 
Committee on Indian Affairs. The House sponsor of the original Bill, 
Congressman Weaver, testified at the Senate Committee's hearing on the 
Bill and indicated his support for the negotiated agreement, including 
the transfer of both the Boundary Tree and Ravensford Tracts. 
Transcript of Hearing, Senate Committee on Indian Affairs, April 22, 
1940.
    When the Bill came up for consideration on the Senate floor, 
however, a Senator from Oklahoma presented an amendment that deleted 
the Ravensford Tract. Congressional Record, May 28, 1940, at 6989. 
There is no indication in the record of the reason for that change, nor 
that the Tribe was notified. Typical of the United States' treatment of 
the Cherokee, another agreement negotiated in good faith was modified 
without the Tribe's consent, and the Ravensford Tract remained out of 
reach.
    The 1940 legislation removed 1,333 acres from the Tribe's territory 
for the Blue Ridge Parkway, and effectively landlocked an even larger 
portion of the Tribe's high elevation property. It also completely 
severed the Big Cove Community from the rest of the Qualla Boundary 
geographically. In exchange, the Tribe was allowed to purchase 905 
acres of the Boundary Tree Tract, for a net loss of at least 428 acres 
and effective loss of use of many more acres. If the 322-acre 
Ravensford Tract had not been eliminated from the Bill at the last 
minute, then the acreage exchanged would have been closer to equal.
    This history is the source of the belief expressed by some 
Cherokees today that the Ravensford Tract should be given or sold to 
the Tribe. The Tribal leadership, however, recognizes that the NPS 
Director does not have that authority and has offered to enter into a 
fair value-for-value land exchange.
    The Tribe gave up much of its hard-won land in 1940 so the United 
States could complete the Blue Ridge Parkway, and believes the United 
States should live up to the commitment its representatives made to the 
Tribe. The Ravensford Tract should have been sold to the Tribe over 60 
years ago and should be exchanged today so the Tribe can reunite the 
two communities and build its education and culture center.
    Archeological research has confirmed that the Ravensford Tract is 
part of the Eastern Band's ancestral homeland. The Cherokee Nation was 
forced to give up over 100,000 square miles of land in the 18th and 
19th centuries for the benefit of the American public. This land 
exchange would involve returning less than 1/4 of a square mile in 
exchange for a larger, more pristine, and more valuable tract that 
needs protection.

     Mitigation Measures Agreed to by the Eastern Band of Cherokee

    The Eastern Band has demonstrated its good faith in negotiations 
with the National Park Service. The Eastern Band has agreed to spend 
over $1.5 million to study the feasibility of an exchange, has reduced 
its acreage request, and has agreed to development restrictions to 
avoid or mitigate impacts on natural and cultural resources. The 
Eastern Band expects to spend more than $3 million on further 
archaeology research if the exchange is approved. Detailed mitigation 
measures will include the following:
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7772.001
                                 
[GRAPHIC] [TIFF OMITTED] T7772.002
                                 
[GRAPHIC] [TIFF OMITTED] T7772.003
                                 
[GRAPHIC] [TIFF OMITTED] T7772.004
                                 
[GRAPHIC] [TIFF OMITTED] T7772.005
                                 

    Mr. Gibbons. Thank you, Mr. Jones.
    Mr. Blankenship, do you have any comments? Please pull the 
mike close to you so everyone can hear.

            STATEMENT OF CORY MATTHEW BLANKENSHIP, 
                EASTERN BAND OF CHEROKEE INDIANS

    Mr. Blankenship. Chairman Pombo, Ranking Member Kildee, 
members of the Resources Committee, and other Members of 
Congress, I, too, would like to express my thanks for being 
allowed to address the Committee this morning.
    I am an enrolled member of the Eastern Band of Cherokee 
Indians and a student at Cherokee High School. I started my 
academic career at Cherokee Elementary School and graduated 
from Cherokee High School last month. Next year I will attend 
North Carolina State University, and when I finish my 
education, I will return to my home, my family, and my people. 
God willing, I will raise my own children in the community 1 
day. As a student at Cherokee schools for nearly 13 years, I 
have seen firsthand the dangerous and dilapidated conditions 
that exist in our school system.
    As Chief Jones has already mentioned, education is 
extremely important to the Eastern Band. We strive for 
excellence in our schools, take pride in our traditions, 
language, and history, and we want our children to have the 
schools they need and deserve. We only want the best for our 
children. Our children need a safe, ample school facility that 
is more conducive to learning--something we do not have now.
    We currently have over 700 students enrolled at Cherokee 
Elementary School, all of which are housing in a facility built 
for 480. Over 35 percent of our elementary school students are 
classified as ``un-housed'' students because they attend 
classes in modular units that have been set up on campus. This 
number comes from the Southern Association of Colleges and 
Schools which accredits the Cherokee Central School System. 
Also, according to the Southern Association of Colleges and 
Schools, our elementary school campus should sit on 17 or more 
acres of land. The elementary school currently sits on nine. 
This small campus is located at the busy intersection of U.S. 
Highways 19 and 441, where millions of visitors to the Great 
Smoky Mountains National Park pass each year.
    Not only are the elementary school buildings overcrowded, 
they have seen the effects of time. The foundation has shifted, 
causing walls floors, and ceilings to crack, allowing for the 
formation of rust and mold. In some places, ceiling tiles have 
disintegrated to nothing, exposing electrical corridors and 
other utilities. Our gymnasium has been condemned for 
structural reasons, but we have to continue using it.
    Cherokee High School has similar problems. The school is 
currently at capacity. Parts of the building have been declared 
unfit for educational purposes, and parts of the structure have 
been condemned. These school facilities are simply inadequate 
for the education of our children.
    But we have the resources and Congress has the power to 
solve this problem. With Congress' approval of this exchange, 
the Eastern Band will have a suitable location in which to 
build three new schools, all part of one multi-generational 
educational village.
    We envision a cultural village where our children can gain 
an understanding of our culture, heritage, language, and our 
history. They will learn traditional ways, customs, language, 
and natural history alongside the modern curriculum of schools 
throughout the Nation. Our children will attend school in 
modern, environmentally friendly facilities in an area that is 
part of our ancestral homeland, close to our homes, and more 
conducive to learning.
    We are a close-knit community and our clan and extended 
family relationships are important. Our language is also 
important to preserve that culture. In this educational 
village, Cherokee language teachers and elder speakers will be 
able to move from students in one school to the next. And older 
students will be able to assist in the education of younger 
ones.
    Our ideal teaching method is language immersion, and it has 
been introduced into the school system, but cannot reach its 
full potential in isolated schools. The basis of immersion is 
that students hear and speak nothing but Cherokee for hours 
each day. They speak with and teach each other and, therefore, 
truly absorb our native language. this new three-school campus 
will allow us to expand the immersion program and increase the 
fluency and numbers of native language speakers. This new 
facility will also allow many Cherokee students who have 
entered the public school system because of poor conditions and 
overcrowding in our schools to return. These public school 
students currently receive virtually no exposure to our 
language and culture while at school.
    This large parcel of land will also rejoin the isolated 
Cherokee community of Big Cove with the rest of the Qualla 
Boundary. Restoring jurisdictional integrity of our land will 
serve not only as a physical connection but also as a spiritual 
one that will allow the coming together of communities of 
people and of traditional ways.
    In the last decade, over 3.5 million acres nationwide have 
been placed under the protection of the National Park Service, 
and we ask only for 143. If this exchange takes place, there 
will still be more acres under Park Service protection, with 
the 218 we are offering at Waterrock Knob. We believe this 
exchange is fair and that our goals are important, and we hope 
you do, too.
    We ask everyone here today to support the Cherokee people, 
help us protect our unique identity, help us to ensure the 
future of our children and our nation as a whole. Please 
support the Ravensford land exchange and do not allow our 
Cherokee children to be left behind.
    Thank you again for allowing me the honor to appear before 
you.
    [The prepared statement of Mr. Blankenship follows:]

    Statement of Cory Blankenship, Eastern Band of Cherokee Indians

    Chairman Pombo, Ranking Member Rahall, Members of the Resources 
Committee and other members of Congress, I too would like to express my 
thanks for being allowed to address this Committee today.
    I am an enrolled member of the Eastern Band of Cherokee Indians, 
and a student at Cherokee High School. I started my academic career at 
Cherokee Elementary School, and I graduated from Cherokee High School 
last month. Next year I will attend North Carolina State University, 
and when I finish my education, I plan to return to my home, my family, 
and my people. God willing, I will raise my own children in the 
community one day. As a student at Cherokee Schools for nearly 13 
years, I have seen first hand the dangerous and dilapidated conditions 
in our school system.
    As Chief Jones has already mentioned, education is extremely 
important to the Eastern Band. We strive for excellence in our schools, 
take pride in our traditions, language, and history--and we want our 
children to have schools they need and deserve. We only want the best 
for our children. Our children need a safe, ample school facility that 
is more conducive to learning, something we do not have now.
    We currently have over 700 students enrolled at Cherokee Elementary 
School, all of which are housed in a facility built for 480. Over 35% 
of our elementary school students are classified as ``un-housed'' 
students because they attend classes in modular units that have been 
set up on campus. This number comes from the Southern Association of 
Colleges and Schools which accredits Cherokee Central Schools. Also, 
according to the Southern Association of Colleges and Schools, Cherokee 
Elementary should sit on 17 or more acres of land'' the elementary 
school currently sits on 9. This small campus is located at the busy 
intersection of U.S. Highways 19 and 441, where millions of visitors to 
the Great Smoky Mountains National Park pass each year.
    Not only are our elementary school buildings overcrowded, they have 
seen the effects of time. The foundation has shifted, causing walls, 
floors, and ceilings to crack allowing for the formation of rust and 
mold. In some places, ceiling tiles have disintegrated to nothing, 
exposing electrical corridors and other utilities. Our gymnasium has 
been condemned for structural reasons, but we have to continue using 
it.
    Cherokee High School has similar problems. The school currently is 
at capacity. Parts of the building have been declared unfit for 
educational purposes and parts of the structure have been condemned. 
These school facilities are simply inadequate for the education of our 
children.
    We have the resources, and Congress has to power to solve this 
problem. With Congress's approval of this exchange, the Eastern Band 
will have a suitable location in which to build three new schools all 
part of one multi-generational, educational village.
    We envision a ``cultural village'' where our children can gain an 
understanding of our culture, heritage, language and our history. They 
will learn traditional ways, customs, language, and natural history 
alongside the modern curriculum of schools throughout the Nation. Our 
children will attend school in modern, environmentally friendly 
facilities in an area that is part of their ancestral homeland, close 
to our homes and more conducive to learning.
    We are a close-knit community and our clan and extended family 
relationships are important. Our language is also important to preserve 
that culture. In this educational village, Cherokee language teachers 
and elder speakers will be able to move from students in one school to 
the next. And older students will be able to assist with the education 
of the younger ones.
    Our ideal teaching method of ``language immersion'' has been 
introduced in the school system, but cannot reach its full potential in 
isolated schools. The basis of immersion is that students hear and 
speak nothing but Cherokee for hours each day, speak with and teach 
each other, and therefore truly absorb their native language. This new 
three-school campus will allow us to expand the immersion program and 
increase the fluency and numbers of native language speakers. This new 
facility will also allow many Cherokee students--who have entered the 
public school system because of poor conditions and overcrowding in our 
schools--to return. These public school students currently receive 
virtually no exposure to our language and culture at school.
    Our ``educational village'' will be on a large parcel of land, in a 
safe location buffered from major highways. It will be a beautiful 
facility designed with nature. We will be able to look out on the 
mountains and forests that we are a part of, and that are a part of us. 
Natural study areas in the forest will surround this campus, where our 
children will learn the scientific and biological make-up of our 
ancestral homeland.
    This large parcel of land will also rejoin the isolated Cherokee 
community of Big Cove with the rest of the Qualla Boundary. Restoring 
jurisdictional integrity of our land will serve not only as a physical 
connection, but also as a spiritual one that will allow the coming 
together of communities, of people and of traditional ways.
    In the last decade, over 3,500,000 acres nationwide have been 
placed under the protection of the National Park Service. We are asking 
only for 143 acres to help us build our schools and preserve our 
culture. And when this land exchange is completed there will still be 
more acres under Park Service protection, with the 218 we are offering 
at Waterrock Knob. We believe this is a fair exchange and that our 
goals are important, and we hope you do too.
    We ask everyone here today to support the Cherokee people, help us 
protect our unique identity, help us insure the future of our children 
and our Nation as a whole. Please support the Ravensford Land Exchange, 
and do not allow our children to be left behind. Thank you again for 
allowing me the honor to appear before you.
Cherokee Cultural Education Center at Ravensford
    The Eastern Band seeks to develop a three-school elementary, middle 
and high school campus on the Ravensford land exchange site, presently 
located in the Great Smoky Mountains National Park. At scoping meetings 
held to prepare for the draft environmental impact statement regarding 
the land exchange, members of the Eastern Band of Cherokee explained 
their cultural and educational reasons for planning a three-school 
campus, and this briefing paper is intended to consolidate and 
summarize those reasons in a single document.
    It is important to note that the Eastern Band has requested the 
Ravensford site both for school construction and to reunite the Big 
Cove Community with the rest of the Qualla Boundary (Cherokee Indian 
Reservation). Big Cove is completely separated from the Boundary by 
National Park Service land, and the access road to Big Cove travels for 
about two miles through the National Park. Even if other land were 
available for the school campus, the Eastern Band would seek the 
Ravensford site to re-establish territorial integrity with Big Cove.
Cultural Background
    The Eastern Band of Cherokee are the descendants of the Cherokee 
Nation who refused to relocate to Oklahoma, or who returned from 
Oklahoma after the Trail of Tears in the 1830s. The Tribe struggled for 
decades to reacquire and preserve a tiny portion of its original land 
base. The community is a close-knit one, formed by common ancestry and 
the struggle for cultural preservation on its original land base. 
Cherokee culture is clan-based. Extended family plays a much more 
significant role in Cherokee culture than it does in most non-Indian 
cultures.
    Traditional Cherokee cultural norms are also based on a reverence 
for nature and natural life cycles. Along with ceremonial practices 
conducted in the rivers and mountains, the practice of gathering wild 
foods and natural medicinal herbs is still widely practiced. The 
natural environment of the Western North Carolina mountains has 
sustained the Band for many years, and preservation of that environment 
is important to Tribal members.
    At the same time, the Eastern Band of Cherokee has embraced many 
elements of non-Indian culture, and has developed a thriving economy 
based on tourism. Although not without challenges, the Qualla Boundary 
probably has the most developed economy on a per capita basis of any 
Indian Nation. The modern economy has had an impact on Cherokee 
culture, particularly by affecting the number Cherokee language 
speakers.
    Anthropologists recognize the importance of a distinct language as 
perhaps the key element for preservation of traditional cultures. In 
this regard, the Eastern Band is at a critical juncture. While there 
are still many fluent Cherokee speakers, and a smaller number who can 
read and write in Cherokee, many adults and children do not speak 
Cherokee fluently, and some know only a few words.
    The Eastern Band and other Indian Nations face many challenges in 
the modern world. Among other things, diabetes is epidemic among many 
Tribes including the Eastern Band. Recent research has indicated that 
cultural knowledge and self-esteem are key prevention factors in 
helping today's youth combat this spreading disease. Maintaining the 
Tribe's language and culture may indeed be a matter of life or death in 
the future.
    To combat this trend and reverse it, the Eastern Band has 
established a program to teach Cherokee language and culture in the 
elementary school, in addition to the regular academic curriculum. The 
program has been successful, but is difficult to implement in the 
outdated, dilapidated, and overcrowded elementary school, located at a 
busy downtown intersection. Some of the serious challenges faced in the 
current setting are summarized in the attached memorandum by Lee Clauss 
of the Tribal Historic Preservation Program. The Tribe wants to expand 
the language program to the high school level, but with limited numbers 
of fluent Cherokee speakers who also have teaching credentials and 
geographically separated schools, that is not possible at this time.
Cherokee Cultural Education Center
    The Eastern Band proposes a unique educational center, designed 
with a strong emphasis on nature, and in keeping with the traditions of 
the Cherokee culture. This three-school campus will include elementary, 
middle, and high schools in state-of-the-art facilities built to teach 
both the regular curriculum and Cherokee language and culture. The high 
school will include classrooms and meeting rooms for post-secondary 
education and for adult continuing education, making the facility a 
multigenerational cultural education center.
    The Center's buildings will include elements of the traditional 
Cherokee seven-sided council houses and other references to the seven 
Cherokee clans. The written and spoken Cherokee language will be 
prevalent throughout the Center. Cherokee language teachers and 
traditional tribal elders will be able to circulate through the 
schools, helping classroom teachers incorporate language and culture 
into the classroom. The Center will facilitate mentoring programs, 
pairing older and younger students in collaborative teaching and 
learning experiences.
    Opponents of the land exchange have argued that the schools should 
be separated to comply with current non-Indian education theory. Even 
if that is current theory, the Tribe's need to preserve its language 
and culture is paramount. Without intending any disrespect, we have 
struggled for years in schools that were designed by the Federal 
government based on the mainstream education theories of the time. We 
are ready to design and build our own education center.
    Consistent with Cherokee respect for nature and the mountains, the 
Eastern Band plans outdoor learning settings as well, so that students 
can remain connected with and learn more about the environment as they 
are being educated. The Ravensford site offers several opportunities 
that are not available elsewhere, with the adjacent wetland, riverine, 
and montane alluvial habitats. Ravensford also contains significant 
historic and prehistoric Cherokee archeological features, which could 
offer educational opportunities whether they are preserved in place or 
excavated by professional archeologists working with the schools and 
community.
    The challenge of designing our own Education Center in a way that 
fits with the natural setting and does not interfere with the 
experience of Park visitors is one that the Tribe is happy to accept. 
Like the developers of the Folk Art Center on the Blue Ridge Parkway in 
Asheville, the Eastern Band will work closely with Park Service 
planners and officials to ensure that the schools fit the site, 
minimize any impact on views and other resources, and blend into the 
environment. This is not just something we want to do for the 
environment. We believe that replacing the current aging and 
substandard facilities that we inherited from the Bureau of Indian 
Affairs with beautiful schools in a natural setting will greatly 
enhance the self-esteem and educational experience of Cherokee 
children.
    The consolidated Education Center will also promote other 
efficiencies, including the ability to maintain the buildings and 
grounds, full use of school libraries on a multigenerational basis, use 
of athletic facilities, more efficient bus service, providing on-site 
specialists, including counselors, health educators, special education 
teachers, agricultural, environmental, and archeological educators, as 
well as the cultural and language specialists.
    We want to teach our children from the standpoint of history, 
nature, culture and community. The Cherokee Cultural Education Center, 
located in the heart of the Qualla Boundary at Ravensford, will be the 
central core that draws the community together and maintains the 
cohesive nature of our clan- and family-based society. The Education 
Center is needed, both literally and spiritually, to ``bring us 
together.'' It is not just our preference--it is a cultural necessity.

                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7772.006
                                 

    The Chairman. [Presiding.] Thank you.
    Mr. Barger?

       STATEMENT OF DON BARGER, SENIOR REGIONAL DISTRICT 
    REPRESENTATIVE, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Barger. Mr. Chairman and members of the Committee, good 
morning. I appreciate the opportunity to present the views of 
the National Parks Conservation Association on H.R. 1409. We 
have submitted a written statement that I will summarize.
    I want to be very clear from the outset. The problems are 
real and NPCA completely supports and applauds the Eastern 
Band's commitment to provide their students with the best 
possible schools. At the same time, NPCA must oppose H.R. 1409 
at this time. Our position has not been lightly considered nor 
easily reached.
    NPCA has been joined in opposing the development of this 
site by the Governor-appointed National Park Advisory Councils 
of both North Carolina and Tennessee. Appointed by former 
Governors Don Sundquist and Jim Hunt, both commissions passed 
resolutions in opposition to the proposed exchange, and we have 
attached that to our written testimony.
    For over 2 years, the Park Service has studied the 
potential effects of the proposed exchange. The draft 
Environmental Impact Statement, or EIS, has just become 
available, and there has been no opportunity to review or 
comment on it. Consequently, NPCA believes that H.R. 1409 is 
premature as it would short-circuit the ongoing public process 
and require the land exchange and development to proceed before 
the impacts of the proposal have been fully discussed or 
understood.
    I would like to raise just a few of the kind of issues that 
the EIS will unravel over the next few months.
    The site is listed on the National Register of Historic 
Places due to its over 8,000-year archaeological record of 
Euro-American, Cherokee, and pre-Cherokee history. Scientists 
from the All Taxa Biodiversity Inventory have identified to 
date 59 species new to science within the area. The Park 
Service's visual analysis of the site from the two overlooks 
along the Blue Ridge Parkway that look down upon the valley 
states, and I quote, ``Parkway visitors consider the Raven Fork 
River Valley view among the most coveted, a rare icon view.''
    Two descending ridges currently separate the noise, lights, 
and congestion of Cherokee from the Oconaluftee Valley in the 
park. If the Ravensford tract is developed as this bill 
proposes, the valley and the grandstand of mountains around it 
will be impacted by three buildings, six athletic fields, 
including some lit for night games, and several parking lots. 
We would oppose the development of this site even if the Park 
Service had proposed it.
    In relation to the Big Cove Road, the Park Service has 
worked with the Eastern Band over the years, and to our 
knowledge, no problems have been identified with either 
services or access along the road. We have been told that the 
two tracts of land proposed for exchange have relatively equal 
values of around half a million dollars. In 1972, the Park 
Service's regional real estate appraiser determined the fair 
market value of the Ravensford tract to be $6,000 per acre. If 
you apply an extremely conservative 3-percent annual increase 
to that value, the Ravensford tract should be worth around $2 
million. At the same time, we visited the Jackson County 
property assessor's office in May and found that the appraisal 
for the Yellow Face tract was $58,400. While these appraisals 
are usually on the low side, it would be quite unusual for them 
to be so by a factor of 10.
    These and many other issues and questions will be vetted in 
the public participation process for the EIS. We believe that 
forum is the proper one for understanding and fully evaluating 
these issues.
    It is important to emphasize that we believe that there are 
alternative locations for the new schools that could be 
developed and used. According to the Cherokee Business District 
Master Plan of February 2001, and I will quote, ``With a large 
amount of flat to rolling land, opportunities exist for 
development of large facilities such as a shopping area or 
hotel as well as a public parking facility.''
    The master plan also states, ``The elementary school 
occupies one of the most prime parcels of real estate in 
Cherokee, as does the BIA office next door...Over the long 
term, the elementary school and BIA sites should become a new 
cohesive anchor attraction. These anchors could be an outlet 
mall, festive retail, or entertainment uses that draw visitors 
to their locations as destination attractions.''
    Mr. Chairman, even a poorly done Education Campus Site 
Evaluation with hand-picked criteria that assured the 
Ravensford tract would be identified, found potential 
alternative sites for the construction of schools. The study 
does not conclude that the Ravensford tract is the only 
potential site for school construction.
    In closing, this is not a case of schools versus scenery. 
The simplest reason for not removing the land from the park is 
that we don't need to. NPCA stands ready to work with the 
Eastern Band, the Resources Committee, the National Park 
Service and the BIA to devise a solution that both protects 
Great Smoky Mountains National Park and the Blue Ridge Parkway, 
and provides Cherokee children with the best possible 
educational opportunities. We believe both of these goals can 
be satisfied. Unfortunately, the legislation before you does 
not produce that solution.
    Thank you for the opportunity to testify. I would be 
pleased to respond to any questions.
    [The prepared statement of Mr. Barger follows:]

 Statement of Don Barger, Senior Director, Southeast Regional Office, 
         National Parks Conservation Association, on H.R. 1409

    Mr. Chairman and members of the Committee, I am Don Barger, Senior 
Director of the southeast regional office of the National Parks 
Conservation Association (NPCA). NPCA is America's only private, 
nonprofit advocacy organization dedicated solely to protecting, 
preserving, and enhancing the National Park System. NPCA was founded in 
1919 and today has approximately 300,000 members who care deeply about 
the well being of our national parks.
    NPCA appreciates the opportunity to express our views about H.R. 
1409, the Eastern Band of Cherokee Indian Land Exchange Act of 2003. 
This proposed exchange has enormous implications for two of our most 
visited national park units--Great Smoky Mountains National Park and 
the Blue Ridge Parkway--and should not be entered into lightly. NPCA, 
along with others in the environmental community, applauds the Eastern 
Band of Cherokee Indians' (EBCI) commitment to provide their students 
with the best possible schools. The proposed Ravensford land exchange 
is so controversial because it combines two extremely important and 
emotional public policy issues: protecting our national parks, and 
providing young people with the best possible schools. Fortunately in 
this case, both of these important goals can be satisfied because of 
the presence of alternative locations for schools outside the boundary 
of our Great Smoky Mountains National Park.
    As you know, the National Park Service (NPS) is analyzing a 
proposal for Great Smoky Mountains National Park to relinquish 144 
acres, commonly referred to as the Ravensford tract, to the Eastern 
Band of Cherokee Indians (EBCI), in exchange for adding a parcel of 
land to the Blue Ridge Parkway many miles away. The exchange is 
extremely controversial with many national, regional and state 
organizations, including the North Carolina National Park, Parkway and 
Forest Development Council and Tennessee Park Commission, expressing 
their opposition. <SUP>1</SUP> NPS is developing an Environmental 
Impact Statement (EIS) as required by the National Environmental Policy 
Act (NEPA); a draft EIS is slated for publication this month. 
Consequently, NPCA believes that H.R. 1409 is premature, as it would 
short-circuit the ongoing public process and require the land exchange 
to proceed before the impacts of the proposed land exchange have yet to 
be fully debated or understood.
---------------------------------------------------------------------------
    \1\ Park Commissions' Resolutions.
---------------------------------------------------------------------------
Ravensford
    The proposed exchange will have far reaching impacts on the 
integrity of the National Park System and will significantly impair the 
resources of both Great Smoky Mountains National Park and the Blue 
Ridge Parkway. The beauty, natural history, and human history of the 
Ravensford tract make it of great educational value as a natural 
classroom. Scientists from the All Taxa Biodiversity Inventory have 
recently identified approximately 59 species that are new to science 
located within the Ravensford tract. Ravensford is also home to an 
unbroken archeological record of Euro-American, Cherokee and pre-
Cherokee history, including historic and prehistoric artifacts dating 
back more than 8,000 years. The discovery of these cultural resources 
supports the site's 1982 placement on the National Register of Historic 
Places.
    Part of the Ravensford tract includes alluvial floodplain, a 
globally rare ecological community described as imperiled by the Nature 
Conservancy. Because they're flat and near water, most such areas have 
been developed over the course of history, making the preservation of 
Ravensford in an undeveloped state even more important. In fact, the 
Ravensford tract was flooded during the recent severe rains during the 
week of May 5, 2003. <SUP>2</SUP> The Ravensford tract affords 
beautiful vistas from the Oconaluftee Valley, with a foreground of open 
fields from which hills and mountains of Great Smoky Mountains National 
Park rise abruptly. The topography of the park is such that vistas like 
these are extremely limited. The recently updated Blue Ridge Parkway 
(BLRI) visual analysis survey of the Ravensford tract published by the 
Department of Interior states, ``Parkway visitors consider the Raven 
Fork River Valley view among the most coveted, a rare icon view.'' 
Parkway management has concluded that the views to the tract should be 
preserved.
---------------------------------------------------------------------------
    \2\ Personal communication with GRSM staff.
---------------------------------------------------------------------------
    The ridges of the Great Smoky Mountains form a natural gateway that 
separate the noise and congestion of the town of Cherokee from the 
Oconaluftee Valley in the national park. The proposed school complex 
would sit at the primary North Carolina entrance to the park as well as 
the southern terminus of the Blue Ridge Parkway. If the Ravensford 
tract is developed into a school campus, that grandstand of mountains 
will include night lighting, six athletic fields, three parking areas 
and traffic congestion, as school buses would have to navigate the 
principal North Carolina entrance to our nation's most visited national 
park.
Alternative Locations for School Construction
    It is important to emphasize that there are alternative locations 
for new schools both inside and outside the Cherokee Reservation. Two 
documents produced by EBCI, the Cherokee Business District Master Plan 
and Education Campus Site Evaluation, state explicitly that alternative 
sites are available.
    EBCI received the Cherokee Business District Master Plan in 
February 2001. The stated purpose of the document is to ``serve as a 
guide for the orderly growth and development of Cherokee's CBD [Central 
Business District].'' <SUP>3</SUP> The development of the master plan 
began with an inventory and analysis of the natural and man-made 
features and conditions within the reservation. Based on that inventory 
the master plan states:
---------------------------------------------------------------------------
    \3\ Cherokee Business District Master Plan, February 2001, pg. 1.1.
---------------------------------------------------------------------------
        Opportunities for commercial developments, parking facilities, 
        and cultural attractions also exist throughout the area. The 
        north end of the CBD is currently experiencing retail growth. 
        With a large amount of flat to rolling land, opportunities 
        exist for development of large facilities such as a shopping 
        area or hotel as well as a public parking facility. (emphasis 
        added).

        Another large area of potential development lies across the 
        river where several large buildings stand unused on Acquoni 
        Road. These large flat and paved areas could be used for a 
        number of public or private ventures that do not require direct 
        tourist visibility. <SUP>4</SUP> (emphasis added).
---------------------------------------------------------------------------
    \4\ Cherokee Business District Master Plan, February 2001, pg. 4.1.
---------------------------------------------------------------------------
    The master plan states that the long-term plan includes possible 
acquisition of alternative sites for schools. The master plan states:
        The elementary school occupies one of the most prime parcels of 
        real estate in Cherokee, as does the BIA office next door. The 
        school and the BIA are not the ``highest and best use'' of 
        these prime parcels. Over the long term, the elementary school 
        and BIA sites should become a new, cohesive anchor attraction. 
        . . . These anchors could be an outlet mall, festive retail, or 
        entertainment uses that draw visitors to their locations as 
        destination attractions. The size of these parcels makes it 
        possible to develop them cohesively, which is of primary 
        importance in the development of an anchor destination. 
        <SUP>5</SUP> (emphasis added).
---------------------------------------------------------------------------
    \5\ Cherokee Business District Master Plan, February 2001, pg. 
5.20.
---------------------------------------------------------------------------
    Even the poorly done Education Campus Site Evaluation, with EBCI's 
hand-picked criteria that assured the Ravensford tract would be 
identified, found potential alternative sites for the construction of 
schools. The study included a number of limiting criteria, including:
    Commuting distance for students (maximum 15-mile bus commute for 
all students on the Qualla Boundary). <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Education Campus Site Evaluation, Joel L. Starrow, P.E., Dale 
E. Pennell, P.E., P.L.S., McGill Associates, October, 2002, p. 4.
---------------------------------------------------------------------------
    <bullet> Topography and soils analysis, based on a threshold of 8 
degrees slope and less. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Education Campus Site Evaluation, p. 5.
---------------------------------------------------------------------------
    A map showing low-slope land in and around the Qualla Boundary 
indicates large tracts of land with slope of no more than 8% within a 
ten-mile radius of the Ravensford tract.
    EBCI have identified a need for 73 acres to accommodate a three-
school complex with necessary parking and athletic facilities. The 
Education Campus Site Evaluation identifies 10 potential sites for 
school construction.
    Following the site selection process, each site was evaluated based 
on a more detailed examination under the technical criteria. A lower 
ranking score of ``4'' was provided to sites that, among other factors, 
have ``wetland and/or flood issues adversely impact full use.'' 
<SUP>8</SUP> The study also states that it is important to note that 
many of the tracts are ``located outside reservation boundaries and are 
comprised of individual tracts with multiple owners'' concluding that 
these sites ``will prove difficult, if not impossible, to acquire.'' 
<SUP>9</SUP> The study neglects to point out that the Ravensford tract 
is among those sites outside the reservation boundary.
---------------------------------------------------------------------------
    \8\ Education Campus Site Evaluation, p. 11.
    \9\ Education Campus Site Evaluation, p. 12.
---------------------------------------------------------------------------
    The Ravensford tract is outside the reservation boundary, within 
the Great Smoky Mountains National Park, and as parkland is owned by 
and for the enjoyment of every American, including the Cherokee. The 
tract includes approximately 7 acres of wetland. <SUP>10</SUP> As 
stated earlier in the testimony, the Ravensford tract was flooded 
during the recent severe rains during the week of May 5, 2003. 
<SUP>11</SUP> Nonetheless, the Ravensford tract was determined to be 
the ``best suited to accommodate a consolidated school campus.'' 
<SUP>12</SUP> The study does not conclude that the Ravensford tract is 
the only potential site for school construction. Also, the study 
neglects to consider the current locations of the schools as suitable 
locations for schools.
---------------------------------------------------------------------------
    \10\ Draft Statement of Findings for Wetlands for a Proposed Land 
Exchange between the National Park Service and the Eastern Band of 
Cherokee Indians at the Great Smoky Mountains National Park/Draft Land 
Exchange EIS, pg. 12.
    \11\ Personal communication with GRSM staff.
    \12\ Education Campus Site Evaluation, p. 13.
---------------------------------------------------------------------------
    In a letter from NPS Director Roger Kennedy to Senator Jesse Helms, 
dated June 13, 1994 Mr. Kennedy noted that construction of either a 
golf course or school complex ``would be totally contrary to the 
purpose for which the land was placed within the park, i.e., to 
preserve its scenic, natural and cultural resources.'' The letter 
continues:
        Construction of a school complex along with the attendant 
        parking, athletic field and 2 other facilities would require 
        extensive clearing, grading and construction in an area where 
        native grasses and forests now exist. The resultant disturbance 
        would be totally incompatible with the archeological district 
        and historic appearance now protected by national park status.

        Visually, the proposed school complex would have a dramatic 
        impact on the view from the last two overlooks on the Blue 
        Ridge Parkway which currently provide unimpaired vistas of the 
        pastoral Oconaluftee River valley and the Oconaluftee Pioneer 
        Farmstead which is part of the park's Oconaluftee Visitor 
        Center Complex.

        Finally, the National Park Service is concerned that carving 
        into the park for this project would lead to proposals for 
        development in the park by other entrance communities, all of 
        which are nearing the limits of the developable land. A few 
        years ago, for example, Gatlinburg, Tennessee, requested 
        permission to build flood control facilities inside the park's 
        northern entrance. This request was rejected as well. 
        <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ NPS letter dated June 13, 1994. To Senator Jesse Helms, from 
Director NPS.
---------------------------------------------------------------------------
    NPS published another GRSM Briefing Statement regarding the EBCI 
requests for special park use of land for development on January 20, 
1998. The Briefing Statement includes the NPS official position; ``The 
National Park Service continues to oppose cutting into the Park to 
construct facilities such as the golf course or school complex which 
are not compatible with Park purposes.'' <SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ NPS GRSM Briefing Statement re. Eastern Band of Cherokee 
Requests for Special Park Use of Land for Development, dated January 
20, 1998.
---------------------------------------------------------------------------
    On June 14, 2000 NPS broke with their long-standing policy of 
rejecting EBCI's request for land within GRSM. Robert Stanton, former 
Director of NPS, entered into an agreement with the EBCI, to ``create a 
framework within which the parties may explore the feasibility of a 
land exchange involving the Ravensford tract.'' The agreement includes 
a list of steps to be taken by both NPS and EBCI to determine whether 
it is feasible to exchange the land. One of the NPS action items listed 
in the agreement reads as follows:
          5. Make final determination in good faith, after the 
        completion of the required surveys and studies, to enter into 
        the proposed land exchange or not to enter into the proposed 
        land exchange. <SUP>15</SUP> (emphasis added)
---------------------------------------------------------------------------
    \15\ General Agreement (Agreement No. GA-GRSM-01-FY00) Between 
National Park Service and Eastern Band of Cherokee Indians, June 14, 
2000.
---------------------------------------------------------------------------
    Thus the agreement does not contain a guarantee that the exchange 
would take place.
History of the Ravensford Tract
    The Ravensford tract was part of the land ceded by the Cherokees at 
the Treaty of Tellico in 1798. <SUP>16</SUP> Euro-American settlers had 
begun to enter the area at that time and by the early 1800s the 
Ravensford tract and surrounding area was settled by the Mingus, Enloe 
and Hughes families. <SUP>17</SUP> Descendants of these three families 
continued to control the private holdings in the area into the 1920s. 
<SUP>18</SUP>
---------------------------------------------------------------------------
    \16\ Paul A. Webb, et al., Cultural and Historical Resources 
Investigations of the Ravensford Land Exchange Tract, Great Smoky 
Mountains National Park, Swain County, North Carolina (ARPA Permit GRSM 
99-001, Amendment 1 SEAC Accession No. 1580, June 2002), 37.
    \17\ Webb, Cultural and Historical Resources Investigations, 38.
    \18\ Webb, Cultural and Historical Resources Investigations, 38.
---------------------------------------------------------------------------
        During that period leading up to the creation of the Great 
        Smoky Mountains National Park (GRSM) in 1934, the states of 
        Tennessee and North Carolina bought the land in preparation for 
        turning it over to the Federal government. Timber interests 
        owned and were harvesting the vast majority of the land that 
        became GRSM. Such was the case with the Ravensford tract. The 
        Whitimer-Parsons Pulp & Lumber Company had purchased the land 
        that was to become the lumber town of Ravensford in the early 
        1900s. <SUP>19</SUP> The land in turn was acquired by 
        condemnation from the lumber company by the State of North 
        Carolina in 1933 and subsequently became part of the national 
        park. Following the establishment of GRSM the Federal 
        government began the process of developing the Blue Ridge 
        Parkway, an ambitious vision for a unit of the park system to 
        connect Shenandoah National Park in northern Virginia to the 
        Great Smoky Mountains National Park in North Carolina.
---------------------------------------------------------------------------
    \19\ Margaret Lynn Brown, The Wild East: A Biography of the Great 
Smoky Mountains (University Press of Florida, 2000), 52.
---------------------------------------------------------------------------
The Blue Ridge Parkway Negotiations (1937--1940)
    In 1937 the Cherokee declined an offer by NPS for the Ravensford 
tract as well as the Boundary Tree tract, Tight Run tract and cash in 
exchange for right-of-way across the Qualla Boundary to be used for the 
preferred, westward route for the Blue Ridge Parkway down from Soco 
Gap. The Cherokee's refusal of that offer set into motion a complex set 
of negotiations that eventually led to acceptance of an offer for cash 
and the construction of U.S. Highway 19 in exchange of right-of-way for 
the current eastward route of the Parkway.
    One of the key issues faced by Parkway planners was acquiring 
right-of-way through the Qualla Boundary to GRSM to construct the 
southern terminus of the road. Negotiations began between the Federal 
government, North Carolina and EBCI with the original plan to route the 
Parkway through Soco Gap west along Soco Creek down into the town of 
Cherokee. <SUP>20</SUP> When the Cherokee discovered that NPS wanted a 
one-thousand-foot right-of-way and that the road would be for 
restricted use, the EBCI opposed the project. <SUP>21</SUP> The 
Cherokee were concerned that the wider right-of-way would take valuable 
farmland in the Soco Valley and negatively impact commercial 
possibilities on the main street in Cherokee. <SUP>22</SUP>
---------------------------------------------------------------------------
    \20\ Harley E. Jolley, Blue Ridge Parkway (University of Tennessee 
Press, 1983), 93.
    \21\ Jolley, Blue Ridge Parkway, 93.
    \22\ John R. Finger, Cherokee Americans: The Eastern Band of 
Cherokees in the Twentieth Century (Lincoln: University of Nebraska 
Press, 1991), 78.
---------------------------------------------------------------------------
    Negotiations for the preferred Blue Ridge Parkway route along Soco 
Creek evolved with the Secretary of Interior offering the following 
exchange of park land for EBCI land: the EBCI would receive the 
Ravensford, Boundary Tree, and Tight Run tracts (all within GRSM) plus 
reasonable cash compensation; the NPS would receive the 1,102 acre 
Towstring tract and a right-of-way for the Parkway through the Qualla 
Boundary from Soco Gap west along Soco Creek. <SUP>23</SUP> This 
exchange was explicitly made contingent upon consent of EBCI through a 
secret ballot in a general election within sixty days of the bill's 
passage. <SUP>24</SUP> The bill was approved by Congress on August 19, 
1937.
---------------------------------------------------------------------------
    \23\ 75th Congress, 1st Session, H.R. 5472, pg. 699.
    \24\ 75th Congress, H.R. 5472
---------------------------------------------------------------------------
    This proposal was clearly controversial among the Cherokee as 
reflected in an article from the Sylva Herald dated September 9, 1937. 
The headline read ``Council Vote Reflects Opposition to Soco Route.'' 
According to the article, a general election resulted in an EBCI Tribal 
Council consisting of eight opponents of the exchange plan and four 
proponents of the plan. The Sylva Herald reported on October 14, 1937 
under the headline ``Indians Will Not Vote on Parkway,'' that the new 
council had chosen to adjourn without voting on the Parkway plan. Thus 
the offer of the Ravensford tract was rejected by EBCI in 1937.
    Secretary of the Interior Ickes was thus caught between his 
attempts to procure a suitable route for the Blue Ridge Parkway and his 
obligation to protect the interests of the Cherokee. He composed a 
letter to the EBCI in which he plainly stated that DOI would not coerce 
the Cherokee into providing the right-of-way: ``If you do not want the 
road to be built where the National Park Service desires it to go, it 
will not be built.'' The Cherokee were advised that if they did not 
approve of the current proposals for the Parkway, either a new route 
avoiding the reservation would have to be found or else the road would 
have to terminate at Soco Gap. <SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ Jolley, Blue Ridge Parkway, 97.
---------------------------------------------------------------------------
    The State of North Carolina, working through EBCI Principal Chief 
Jarret Blythe and the Superintendent of the Cherokee Indian Agency, 
abandoned the original proposal to go down Soco Creek. <SUP>26</SUP> 
The new plan called for a completely different route eastward from Soco 
Gap, along the existing ridge-top route of the parkway. Given the 
complex of cuts, fills and tunnels NPS had realized that with this 
route it was going to cost significantly more to build the parkway into 
GRSM. This offer required that the State of North Carolina build a new 
highway through Soco Gap that would leave EBCI tourist business intact 
and allow economic expansion. This offer did not include any exchange 
of parkland. EBCI rejected this proposal. <SUP>27</SUP>
---------------------------------------------------------------------------
    \26\ Jolley, Blue Ridge Parkway, 100.
    \27\ John R. Finger, Cherokee Americans, 93.
---------------------------------------------------------------------------
    Finally, in 1940 Congress passed legislation that would provide NPS 
with a right-of-way across the Qualla Boundary along the existing route 
of the Parkway. That route takes the Parkway from Soco Gap along the 
ridgeline and finally connects with U.S. Highway 441 (Newfound Gap 
Road) within GRSM immediately adjacent to the Ravensford tract. 
<SUP>28</SUP> In exchange the State of North Carolina agreed to build a 
highway from Soco Gap to Cherokee (now U.S. Highway 19), and the 
Cherokee received $40,000 or $30 an acre (whichever amount was greater) 
for the right-of-way and an option to acquire the Boundary Tree tract. 
<SUP>29</SUP> EBCI did acquire the Boundary Tree tract in 1943.
---------------------------------------------------------------------------
    \28\ 76th Congress, 3d Session, H.R. 6668, pg. 299.
    \29\ 76th Congress, H.R. 6668.
---------------------------------------------------------------------------
    Thus the boundaries of the Parkway and GRSM overlap along the 
southern most mile of the Parkway, with the Parkway passing immediately 
southeast of the Ravensford tract and running parallel to Big Cove 
Road. In other words, the Ravensford tract is completely surrounded by 
GRSM and bounded on the southeast side by the Parkway. The Ravensford 
tract is situated with both the Parkway and over one-half mile of GRSM 
land separating it from the Qualla Boundary to the southeast. Removing 
the tract from the park would create a private in holding almost 
completely surrounded by national park land.
    For that reason the route of the Parkway became a significant 
factor in NPS removing the Ravensford tract from the negotiating table. 
With the original proposal, the Parkway would have come down the west 
side of the ridge along Soco Creek, following a path that did not 
overlap with GRSM. Writing in 1940, GRSM Superintendent J.R. Eakin 
discussed, in pertinent part, the original rationale for the land 
exchange in the 1937 offer and how the NPS position had to change with 
the alternative route of the Blue Ridge Parkway:
        I initiated the exchange that was offered to the Indians in 
        1937. The idea was to get a better administrative boundary for 
        the park and to secure a right-of-way for the Parkway down Soco 
        Creek, where construction costs would have been very much less 
        than the location selected. We offered the Indians a value of 
        about four-to-one, predicated upon the Soco Creek location. The 
        Indians did not accept, and we here considered the matter 
        ended. At the time the exchange was offered the site of the 
        Secondary Administration Building [at Oconaluftee] had not been 
        selected''. We are going to have a very fine layout there and I 
        did state to Mr. Zimmerman [Acting

    Commissioner of the Indian Service] that in my opinion it would be 
unwise to complicate the situation by letting the Indians have the 
Ravensford tract. This is still my opinion and is the opinion of our 
entire staff. We believe the Parkway location has changed the whole 
picture.

    Mr. Zimmerman appears to be of the opinion that we are withholding 
something that rightfully belongs to the Indians. The North Carolina 
Parks Commission purchased the lands under discussion for park 
purposes.

    The present Cherokee entrance is not impressive and we proposed to 
exchange the Boundary Tree Tract, the northern boundary of which will 
make a more impressive entrance, unless the present deplorable 
development along the road in the Reservation continues on the Boundary 
Tree Tract if acquired by the Indians.

    In conclusion, I desire to state that I have made no misleading 
statements, but on the contrary, Mr. Zimmerman is badly confused. 
<SUP>30</SUP>
---------------------------------------------------------------------------
    \30\ Memorandum dated August 8, 1940 from Superintendent J. R. 
Eakin to Acting Director NPS Demaray.
---------------------------------------------------------------------------
Recent History (1970--Present)
    Since 1971, leaders of EBCI have periodically approached NPS 
requesting that up to 200 acres of the Ravensford tract be made 
available to the tribe. NPS consistently rejected EBCI's request for a 
land exchange. For many years EBCI requested the land to build an 18-
hole golf course. Writing to Noah Powell, Principal Chief EBCI, in 1972 
GRSM Superintendent Vincent Ellis explained the NPS position. Ellis 
pointed to a set of reasons for the denial including:
    1. LPolicies for the administration of natural areas of the 
National Park System. Moving the developed area into the natural area 
in effect diminishes the attraction, which brings the visitors here. It 
would also reduce the perimeter of the Great Smoky Mountains natural 
and historic area and open the door to further such requests at other 
entrances to the park. These requests usually originate in response to 
needs generated by inadequate land use planning adjacent to the park.
    2. LVisual impact from Blue Ridge Parkway.
    Immediately above the proposed golf course area two scenic 
overlooks have been established on the Blue Ridge Parkway specifically 
to provide the visitor views of the pastoral scene including the open 
meadows, the natural river environment, and the Oconaluftee historic 
farmstead in the background. I do not think that a golf course in this 
location is compatible with the historic and pastoral scene we are 
attempting to maintain in the Ravensford-Oconaluftee area. 
<SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Letter dated February 22, 1972 from Superintendent Vincent 
Ellis to the Honorable Noah Powell, Principal Chief.
---------------------------------------------------------------------------
    The Cherokee continued to request the Ravensford tract for a golf 
course. A memorandum to George Hertzog, Jr., Director NPS, from David 
Thompson, Director SE Regional Office NPS on November 16, 1972 sets out 
his recommendation that NPS not support a land exchange with EBCI. 
Thompson provides a list of reasons for this denial:
        The land within the boundaries of the Great Smoky Mountains 
        National Park have been set aside for all the people to use and 
        still preserve the natural, historical and cultural values. 
        Certain of these Ravensford lands are classed as cultural and 
        historical. Section 106 of the Historic Preservation Act and 
        Executive Order 11593 apply to portions of this land. 
        <SUP>32</SUP>
---------------------------------------------------------------------------
    \32\ Memorandum dated November 16, 1972. To Director, NPS, from 
Director Southeast Region.
---------------------------------------------------------------------------
    In reaction to a subsequent EBCI request for the land, NPS 
requested that the park's historian, Edward Trout, analyze the 
feasibility of conducting a land exchange involving the Ravensford 
tract. A memorandum produced by Trout in 1991 explains his 
determination that NPS cannot conduct the land exchange and includes 
the following:
        It should be noted that the land in question lies within the 
        Oconaluftee Archeological District, which was placed on the 
        National Register of Historic Places on February 19, 1982. It 
        was placed thereon because of the valuable store of Cherokee 
        and pre-Cherokee archeological resources contained within the 
        District. <SUP>33</SUP>
---------------------------------------------------------------------------
    \33\ Memorandum dated March 4, 1991. To Chief Resource Management 
and Science, from Historian, GRSM.
---------------------------------------------------------------------------
    A Great Smoky Mountains National Park Briefing Statement on the 
Ravensford land exchange followed that memo. NPS's stated position is 
``The National Park Service strongly opposes cutting into the Park to 
construct a golf course.'' <SUP>34</SUP>
---------------------------------------------------------------------------
    \34\ GRSM Briefing Statement re. Proposed Transfer of Park Lands to 
Cherokee Indian Reservation, dated March 5, 1991.
---------------------------------------------------------------------------
    EBCI established a Harrah's Casino in Cherokee, NC, in the early 
1990s. It is assumed that with this revenue stream, EBCI shifted its 
priority to improving its school system. In 1994, the tribe requested a 
land transfer for the construction of new schools.
    NPS officials have made it clear that no pre-decision on the land 
exchange has been made. This issue came to the forefront when Yosemite 
Superintendent David Mihalic chose to retire rather than take the 
Superintendent position at GRSM. Mihalic spoke to the press explaining 
that he was getting pressure from NPS officials. Quoted in the 
Asheville Citizen-Times Mihalic stated:
        ``I was told that one of the reasons that (Michael) Tollefson 
        (current Smokies superintendent) was being moved was that he 
        hadn't done it (the land swap), and it was my job to get it 
        done,'' Yosemite Superintendent David Mihalic said Friday. ``My 
        charge in going to the Smokies wasn't to go in there and fight 
        that direction.''

        Mihalic says he also was asked to tackle the controversial 
        North Shore Road--a project the park historically has opposed. 
        He announced this week he would retire Jan. 3 rather than take 
        on the tasks. <SUP>35</SUP>
---------------------------------------------------------------------------
    \35\ Asheville Citizen-Times, Man turns back on park job and its 
controversies, October 5, 2002.
---------------------------------------------------------------------------
    Also quoted in that October 5, 2002 Asheville Citizen-Times article 
was National Park Service Spokesman David Barna.
        National Park Service spokesman David Barna said there has been 
        no ``pre-decision'' on either the North Shore Road or the 
        Ravensford land swap.
    It is our understanding that EBCI have yet to purchase the non-
Federal land that is proposed for the land exchange. According to 
Jackson County, North Carolina records the property is still owned by 
Jay Schenck of Florida. <SUP>36</SUP> According to Jackson County 
records the land value is assessed at $58,400. <SUP>37</SUP> This is in 
sharp contrast to the NPS appraisal value cited by EBCI in a letter to 
the editor of the Washington Post that states ``The land the Park 
Service would receive in exchange, the 218-acre Yellow Face site, was 
appraised at $590,000. <SUP>38</SUP>
---------------------------------------------------------------------------
    \36\ Warranty Deed, Book Number 758, Page 132, Jackson County 
Register of Deeds. Registered June 25, 1990.
    \37\ Real Property Identity Results, Jackson County Maps 
Department, May 19, 2003.
    \38\ The Washington Post, Good for the Cherokee, Good for the Park 
Service, letter to the editor from Principal Chief Leon Jones, October 
21, 2002, pg. A 24.
---------------------------------------------------------------------------
Access Between Big Cove and Qualla Boundary
    Another of the reasons that EBCI have stated for their request for 
the Ravensford tract is to reconnect the community of Big Cove with the 
rest of the Qualla Boundary communities. The mountainous topography in 
western North Carolina provides a limited number of suitable routes for 
roads through the area. By the 1960s the road system in and around the 
Qualla Boundary included the paved Big Cove Road, approximately one 
mile of which runs through GRSM. NPS has worked with EBCI providing the 
tribe with the authority to maintain Big Cove Road and providing right-
of-way through the park for water, sewer, cable TV and electricity 
along the Big Cove Road corridor to service the community of Big Cove. 
EBCI have not articulated any problems with access to Big Cove as a 
result of the stretch of Big Cove Road that passes through the park.
Conclusion
    NPCA stands ready to work with the Resources Committee, the 
National Park Service and EBCI to devise a solution that both protects 
Great Smoky Mountains National Park and the Blue Ridge Parkway and 
provides Cherokee children with the best possible educational 
opportunities. Both of these goals can be satisfied. Unfortunately, the 
legislation before you does not produce such a solution.
    Thank you for the opportunity to testify about this important 
issue. I would be pleased to respond to any questions you may have.
                                 ______
                                 
    The Chairman. Thank you. Thank the panel for their 
testimony. As I am sure you are aware, we have a vote that has 
been called on the House floor. We are going to recess the 
Committee temporarily to allow the members to go over and vote, 
and then we will reconvene as soon as the votes re complete. So 
it will probably be about 25 minutes that we are over there, 
but we will be back as soon as we can.
    I will tell the members that I know a number of you have 
questions for this panel, so if you can hurry back, it would 
help in moving this along.
    The Committee will stand in recess.
    [Recess.]
    The Chairman. I want to thank the panel for their patience.
    Chief Jones, what are the plans that the tribe has for the 
use of this land? We have heard about the building of an 
educational facility on the land. Are there any other plans 
that you have or that you envision for the future on this land?
    Mr. Leon Jones. There is only one other use that we have 
discussed, sir, and that is the corridor for transportation 
back and forth between the Big Cove community, which has been 
cutoff from the reservation by this piece of property. I have 
personally told the parties involved that I would sign any 
document needed to say that this piece of property will be used 
for educational purposes only, sir, no other use except 
transportation through to go to the Big Cove area, sir.
    The Chairman. What if at sometimes in the future there is 
economic activity? I understand that the bill specifically says 
that there could be no gaming, but what if at sometime in the 
future there is some other type of economic development that 
could occur on this land? Would that be a possibility?
    Mr. Leon Jones. No, sir. I have expressed that I would sign 
the document saying that it is to be used for educational 
purposes only, sir. The Cherokee are honorable people. We will 
keep our word, sir.
    The Chairman. I want to ask you about the environmental 
questions that have come up. I don't know if you are familiar 
with it, but there is a group called the Sierra Club that has 
come out in opposition to this. They sent out a letter talking 
about this. Does your tribe have a history of environmental 
degradation? Do you have a long history of destroying the 
environment around you?
    Mr. Leon Jones. Sir, we have a Cultural and Heritage 
Department. The employees of this department, some of them have 
doctor degrees, others have master's degrees. Their specialty 
is preserving the lands and the archaeological sites, not only 
on the reservation. They have been called, when they were going 
to expand the Marine Corps base in South Carolina, that far 
away, up into Kentucky, for their advice and their counsel on 
how to preserve cultural and archaeological sites. No, sir. To 
answer your question, the answer is no, we do not have a 
history of doing destruction to the land, but only preserving 
the land, sir.
    The Chairman. On the culturally significant sites, the 
archaeological sites, it is my understanding from your answer 
that you don't have a long history of destroying those sites 
either?
    Mr. Leon Jones. That is correct, sir.
    The Chairman. That is interesting.
    Mr. Blankenship, can you tell the Committee what current 
educational opportunities exist for students on the reservation 
or nearly the reservation?
    Mr. Blankenship. There is a public school system in the 
county schools, which some of our students are forced to attend 
because of the overcrowding and conditions at Cherokee Central 
Schools, but as far as education goes, Cherokee schools strive 
for excellence in their school system. We have a number of 
students with us today who are going off to college to pursue 
their own academic careers, so the support is there, but the 
facilities that we have now are not conducive to learning and 
conducive to supporting these students at the facility.
    And also if I may, I would like to make a comment on the 
land. We, as Cherokee people, have lived off that land for 
thousands of years, and to say that we go and destroy that land 
is far from the truth.
    The Chairman. Well, let me ask you then. Do you have any 
attachment to the land? Do you care about it at all? do you 
have any history in the area? Have your people been there for a 
number of years and tried to protect this land?
    Mr. Blankenship. My people have been there for thousands of 
years and because of our commitment to the United States we 
were willing to give up that land for the Blue Ridge Parkway to 
come through, because of our commitment to the United States 
and being United States citizens. I mean we haven't even been 
citizens of the United States for a number of years now. To say 
that we would go and destroy something that is sacred to us, 
something that we have lived off of for thousands of years, 
goes against everything that Native American Indians and 
Cherokee people stand for.
    The Chairman. Does that include the riparian areas along 
the river, any sites that may be environmentally sensitive?
    Mr. Blankenship. There are currently 14 archaeological 
sites on the Ravensford tract, 12 of which will not be touched 
at all. The two that will be disturbed are Cherokee sites and 
you can be assured that we will take every precaution necessary 
to observe those remains because those are our people.
    The Chairman. So the two sites that would be disturbed are 
historically Cherokee sites?
    Mr. Blankenship. Yes, sir.
    The Chairman. And I would assume from your answer that you 
do have some interest in preserving and protecting those areas?
    Mr. Blankenship. Absolutely. I mean, this serves not only 
for our tribe as a whole, but also allows our students to be 
involved in our history and participating in things like 
archaeological digs and things of that nature. The tribe has 
committed itself to spending the money and taking the time to 
preserve these sites and ensure that none of these remains are 
lost.
    The Chairman. So it would be part of the educational 
opportunities?
    Mr. Blankenship. Absolutely.
    The Chairman. Thank you very much.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. First I would like to 
ask unanimous consent to submit a document replying to the 
National Park Conservation Association's testimony from the 
Eastern Band of Cherokee Nation.
    The Chairman. Excuse me. Who is it from?
    Mr. Kildee. It is from the Eastern Band Cherokee.
    The Chairman. Without objection, it will be included.
    [The information referred to follows:]

                    The Truth about NPCA's Testimony
                   from the eastern band of cherokee

                             JUNE 18, 2003

    NPCA makes false claims in its testimony.
    Let's examine the facts:
    NPCA Myth: If the proposed schools are built, among other things, 
``school busses would have to navigate the principal North Carolina 
entrance to our nation's most visited national park.''
        FACT: Our education center would be built across the river on a 
        road that is physically separated from the main entrance to the 
        Park. There would be no busses navigating that entrance, nor 
        any impact on the views from the Park entrance.
    NPCA Myth: There are large parcels of land suitable for school 
facilities on the Cherokee Reservation.
        FACT: It takes more than 70 open acres of land to adequately 
        site the school complex we need. NPCA has identified no such 
        parcel available in or near Cherokee. The sites discussed in 
        the Tribe's Business District Master Plan are not large enough 
        to build the school complex, or even a single school. The one 
        large parcel we have located to the south of the Reservation is 
        not available for us to purchase, despite repeated contacts 
        with the many owners of that land.
    NPCA Myth: ``The [Ravensford] tract includes approximately 7 acres 
of wetland.''
        FACT: We have worked carefully with NPS to exclude all 7 acres 
        of wetland, along with a buffer, from the exchange site. That 
        wetland will remain in NPS ownership and protection. We have 
        offered to help NPS restore this long neglected and disturbed 
        wetland. The Yellow Face Tract also has approximately 7 acres 
        of high elevation wetland seeps that will be preserved under 
        NPS protection upon approval of the land exchange.
    NPCA Myth: ``The Ravensford tract was flooded during the recent 
severe rains during the week of May 5, 2003.''
        FACT: We did have a flood on the Oconaluftee River during the 
        week of May 5, 2003 but flood waters did not even reach the 
        Ravensford fields, much less the proposed school building site, 
        which is located above the 100-year flood plain.
    NPCA Myth: The Education Campus Site Evaluation was ``poorly done'' 
based on ``hand-picked'' criteria.
        FACT: The site evaluation was done by independent professional 
        engineers based on objective criteria.
    NPCA Myth: The Park Service has, until recently, opposed the 
Ravensford land exchange.
        FACT: In 1940, the Senate Committee on Indian Affairs sent a 
        representative to negotiate with the Tribe, and he reached an 
        agreement, including exchange of the Ravensford tract, that was 
        satisfactory to the Tribe and the National Park Service, among 
        other parties. Sen. Report No. 1491, p. 2 (1940). Without 
        notice to the Tribe, that agreement was changed on the floor of 
        the Senate.
    NPCA Myth: NPCA implies that the Eastern Band has a hidden agenda, 
based on past efforts to acquire the property.
        FACT: The Tribe has negotiated in good faith to restrict the 
        development of the Ravensford tract to educational purposes, in 
        a manner that will protect the environment. As noted in the 
        Administration's testimony, those carefully negotiated 
        restrictions are included in H.R. 1409.
    NPCA Myth: The Yellow Face Tract is owned by a resident of Florida.
        FACT: For almost two years, the Eastern Band has had an option 
        to purchase the Yellow Face Tract from its former owner, hoping 
        to complete the study process before having to exercise that 
        option. The option was due to expire this Spring, so the Tribe 
        exercised the option, and closed on the purchase.
    NPCA Myth: The Yellow Face Tract is worth less than the Eastern 
Band claims.
        FACT: An appraiser selected from a list provided by the 
        National Park Service has appraised the Yellow Face Tract at 
        $590,000, using applicable Federal appraisal standards. He 
        considered a number of relevant factors, including recent sales 
        of similar tracts near the Parkway, and did not rely on the 
        county tax value cited simplistically by NPCA. Using those same 
        appraisal standards, the Ravensford tract has a significantly 
        lower fair market value.
    NPCA Myth: The Tribe does not need to reunify its boundary; it has 
access to the Big Cove Community.
        FACT: Access is not the only issue at stake in jurisdictional 
        integrity. For purposes of maintaining a Tribal community, it 
        is important for the Eastern Band to reestablish the connection 
        to Big Cove that was taken when it was severed by the Blue 
        Ridge Parkway. For the same fundamental reason, the Eastern 
        Band needs to build an education center in the heart of its 
        territory on the Ravensford tract.
    NPCA Myth: H.R. 1409 will ``short circuit'' the Environmental 
Impact Statement process.
        FACT: The Draft EIS has been published and it finds no 
        impairment of NPS resources from the land exchange. The Eastern 
        Band has made a commitment with NPS to complete the EIS 
        process, has spent $1.5 million to date on the process, and 
        will honor its commitment.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Chairman.
    Chief Jones, in your testimony you reference a situation 
about 60 years ago where the tribe tried to acquire this land 
but Congress changed the legislation at the last minute. What 
exactly happened there? You had been told that that land would 
be yours?
    Mr. Leon Jones. At the time the Blue Ridge Parkway was 
going to be built through our reservation. The tribe and U.S. 
Government made an agreement, after much time and haggling. 
There was a right-of-way planned and given. Along with that 
right-of-way, the Cherokee were to be given the right to 
purchase Ravensford. It was in the bill when it came to 
Washington. When the bill came to be heard, a Senator, I 
believe it was, from Oklahoma, asked that that part, 
Ravensford, be deleted from the bill. So the legislation 
passed. The Blue Ridge Parkway was built. We were allowed to 
buy the Boundary Tree tract, which was the other part that we 
were going to be able to have, but they took the Ravensford 
Tract out of the legislation. That was the second time it was 
taken from us.
    The first time was many years before, 1938, at the time of 
the Trail of Tears. This property has belonged to us for many, 
many years, sir.
    Mr. Kildee. You mentioned 1938. I make it part of my job to 
read treaties. I remember several years ago reading the Treaty 
of Detroit, how they treated the Michigan Indians and how very 
often they made the Indians follow the treaty but the U.S. 
Government did not always follow the treaty.
    You have been really more than patient in this whole 
situation. I think you have been long suffering on this. Can 
you go into more detail as to how you plan to mitigate 
environmental concerns on that land?
    Mr. Leon Jones. The tribe has already spent $1.5 million on 
mitigation of these sites, on exploring them. We have also 
committed to another $3 million to expand on the sites that 
remain and the ones that will be disturbed. So our commitment 
is firm. Our commitment will be honored and all of the sites on 
this property will be taken care of in the manner and the 
dignity that they should be treated, sir.
    Mr. Kildee. Mr. Blankenship, if you were a Michigan Indian, 
belonged to a Michigan tribe, under a bill which I introduced 
probably 37 years ago in Michigan, which is still a law in 
Michigan, the Ottawa, the Chippewa, the Potawatomi can go to a 
public college in Michigan and the State pays the tuition. So 
maybe you can get that done in your State some day down there.
    Mr. Blankenship. Absolutely. I mean our tribe does an 
excellent job at getting us the funding to go to school, but.
    Mr. Kildee. Let me ask you, Mr. Blankenship, you seem to 
feel that it will be helpful to have all the schools situated 
on the same educational campus. Could you tell us why you think 
that might be helpful?
    Mr. Blankenship. Well, in all ties and aspects of our 
Cherokee culture and multigenerational and familial society and 
ways of the Cherokee people, so it is more or less a way for us 
to protect our identity by protecting our language and our 
culture by keeping it all in one area. Language is key to this 
culture, so we bring in native language speakers, like I 
mentioned in my testimony, where they are able to travel from 
students in one school to the next. We also have a situation 
set up where older students will be able to assist in the 
education of younger ones.
    Mr. Kildee. I always carry with me the Constitution of the 
United States, and Article I, Section 8 says, ``Congress shall 
have the power to regulate commerce with foreign nations, and 
among the several States, and with the Indian tribes.'' That 
lists the three sovereignties right there in the Constitution, 
which is very, very important.
    I think two of the great anchors for sovereignty, one is 
land, that is a great anchor for your sovereignty. The other is 
language. Many of the tribes in my State have lost their 
language. Some are trying to recreate it, but I think you are 
on the right track, and you should get involved in Government 
some day yourself.
    Mr. Blankenship. Thank you.
    Mr. Kildee. Thank you, Mr. Chairman.
    The Chairman. Mr. Jones?
    Mr. Jones of North Carolina. Mr. Chairman, Thank you very 
much.
    Chief, let me ask you a question. The land that you propose 
swapping or exchanging with the Federal Government, you own 
that land, the Cherokees own that land; is that correct?
    Mr. Leon Jones. The Cherokee recently bought that land 
because the option we had on it was about to run out, and we 
thought it was so important that we keep this land available to 
make this exchange, that we went ahead and bought it, sir.
    Mr. Jones of North Carolina. Mr. Barger was saying that 
there are other sites that possibly the school could be built 
on. Do you know if there are other sites that could even be 
considered that would be satisfactory?
    Mr. Leon Jones. There was a study done by an independent 
organization, sir, to see if there were other sites available. 
They came up with two sites that would be likely candidates for 
schools like we want to build. One of them was off the 
reservation, very close to the reservation. We inquired of the 
owners, and there were multiple owners. They were not 
interested in selling, sir, so that was not an option. The 
other property they said was suitable was the Ravensford 
property, sir. Those were the only two sites available. 
Anything else would have been miles away and too far to 
transport our children.
    Mr. Jones of North Carolina. Let me ask you, how long have 
the Cherokee Indians been trying to get the Federal Government 
to work with them so that this new school could be built?
    Mr. Leon Jones. I can only speak for myself, sir. I have 
been in office 4 years. I came up in the first 6 months of my 
administration, and have been working very diligently since 
that time.
    Mr. Jones of North Carolina. Let me ask you one other 
question. I want to pick up on what Ms. Christensen was asking 
earlier with the first panel. Once you get the go ahead how 
long would it take to construct the school?
    Mr. Leon Jones. If we were to get the go ahead in the very 
near future, we could probably build an elementary school in 
the next 3 years or so, and then it would take a little longer 
to build the middle school and high school, sir.
    Mr. Jones of North Carolina. Mr. Chairman, I do want to say 
to Mr. Blankenship, as you go to NC State, home of the 
Wolfpack, I wish you well. I know you will do extremely well in 
the classroom.
    And thank you, all three, for being here today. Thank you.
    Mr. Blankenship. Thank you.
    The Chairman. Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman.
    I just wanted to say to the Chairman of Eastern Band that I 
am a cosponsor of the bill and I support the bill and am 
prepared to vote for the bill when the Committee considers it, 
but I wanted to mention a couple of things and then ask two 
brief questions.
    One is, my feeling very strongly is that you have a bit of 
a crisis here in the sense that you have overcrowding, you have 
an old and dilapidated school. You need to move quickly to get 
this done, and I feel very strongly that we should do whatever 
we can to move the process forward for those reasons, not to 
mention what Mr. Kildee said about the issue of sovereignty. I 
feel kind of strange even sitting here and sort of presiding 
over the issue about whether or not you should be able to build 
the school on traditional Cherokee lands. I know that we are 
authorized to rule on that as Members of Congress, but it seems 
to me that every should be made to give the benefit of the 
doubt to you and what you feel is best.
    Two questions I have, and one of them, Mr. Barger, talked 
about alternative sites, but my understanding is that none of 
the alternative sites that have been identified are really 
suitable in terms of the amount of land, and so there really 
isn't an alternative at this point. Would you just comment on 
that briefly?
    Mr. Leon Jones. Yes, sir. The present elementary school is 
on a 9-acre site. To be an accredited school the Southern 
Association of Schools and Colleges requires that elementary 
schools the size that we need, has to be on 15 acres of more, 
sir. So even if we were to level the school that we have, we 
could not build new schools on it and be accredited because it 
is only a 9-acre site, sir, and besides it being in a very 
dangerous place, downtown Cherokee with much traffic going by 
it.
    So it would take a piece of property the size of Ravensford 
to meet the criteria of the Southern Schools and Colleges, so 
like is aid a few minutes ago, the only other sites available 
are off the reservation, and we would have been willing to 
purchase them had they been available. The one site that was 
close enough and suitable was not for sale, sir.
    Mr. Pallone. Then the second question, again briefly I will 
ask it, I understand that, again, Mr. Barger was making the 
point that this process should proceed administratively and 
suggests that there is no need for a bill. I assume the reason 
why you want this bill passed is because of the need to act 
quickly, that if you don't pass the bill it is going to take 
too long, and the problems that you have with overcrowding and 
bad conditions will just continue. But if you would just 
address that, the reason we need the bill versus just moving 
administratively.
    Mr. Leon Jones. You are exactly right, sir. The 
administrative way is an option and might be successful in the 
long run and it is a long arduous process. After that, sir, if 
it were, then the people who oppose this land exchange could 
take it to court then and tie it up for many more years, so 
we're talking at a minimum 10 to 12 years to get through the 
objections. My children don't deserve that, sir. The people who 
are opposing us, I am sure that most of them may not be 
wealthy, but affluent, they send their children to the finest 
schools available to them, to their children, the best that 
they can afford. That is what I am asking for my children, sir, 
the best that we can afford. Why they oppose my children going 
to the best schools they can afford, I do not understand, sir.
    Mr. Pallone. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I would like to welcome the Chief and Mr. Blankenship for 
being here, as well as Mr. Barger from the NPCA.
    Chief, I would like to ask you the first question just to 
follow up on the issue of alternative schools. Could you 
address the issue that has been raised in other testimony that 
maybe there were some areas identified in the Cherokee business 
development plan that might have been available for schools? 
Could you address that, the alternatives?
    Mr. Leon Jones. Yes, ma'am. As I just stated, it takes many 
acres to build schools. It takes very small acreage to do 
business, ma'am. If you build a restaurant you may only need 
one acre or an acre and a half. If you want to build a motel, 
you might only need an acre, an acre and a half or two acres. 
Yes, there are such available for business, and I agree 
wholeheartedly, but I do not agree that there are sites that 
are suitable for schools. The size is the limitation.
    Mrs. Christensen. The size, thank you. And as you have 
planned and done some studies around the possibility of putting 
a school there, do you believe that you can build a structure 
that would not be extremely intrusive on the park, that would 
blend in and maybe even enhance the park in some way?
    Mr. Leon Jones. Yes, ma'am. There is a long arduous plan, 
and I have parts of it here. I will not take the time of this 
Committee. But it talks about buildings being very low 
structures, being of toned-down colors to match the area, to 
the roofs not being of the metal type where they reflect light, 
being of the asphalt type where they will not be seen.
    Also the parts of this piece of property that are visible 
from the Blue Ridge Parkway--this chart, ma'am, the use of the 
Blue Ridge Parkway here, the trees and the terrain will not 
allow the schools to be seen from this portion. The other site, 
this is visible, this part is visible from Blue Ridge Parkway, 
and we have agreed not to build anything on that part where it 
can be seen. So these buildings will be of low tone, low 
buildings. There are only about 8 football games played a year, 
and someone has mentioned the light from them. The Blue Ridge 
Parkway closes for part of that time. The winters come on, 
snows are on them, so the lights have been toned down and only 
will be used about 8 times a year to where they might be seen 
from the Parkway. And most of those are during the wintertime 
when the Parkway is closed.
    Mrs. Christensen. Mr. Barger, one of the concerns--and you 
have said that the exchange is controversial. One of the 
concerns that brings us to the point of doing legislation 
around this is the concern that the NPCA and other groups might 
sue once the report is out. Is that a mistaken belief or is 
that a real possibility?
    Mr. Barger. Our position is that the exchange bill is 
premature because we want to have the administrative process, 
that is, the examination of the facts and the environmental 
impact statement move forward. We in fact agree with Assistant 
Director Jones, who spoke earlier, that probably if something 
is to be effectuated, legislation is the best way to do it in 
the long run, and that would eliminate in fact any lawsuits.
    Mrs. Christensen. I don't think I have any further 
questions, Mr. Chairman.
    The Chairman. Mr. Inslee.
    Mr. Inslee. Chief Jones, I first got involved in politics 
trying to build a high school on kind of a rocky, slopey area, 
so I'm real sensitive to your desires to try to get a new 
school built, but it sounds like one of the important issues 
here is what alternatives may exist, and so I want to ask you 
about that. Would the tribe have a realistic alternative of 
building three separate schools as it has now? Do you have that 
alternative available to you, do you think? But realizing that 
is not your desire. I understand that.
    Mr. Leon Jones. You have to have pretty good size pieces of 
land even to build an individual school. The sites of both of 
our schools--the middle school and the high school are 
combined--are not large enough. There are not sites--have you 
ever visited on our property, sir, may I ask you?
    Mr. Inslee. I haven't. I am sorry about that. I want to 
come.
    Mr. Leon Jones. We live in very small valleys in very 
steep--most of our land stands on its side, and that is not 
conducive to building schools. One of the reasons we live in 
that is because back in the days that we acquired this land, no 
one else wanted it. It was too steep for any use, so 
consequently we were in very narrow valleys, and in those very 
narrow valleys our people live. Our businesses are built there 
and they are crowded. To acquire land large enough to build 
schools would be very difficult, sir, it not impossible.
    Mr. Inslee. Was that option evaluated? You referred to this 
study of an outside organization? Was that option evaluated?
    Mr. Leon Jones. I believe it was, sir. I won't give you a 
definite yes because I might not be telling the truth.
    Mr. Inslee. I think it would be helpful, at least to me, if 
you could share that study. We could look at it.
    Mr. Leon Jones. Yes, sir.
    Mr. Inslee. And then we might also ask Mr. Blankenship's 
organization to comment on that, specifically just to look at 
what alternatives exist, and I will tell you, to me this really 
is a difficult issue because we have two loves here, one for 
your children and two, our parks. And at least I am very 
cognizant of the dangers of a death by a thousand cuts to our 
park system because there are many sort of gateway communities 
that are growing up around our parks now because of the 
tremendous desire to go to the parks. And I can just see this 
coming from other communities as well who live in similar 
geographically constrained areas as yours. So I think this is a 
really important issue. And if you could perhaps provide us 
with that alternative study. Then we can ask Mr. Blankenship's 
group to comment on that. I would appreciate that.
    Mr. Blankenship, do you have any comments about--Mr. 
Barger, I am sorry.
    Mr. Barger. Yes. We would be happy to give you an analysis 
and comment on the alternatives analysis. We do believe that it 
was very, very limited in scope. It did not look at, and in 
fact, the entire process that the National Park Service 
initiated limited its ability to look at what are the best 
options for making sure that the Cherokee schools are the best 
they can be. Their options were wrapped around assuming that we 
do the exchange. We have a no-action alternative, don't so it, 
and then we have two proposals for doing it in two different 
ways. So the analysis that the Park Service did sprang out of 
there. The alternative site study that was done by the 
consulting firm that Chief Jones mentioned was very limited in 
scope, and we would be happy to give you the information that 
we have on it.
    Mr. Inslee. Thank you. Thank you very much.
    The Chairman. Mr. Udall?
    Mr. Tom Udall. I would just thank the panel members. I 
don't have any questions, Mr. Chairman.
    The Chairman. Mr. Baca?
    Mr. Baca. Thank you very much, Mr. Chairman. I am one of 
the cosponsors of the legislation. I think it is good 
legislation, and I appreciate the tribal chair's comment in 
terms of leaving no child behind. I think it is important that 
we create an atmosphere that is positive for a lot of the 
students. When you look at schools that are dilapidated, that 
puts kids in a very negative environment, and I think we have 
to put our kids in a positive environment where the schools are 
modernized. When we can deal with technology, we can deal with 
modernization. We can deal with conduit and others that need to 
be. If the children want to be competitive in the 21st century, 
it is important that our reservations have the same kind of 
schools that are being built outside of that area, and I think 
it is important that every one of children go into a position 
attitude, and positive attitudes are created when you have good 
schools and they feel good about that environment, and I think 
that is positive in building it, and I commend you in terms of 
that effort. I think having the three sites in that area is 
positive when you look at elementary, intermediate and then 
your high school too as well. I think it is positive in that 
area and I support this concept, especially as well look at 
self sufficiency in terms of Native Americans that have worked 
so hard to do this. And you have invested already $1.5 million 
in terms of the study that has already been conducted.
    When I look at alternatives sites and I look at the delay, 
now it will take 3 years. We are talking about 3 years to build 
the first elementary school. If another site was selected, what 
would be the time length of that, and has any money been 
invested at this point and who would invest that money then? 
Mr. Barger, my question is to you because you are the one that 
came up with the alternative site. There is already a site. 
There is already money that has been invested. Are you going to 
put up the money? Who is going to put up the additional money?
    Mr. Barger. The money that has been invested is a result of 
an agreement between the National Park Service and the Eastern 
Bank of Cherokee that they both entered into, what, 2 years 
ago, about 2 years ago, to do the investigation of the 
Ravensford site. So that money is essentially part of that 
agreement and not part of necessarily the search for a piece of 
land. This exchange would in fact, as I think has properly been 
characterized, would exchange one piece of land for another, 
and that would be the value that the Eastern Band would be 
essentially putting forth for the Ravensford site.
    If they were to choose an alternative site, they would be 
expected to put the money forth for that one instead.
    Mr. Baca. They would be, right?
    Mr. Barger. Certainly.
    Mr. Baca. They would. Not you or anyone else, so there is 
already money that has already been invested in this particular 
one site right now with an agreement. So it seems like all of a 
sudden we are talking about alternative sites that somebody 
else has to pay when yet money has been invested, and money is 
hard to come by, and yet we are saying because now Native 
Americans are self sufficient. They have gaming. All of a 
sudden we are saying, well, gee, they should be able to provide 
additional monies for additional sites. I don't know where the 
other sites are at. I don't know who is going to pick up the 
cost out there. We already know that money has already been 
invested.
    It seems that is the area that we should go in right now 
since the research has been done, the money has been invested. 
It is a positive site, and there is an agreement right now in 
terms of this particular site in exchange. I find it very 
difficult.
    Then your comments about let the administrative process, 
well, the administrative process, we don't know how long it is 
going to even take, when another school will be built, or is 
that another delay tactic of not allowing them to build a site 
right now? To me that is prolonging it, which means then a 
child then loses. And every child that grows in age loses from 
the time that that child is in an educational environment, and 
we should make sure that that child has that opportunity, 
because every year I keep getting older, and the same thing 
with a child. A child gets older every year, and every year 
that child loses an opportunity to be in a positive environment 
with self esteem, self motivation, and aspirations to be what 
he or she wants to be. We have got to create that kind of an 
atmosphere, not create the negative one.
    So it is difficult to say, we are overcrowded. Now, they 
have 800 and some students going to a school that only has 
capacity for 450 I believe.
    Mr. Leon Jones. 480, I believe.
    Mr. Baca. Somewhere in that neighborhood. But it seems like 
we should try to expedite this process and move the 
legislation. Legislation is the way to do it. Other than that, 
it is just another delay tactic, and we wait forever, and a 
child then is out of school, and before we know it, they are 
not competitive for the 21st century.
    Mr. Barger. I completely agree with the need to try to move 
forward and with what happens to generations of people. I think 
that the manner in which the United States of America has dealt 
with at least these schools--they are the only one with which I 
am familiar--is shameful. There is money to fix and renovate 
those schools that has not been spent for some time--
    Mr. Baca. But it becomes difficult because you cannot even 
lay the conduit in a lot of these schools right now. I have 
dealt with a lot of the school. Yet, when you can't put the 
conduit that means that you can't have technology, which means 
then that they can't be as competitive, which means they have 
to have it at home or somewhere else, and you are not creating 
that kind of an atmosphere where a lot of them can't afford 
that.
    Mr. Barger. Yes, sir, I completely understand. Our point in 
wanting to have the administrative process move forward is that 
2 years has been spent developing a very detailed environmental 
impact statement which contains a number of studies, and I am 
told, although I have not had a chance to see it yet, it is 
about an inch and a half thick. The delay has already happened. 
We have basically got the studies that are out there. The only 
time that is necessary in order to allow that process to play 
out, is just review those documents, receive public comment on 
those, and finalize the documents. So I think that it would be 
a mistake not to examine that information before we took the 
action, and that is the basis for our position.
    Mr. Baca. Let us go forward with the project.
    The Chairman. The gentleman's time has expired.
    I just had a couple of more questions, and then I will 
excuse the panel.
    Chief Jones, it was brought up in Mr. Barger's testimony, a 
question about the appraisal, and I believe that--and correct 
me if I am wrong--I believe that he said that the property that 
you were trying to get for the school was worth 6 million and 
what you purchased to trade was worth 58,000. I believe that is 
what he said. That is contrary to information that the 
Committee has received. Can you clear that up?
    Mr. Leon Jones. Yes, sir. In the first place, I am a real 
estate appraiser, sir. I let my license die, but I was a real 
estate appraiser before. We have certain standards that we had 
to meet, Federal standards. We went to school and met those 
standards, and one of those standards was honesty and 
integrity. The appraisals were done. They were done by a person 
in the last several years. He did it the way that we were 
taught in school. He got comparables that were sold in the area 
to show what it was worth on both properties. I resent the fact 
that an appraiser's integrity has been questioned. If those 
appraisals in the past were made--and I am sure they were, he 
would not have said not--maybe that was before we had the 
Federal regulation of appraisers.
    Today's market is not the same as yesterday's market. The 
appraisal was made recently, not in the past.
    The Chairman. It is your testimony then that the appraisals 
on the two pieces of property are equal or close to each other?
    Mr. Leon Jones. The Ravensford property was appraised at 
less value than the Yellow-Face property is, sir, and it is a 
larger piece of property.
    The Chairman. So it was less value?
    Mr. Leon Jones. The Ravensford is less than the piece we 
were proposing to give to the park.
    The Chairman. Can you tell me, and you may have told me 
this before and I forgot, but how old are those appraisals that 
were done?
    Mr. Leon Jones. They were updated within the last year, 
sir.
    The Chairman. So they are current.
    Mr. Leon Jones. Current by a competent appraiser.
    The Chairman. Mr. Barger, I understand from your testimony, 
from reviewing you testimony, that your opposition to this is 
taking the land out of the park, and without going through the 
process, the EIRs and all of that. Is that accurate? Is that 
the basis for the opposition?
    Mr. Barger. I would say that it would probably be more 
accurately characterized that we are opposed to the development 
of the site.
    The Chairman. No matter what?
    Mr. Barger. Yes, sir. It is the proposed development that 
we have before us and the impacts that we believe that would 
have on the national park, not just the site itself but on the 
surrounding national park, that lead us to oppose the bill that 
we have in front of us.
    The Chairman. So regardless of how the EIR or EIS, doctors 
checkup, no matter how they all come out, you are going to 
oppose it anyway.
    Mr. Barger. Not necessarily.
    The Chairman. Well, wait a minute. You just said that you 
opposed the development of the site.
    Mr. Barger. Right, and the reason is because we do 
believe--and this is from--I have also personally driven 
through the Qualla Boundary and the areas around and looked at 
the alternative sites. We do believe that there are in fact 
some alternatives that could and should be looked at thoroughly 
as part of the EIS examination process. I will tell you that if 
as a result of that process we became convinced that the 
Ravensford site is the only way to property provide for the 
schools that the Cherokee need, we would revisit our position 
immediately.
    The Chairman. Is it your position or the group that you 
represent's position to oppose this Committee taking 
legislative action?
    Mr. Barger. It is our suggestion that the bill before you 
now is premature. We do believe that if a land exchange of some 
type is the appropriate action, is determined to be the 
appropriate action, that legislative action would be the 
appropriate way to go.
    The Chairman. I am just trying to follow along with your 
position or your thinking on this, because it has been my 
experience that both in dealing with the Park Service and in 
dealing with the BIA, that we are not talking about months or a 
couple of years in order to get something done. It is multiple 
years that it takes.
    Mr. Barger. Yes, sir, and those years are behind us. We 
have, apparently, as I say, I haven't had a chance to see it 
yet, but we have the draft environmental impact statement 
supposedly being published. The Federal Register notice is 
supposed to go in the day after tomorrow I was informed.
    The Chairman. But that doesn't end the process.
    Mr. Barger. It does not end the process.
    The Chairman. We go through the comment period and the 
threatened lawsuits and--I mean you are looking at years before 
this thing gets done, and the Chief is concerned about his kids 
and his grandkids. I am more concerned about Mr. Blankenship's 
grandkids going to school.
    Mr. Barger. I think that concern is well placed. However, 
in this process we are close to the end of this process, and as 
I said, if in fact a--
    The Chairman. We are not anywhere near the end of this 
process. You know that.
    Mr. Barger. The process under NEPA, after a draft 
environmental impact statement is published, is to take public 
comment and then publish the final environmental impact 
statement and record of decision.
    What we would be looking at is the examination of the 
information that we get to do during the draft environmental 
impact statement. Then at that point this Committee and 
Congress can make a decision based on the information that is 
there, and that is literally all we are asking for.
    The Chairman. I thank you for your testimony. I thank the 
panel for their testimony, and I again apologize for the delay, 
and I appreciate your patience in sticking with us. Thank you 
all very much.
    I am going to excuse this panel. I will remind you that 
there will be written questions that several members had that 
will be submitted to you, and if you could answer those in a 
timely manner so that they can be included in the Committee 
record, I would appreciate it.
    Thank you.
    The Chairman. I would like to call up our third panel to 
testify on H.R. 884, Mr. Felix Ike, Ms. Laura Piffero, and Mr. 
Raymond Yowell.
    If I could have you stand and I will administer the oath, 
and then we can start.
    [Witnesses sworn.]
    The Chairman. To begin with, I want to thank this panel for 
your patience. I know this has been a long time and you have 
all been patiently waiting for your opportunity to testify, so 
I want to thank you for doing that. We are going to begin with 
Chairman Ike. In front of you we have the lights. The green 
light is a go, the yellow light is to sum up, and the red light 
is to stop. If you would try to keep your oral testimony to the 
5 minutes, your entire written testimony or other material that 
you would like to submit to the Committee will be included in 
the Committee record, but if you would try to maintain your 
oral testimony to the 5 minutes.
    Chairman Ike, we will begin with you.

  STATEMENT OF FELIX IKE, CHAIRMAN, TE-MOAK TRIBE OF WESTERN 
                   SHOSHONE INDIANS OF NEVADA

    Mr. Ike. First of all, I want to thank the Committee for 
inviting me to do the testimony. This is an honor to come 
before the Resources Committee on a matter of great importance 
to the Western Shoshone people.
    I am Felix Ike, Chairman of the Te-Moak Tribe of Western 
Shoshone Indians of Nevada. Te-Moak represents the four Te-Moak 
communities of Elko, Battle Mountain, South Fork and Wells. Our 
tribal council represents over 2,500 enrolled members which is 
more than 65 percent of the nearly 3,700 identified people who 
are one-quarter or more Western Shoshone blood. Te-Moak is four 
bands, and under Federally recognized tribes at Fallon, 
Duckwater, Ely, Yomba, Duckvalley. All have legitimately 
elected and recognized councils. The people overwhelmingly 
voted in favor of the distribution of the trust funds.
    Te-Moak was the named claimant before the Indian Claims 
Commission. Thus this will be different than what the Western 
Shoshone National Council will say before this Committee. The 
Western Shoshone Indians of Nevada want the Committee to know 
that group has no legitimate authority to speak on behalf of 
Western Shoshone Indians except for a few individuals involved 
in that organization. They have no formal existence as a 
Shoshone Government within the recognized Western Shoshone 
communities. Nor are they recognized by the Federal Government 
as an American Indian tribe.
    The Western Shoshones once occupied a large area of the 
western part of the United States including parts of Nevada, 
Idaho, California and Utah. Our traditional way of life was 
closely connected with nature. Our land was abundant in 
resources including springs, streams and rivers, snow-covered 
mountains and valleys. Even the desert areas were full of plant 
and animal life.
    When the non-Indians came into our land, they depleted our 
natural resources, destroyed our way of life, and forced us to 
adopt their ways. Of the vast territory that was once our 
homeland, only a few small colonies, branches and reservations 
have been set aside for us. In the interest of our future 
generations we need to expand our land base to support our 
tribal population and provide a base for which we can develop 
greater self sufficiency. It is our understanding that this 
legislation will not prevent us from expanding our land base in 
the future. The Western Shoshones have always had a strong 
attachment to our land, which encompassed many millions of 
acres as described in Article V of the Treaty of Ruby Valley. 
Our people traditionally knew every valley and spring in our 
vast territory. Our land has always been at the center of our 
culture identity and way of life. Expanding our meager land 
base is essential for the health and vitality of our 
communities and for the survival of our culture.
    We ask Congress to consider the expansion of our land base 
to establish a permanent homeland for the Western Shoshone. We 
believe it was never the intent of Congress to leave the 
Western Shoshones homeless. Subsistence, hunting, fishing and 
gathering rights are of great importance to the Western 
Shoshone people. Our people hunt, fish and gather traditional 
food sources to supplement their diet. It is very important 
that Western Shoshones continue to have access to the 
traditional hunting, fishing and gathering areas, and that we 
continue to be able to hunt, fish and gather those traditional 
food sources which are part of our culture, our diet, a part of 
who we are.
    Many tribal members rely on these traditional food sources 
on a subsistence basis. Traditional medicines are made from 
native plants, and plant sources gathered throughout out 
aboriginal territory. These are also important to our people 
for health, culture and religious reasons.
    Our aboriginal lands were destroyed and poisoned by mining 
and toxic waste and other forms of abuse. The native animals 
and plants are disappearing from our lands that have suffered 
so much. Shoshones are the guardians of our environment. We 
traditionally practice a way of life that was in harmony with 
the earth. It is a part of our religion and a way of life to 
respect all forms of life. The land, the air, the water and 
animals, the birds and plants, are all interconnected and all 
depend upon each other for existence. We want our important 
hunting, fishing and gathering and spiritual areas to be set 
aside for us so that we can preserve them.
    In accepting the claims money, we are not giving up any 
hunting, fishing and gathering rights. Northeastern Nevada's 
economy is in a period of decline. With unemployment rising in 
and near the Te-Moak communities, economic development to 
increase our self sufficiency is very important to our 
communities. But our opportunities are very limited. Our need 
for Federally funded services will continue in the areas of 
education, health, housing, community development, social 
services, judicial services, law enforcement, environmental 
protection and other services necessary for a viable community. 
It is our understanding that this legislation to compensate the 
Western Shoshone for past wrong will in no way diminish the 
United States Government's obligation to continue to provide 
these services as needed for the health and well being of our 
people.
    I now ask you to support the Western Shoshone Claims 
Distribution Act, to distribute the claims awarded through 
Docket 326 K, 326A-1 and 326A-3, with the same language 
contained in S. 958 referred to House submitted during the 
107th Congress. That would maximize the chance of rapid passage 
by both houses of Congress.
    The Western Shoshones voted on three questions: whether or 
not to accept the claims money from Docket 326 K, whether 
tribal members of at least one-quarter degree Western Shoshone 
blood should be able to participate in the settlement, and 
whether or not 326A-1 and A-3 should be placed in an 
educational trust fund. The vote was 1,647 to 156 in favor of 
distribution; 1,601 to 196 in favor of tribal members with at 
least one-quarter degree of Western Shoshone blood 
participating; and 1,020 to 769 in favor of an educational 
trust fund. The majority of Western Shoshone voters clearly 
support distribution as described in the Western Shoshone 
Claims Distribution Act. It is the mandate of the people that 
we move forward in this process.
    This money was awarded so many years ago in an attempt to 
compensate the people for some of the wrongs that had been done 
to us. Too many of our tribal member have passed away without 
benefiting from the money that was set aside for them. Although 
it cannot fully compensate us for the loss of our land and way 
of life, the claims money may help to make life better for the 
trial members who receive a share. Te-Moak and the other 
Western Shoshone communities overwhelmingly voted for the 
distribution claims dollars. I believe they have waited long 
enough for this distribution.
    I thank you.
    [The prepared statement of Mr. Ike follows:]

  Statement of Felix Ike, Chairman, Te-Moak Tribe of Western Shoshone 
                     Indians of Nevada, on H.R. 884

    This is an honor to come before the Resource Committee on a matter 
of great importance to the Western Shoshone people. I am Felix Ike, 
Chairman of the Te-Moak Tribe of Western Shoshone Indians of Nevada. 
Te-Moak represents the four Te-Moak Band communities of Elko, Battle 
Mountain, South Fork, and Wells.
    Our Tribal Council represents over 2500 enrolled members which is 
more than 65% of the nearly 3700 identified people who are 1/4 or more 
of Western Shoshone blood. Te-Moak, its four bands, and the other 
Federally recognized tribes at Duckwater, Ely, Yomba and Duckvalley all 
have legitimately elected and recognized councils. The people 
overwhelmingly voted in favor of distribution of the trust funds.
    Te-Moak was the named claimant before the Indian Claims Commission, 
thus this will be different than what the Western Shoshone National 
Council (says or said) before this Committee. The Western Shoshone 
Indians of Nevada want the Committee to know that group has no 
legitimate authority to speak on behalf of Western Shoshone Indians 
except for the few individuals involved in that organization. They have 
no formal existence as a Shoshone Government within the recognized 
Western Shoshone communities, nor are they recognized by the Federal 
government as an American Indian Tribe.
    The Western Shoshone Nation once occupied a large area of the 
western part of the United States, including parts of Nevada, Idaho, 
California and Utah. Our traditional way of life was closely connected 
with nature. Our land was abundant in resources, including springs, 
streams and rivers, snow-covered mountains and rich valleys, and even 
the desert areas which were full of plant and animal life. When the 
non-Indians came into our land, they depleted the natural resources, 
destroyed our way of life, and forced us to adopt their ways. Of the 
vast territory that was once our homeland, only a few small colonies, 
ranches and reservations have been set aside for our use. In the 
interests of our future generations, we need to expand our land base to 
support our tribal population and provide a base from which we can 
develop greater self-sufficiency. It is our understanding that this 
legislation will not prevent us from expanding our land base in the 
future.
    The Western Shoshone have always had a strong attachment to our 
land, which encompassed many millions of acres as described in Article 
V of the Treaty of Ruby Valley. Our people traditionally knew every 
valley and spring in our vast territory, and our land has always been 
at the center of our cultural identity and way of life. Expanding our 
meager land base is essential for the health and vitality of our 
communities and for the survival of our culture. We ask Congress to 
consider the expansion of our land base to establish a permanent 
homeland for the Western Shoshone. We believe it was never the intent 
of Congress to leave the Western Shoshones homeless.
    Subsistence hunting, fishing and gathering rights are of great 
importance to the Western Shoshone people. Our people hunt, fish and 
gather traditional food sources to supplement their diet. It is very 
important that Western Shoshones continue to have access to traditional 
hunting, fishing, and gathering areas, and that we continue to be able 
to hunt, fish and gather those traditional food sources which are part 
of our culture and our diet, a part of who we are. Many tribal members 
rely on these traditional food sources on a subsistence basis. 
Traditional medicines are made from native plant sources gathered 
throughout our aboriginal territory, and these are also important to 
our people for health, cultural, and religious reasons.
    Our aboriginal lands were destroyed and poisoned by mining, toxic 
waste, and other forms of abuse. The native animals and plants are 
disappearing from lands that have suffered from so much abuse. 
Shoshones are the guardians of our environment. We traditionally 
practiced a way of life that was in harmony with the earth. It is a 
part of our religion and way of life to respect all forms of life. The 
land, the air, the water, the animals, the birds and plants are all 
interconnected and all depend upon each other for existence. We want 
our important hunting, fishing, gathering, and spiritual areas to be 
set aside for us so that we can preserve them. In accepting the claims 
money, we are not giving up any hunting, fishing or gathering rights.
    Northeastern Nevada's economy is in a period of decline, with 
unemployment rising in and near the Te-Moak Tribal communities. 
Economic development to increase our self-sufficiency is very important 
for our communities, but our opportunities are very limited. Our need 
for Federally funded services will continue in the areas of education, 
health, housing, community development, social services, judicial 
services, law enforcement, environmental protection, and other services 
necessary for a viable community. It is our understanding that this 
legislation to compensate the Western Shoshone for past wrongs will in 
no way diminish the United States government's obligation to continue 
to provide all these services as needed for the health and well-being 
of our people.
    I now ask you to support the Western Shoshone Claims Distribution 
Act to distribute the claims awarded through Docket 326 K, 326 A-1 and 
326 A-3 with the same language contained in S958 RFH submitted during 
the 107th Congress. That would maximize the chance of rapid passage by 
both houses of the Congress.
    The Western Shoshone voted on three questions- whether or not to 
accept the claims money from docket 326K, whether tribal members of at 
least 1/4 degree of Western Shoshone blood should be able to 
participate in the settlement, and whether or not 326A-1 and A-3 should 
be placed in an educational trust fund. The vote was 1647 to 156 in 
favor of distribution, 1601 to 196 in favor of tribal members with at 
least 1/4 degree of Western Shoshone blood participating, and 1020 to 
769 in favor of the educational trust fund. The majority of Western 
Shoshone voters clearly support distribution as described in Western 
Shoshone claims distribution Act. It is the mandate of the people that 
we move forward on this process.
    This money was awarded so many years ago in an attempt to 
compensate the people for some of the wrongs that have been done to us. 
Too many of our tribal members have passed away without benefiting from 
money that was set aside for them. Although it cannot fully compensate 
us for the loss of our land and way of life, the claims money may help 
to make life better for the tribal members who receive a share. The Te-
Moak Tribe and other Western Shoshone communities overwhelmingly voted 
to support the distribution of the claims money. I believe they have 
waited long enough for it to be distributed.
    Thank you.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7772.015
                                 

    The Chairman. Thank you.
    Ms. Piffero?

       STATEMENT OF LAURA L, PIFFERO, LEAD CO-CHAIRMAN, 
    WESTERN SHOSHONE CLAIMS DISTRIBUTION STEERING COMMITTEE

    Ms. Piffero. Good afternoon. I am grateful to the Resource 
Committee for authorizing this hearing and for the support of 
our Nevada Congressmen, Mr. Gibbons and Mr. Porter, thank you.
    I am Laura Piffero, Lead Co-Chairman of the Western 
Shoshone Claims Steering Committee. We support H.R. 884 and 
represent the majority opinion. 91 percent of the Shoshones 
voted on 7 reservations to distribute their 1977 court award, 
the last of 5 Shoshone Treaty claims in the United States and 
the last major tribe in Nevada to be compensated for losses 
sustained.
    The Senate, after markup of a companion bill passed in the 
107th, created differences. We would like to propose minor 
amendments as specified in the written testimony Section 2(2), 
certain individuals ineligible, to add the words, ``Based upon 
aboriginal land claim.'' Section 3 on the Administrative 
Committee, (2)(A) and (2)(B) and (2)(B)(v) to be comprised 
exclusively of Western Shoshone's, due to its tribes, and to 
add Section 5 on regulations.
    I will speak about the factors that have led to the 
majority support of this bill, the good, the bad and the ugly. 
It is a brief overview about the Shoshones, their years of 
involvement in the Federal courts, their political and cultural 
distinctiveness, and how they were impacted by the 1863 Treaty 
of Ruby Valley.
    Despite a period of suffering during U.S. land expansion, 
the Shoshones are loyal to this country and fought for America 
in foreign wars. Culturally the Shoshones were a peaceful 
people and struggled to adapt to a changing world and to 
cooperate with their new neighbors. Western Shoshone aboriginal 
territories covered two-thirds of Nevada. They became a captive 
tribe due to no major battle with encroaching immigrants. The 
Shoshones feel the 1863 Treaty had too many concessions and 
placed the people in a downward spiral of poverty. In 1863 the 
Shoshones group in the west signed treaties of peace, of 
friendship, giving the U.S. the right to engage in multiple 
uses of Shoshone land. The Shoshone Treaty signed in Ruby 
Valley was two pages in length.
    It has been argued there were treaties of succession, as 
Article II through IV gave the land for military post, 
telegraph, railways, mining, agricultural settlement and 
timbering. Article VI changed the Shoshone's historical use of 
the land. The reservations, whenever the President of the 
United States deemed it expedient, reservations were to be 
established within the country above described. One was the 
Carbon Farms, later moved to Duckvalley outside of the country 
designated. Severe hardship and starvation fell upon Shoshones 
during this period of displacement and adaptation. Article VII 
promised as full compensation $5,000 for 20 years for the 
inconvenience resulting from the occupation of others, 
privileges conceded and adherence to the treaty.
    Article VIII acknowledged the receipt of provisions and 
clothing upon signing. Although the Supreme Court determined 
the award had been accepted by the Secretary of the Interior on 
behalf of the Western Shoshone over 26 years ago, payment has 
never been distributed.
    Sixty-seven years ago, 1951, Article V became the vehicle 
of injustice by which the Shoshones entered 26 years of 
litigation under the 1946 Indian Claims Commission Act. Final 
judgment was reached in 1977 and determined the Shoshones lost 
their land by gradual encroachment.
    Had the Shoshones not filed this case in 1951, there would 
be no court award today. 11 years after the claim was filed, 
minority dissidents attempted to halt the proceedings. 
Unsuccessful, they tried to stop the 1979 appropriation. Due to 
political instability no common distribution plan was developed 
in 1981 as required under the 1973 Indian Judgment Funds Act.
    In 1974 the dissidents supported Danns' cattle trespass 
case as the defense project to the Supreme Court. It lasted 15 
years. Minority cattlemen and supporters established nonprofit 
corporations, collecting Internet donations. Preposterous 
misleading newspaper remarks said they represented the Shoshone 
Nation. The public thought they were an elected body. Their 
unpaid trespass fees amounted to over a million dollars. Their 
press touted it is still Shoshone land as the people do not 
want the money, they want the land, or refuse to take the 
money. In truth, the majority wanted their award disbursed. In 
1985 the United States Supreme Court in Cattleman Danns case 
concluded that payment of the claims to trust for the Shoshones 
effectuated full settlement of all claims against the United 
States.
    The minority received over a million dollars in ANA and BIA 
grants to resolve land issues. Federal land negotiations at the 
highest level failed in 1994. A promised plan for the WSNC in 
Vucanovich's 1990 House hearing never materialized. The 
Shoshone people felt their leaders did not negotiate in good 
faith and discussed the beneficiaries of the award via the 
Steering Committee. Given their civil right to band together 
and take action or to submit a bill, a 1998 referendum revealed 
the true collective interest. 96 percent favor distribution in 
2002. Senator Reid requested another vote. 65 percent of the 
eligible enrolled Shoshones participated. 91 percent favored 
distribution.
    At two meetings when a division of the House was called, 
where only 3 people stood in opposition to the bill, they were 
loudly booed when speaking. The minority's pursuit to claim 
two-thirds of Nevada is unrealistic. The international report 
for the Dann case before a United Nations Commission since 
1993, was rejected by the United States in its entirety. The 
report noted that the Danns' be afforded resort to the courts 
for the protection of their property rights. Apparently the 
commission viewed their 15 years of litigation to the Supreme 
Court as insufficient, and that subsequently, 1991 case 
abandonment to pursue allowable individual aboriginal title as 
unimportant.
    This endless legal debate is a delaying tactic that 
benefits a small minority culturally as more elders pass on, 
their hopes never realized. It angers many. The manipulation of 
some tribal chairmen to suppress the majority opinion, illegal 
council meetings and resolutions, minority promotion of non-
Shoshones interference in the claims, has ruined the 
credibility of some elected leaders and destroyed faith in 
their ability to act in a fair and forthright manner in 
representing the majority's mandate.
    Most Shoshones do not want the monetary award held hostage 
any longer. Needed lands should be handled by individual tribes 
with the relevant stakeholders and separated from the 
distribution.
    Finally, the Shoshones have endured much in their quest for 
justice. It was the intent of Congress, when it passed the 
Indian Claims Commission Act in 1946 to bring finality to 
Indian claims, not to leave claims hanging in limbo for over 25 
years. As Congress said, no one should be allowed to litigate a 
claim forever. It is time to effectuate this distribution to 
the Western Shoshone. We now rely on Congress to resolve this 
longstanding court award and distribute it to the beneficiaries 
as intended under the law.
    In conclusion, the matter here before us today is not 
whether an award is due to Western Shoshone. The issue is to 
determine the procedural means by which Dockets 326 K, 326A-1 
and 326A-3 will be distributed. It is a matter of process. This 
bill lays out that process. The Steering Committee on behalf of 
the majority respectfully requests that the Resource Committee 
pass H.R. 884 back to the full floor of the House for 
consideration in the interest of the long-sought closure of my 
people.
    Thank you.
    [The prepared statement of Ms. Piffero follows:]

 Statement of Laura Piffero, Lead Co-Chairman, Western Shoshone Claims 
              Distribution Steering Committee, on H.R. 884

    Mr. Chairman, Committee Members, I am Laura Piffero, Lead Co-
Chairman of the Western Shoshone Claims Distribution Steering 
Committee. Our group is a grass roots volunteer Committee. We represent 
the 1998 and 2002 referendum where 91% of the Shoshone people voted on 
seven reservations to have their court award distributed. The Western 
Shoshone Claims in the last of five Shoshone treaty claims to be paid 
in the United States and the last of the major tribes in Nevada to be 
disbursed. We are grateful to the Resource Committee for authorizing 
this hearing and for the support of Nevada's Congressional Delegation 
in the House, Congressman Jim Gibbons and Congressman Jon Porter and in 
the Senate, Senator Harry Reid and Senator John Ensign. The companion 
Bill in the Senate was passed last year in the 107th.
    I am here to present testimony for the Steering Committee in favor 
of H.R. 884, the ``Western Shoshone Claims Distribution Act''. The 
Shoshone people are aware that the Resource Committee will have ``mark-
up'' on the Bill. The Steering Committee would like to propose AMENDING 
the following Sections:
    <bullet> Under Section 2, (2) Certain Individuals Ineligible. 
After the words ``'' a per capita payment from any other judgment 
fund'' add the words ``based upon an aboriginal land claim.'' (Note: 
the Bureau of Indian Affairs Tribal Services concurs with this change.)
    <bullet> Under Section 3, (2)(A): after the words ``An 
Administrative Committee'' to add the words, ``exclusively comprised of 
Western Shoshon...e''
    <bullet> Under Section 3, (2)(B): at the beginning after the word 
``The'' add the words ``Western Shoshone'' to read--The Western 
Shoshone Administrative Committee...''
    <bullet> Under Section 3, (2)(B),(v) to be revised from ``The 
Western Shoshone Business Council of the Duck Valley Reservation'' to 
read ``The Western Shoshone Committee of the Duck Valley Reservation''.
    As others will address various issues--I will speak about that 
which is not always so apparent to people on the fringes of a problem, 
the subtle factors that has lead to the people's support of this Bill 
and factors in the past that have acted to delay support for 
distribution--the good, the bad, and the ugly. I hope this will give 
you some insight about the people for whom you are about to make a very 
important decision--either to vote in favor of S. 958 as is, or to 
change, or to allow to die in Committee.
    First, THE GOOD:
    <bullet> THE SHOSHONES ALLEGIANCE TO THE UNITED STATES. Despite 
``minority'' news reports to the contrary that draws attention to 
issues of discrimination <SUP>1</SUP>, the Shoshone people are thankful 
that they live in this country and are proud of their participation in 
various global military conflicts to promote and preserve the nation's 
security, freedom and peace. Yes, there does exist a dark period in the 
history of the displacement of the Shoshones to reservation in the late 
1800's, as part of Indian removal acts across the United States that 
were repeated 53 times by 1868. Unfortunately, in a conflict of 
cultures the five 1863 Shoshone treaties of ``Peace and Friendship'' 
were eventually and gradually taken advantage of by unscrupulous 
individuals, both non-governmental and governmental. In regard to 
Indian title to the land, the U.S. Supreme Court observed that ``such 
extinguishments raise political, not justiciable, issues.'' 
<SUP>2</SUP> Likewise, in another case, it was further stated that 
``... its justness is not open to inquiry in the courts'', that ``the 
exclusive right of the United States to extinguish'' Indian title has 
never been doubted'' <SUP>3</SUP>. Concerning ``recognized title'', in 
the Sac and Fox Tribe v. United States the court stated, ``... 
Congress, acting through a treaty...must grant legal rights of 
permanent occupancy within a sufficiently defined territory. Mere 
executive ``recognition'' is insufficient as is a simple acknowledgment 
that Indians physically lived in a certain region'', such as in the 
Western Shoshones treaty of 1863. In some treaties, the United States 
recognized title by relinquishing its claim to a specific area and 
promised to protect the Indians within the borders of their land, such 
as the Sioux treaty. This was not stated in the ``Treaty of Ruby 
Valley'' under ``Article V''. <SUP>4</SUP> In 1974, when a group of 
Shoshone people attempting to stop the court proceedings filed a motion 
for rehearing on the findings of title by the ICC (1962), according to 
a 30 day time limit under the ``Rules of Procedure'', they were 11 
years to late <SUP>5</SUP>. In the end, Congressional action is the 
only way to restore tribal title. With the passage of time, 
assimilation, reorganization, and relocation the vast ``majority'' of 
Western Shoshone people have laid their feelings to rest. The outcome 
of the 1998 and 2002 referendums for distribution is symbolic of the 
peace, closure and restitution they desire.
---------------------------------------------------------------------------
    \1\ Las Vegas Review Journal, ``Indians Ask U.N. to Protect 
Rights'' Las Vegas, Nevada. 2000.
    \2\ United States V. Santa Fe Pacific Ry., 314 U.S. 339, 347 (1947)
    \3\ Beecher v. Wetherby, 95 U.S. 517, 515.
    \4\ 1863 Treaty of Ruby Valley, Article V: It is understood that 
the boundaries of the country claimed and occupied by said bands are 
defined and described by them as follows:
    \5\ ... TeMoak Bands of Western Shoshone Indians, Nevada, and 
Western Shoshone Legal Defense and Education Association'' v. United 
States, decided 2/20/75.
---------------------------------------------------------------------------
    <bullet> THE SHOSHONES VIEW THE CLAIMS AWARD AS AN APOLOGY OF 
SUBSTANCE offered by the United States via the U.S. Indian Claims 
Commission established after the injustices to the American Indian 
became more widely known to principled contemporary politicians 
following World War I. The Shoshones enthusiastically filed their case 
for the wrongs done in 1951. It was fraught with numerous attempts by 
some ``minority'' dissidents to change the litigation strategy in the 
judicial process. Had a withdrawal been successful, there would be no 
court awarded claims today.
    <bullet> THE CONTINUING HOPE OF THE SHOSHONE PEOPLE,'' Now the 
Shoshone people look to Congress to conclude the claims after 41 years 
of litigation (1951-77 & 1974-89), 52 years of debate, and 99 
<SUP>6</SUP> years of faith of the elders that the claims would be 
finalized. Now they are placing their trust in an extremely difficult 
course to traverse--the Congressional legislative process--with the 
hope it will not let them down and H.R. 884 will be passed within the 
allotted time.
---------------------------------------------------------------------------
    \6\ Johnny, Ike. Enrolled member of the Fallon Paiute Shoshone 
Tribe. 99 years old.
---------------------------------------------------------------------------
    <bullet> DEMOCRACY IN ACTION. The Shoshone people were pleased to 
finally get the opportunity to be heard at the ballot box through a 
straw poll. Tribal voter eligibility lists and required individual 
identification was employed to determine Shoshone affiliation. Those 
unable to attend their reservation's polling site were allowed with 
proof of tribal enrollment to request an absentee ballot. A few 
Shoshones who chose not to enroll in an IRA tribe but wanted to vote 
were allowed to complete a ``Letter for the Record'' after certifying 
that they had not received any other claims award, offered a photo I.D. 
and stated their degree of blood. In 1998, 96% favored distribution. 
The results were 1,230 voted ``yes'' and 53 voted ``no''. <SUP>7</SUP> 
In 2002, 91% favored distribution with 1647 ``yes'' and 156 ``no''. It 
was estimated that approximately 65% of the eligible enrolled adult 
Shoshones participated in the straw poll. Of the seven reservations / 
colonies, NONE has ever put the question of distribution on their 
annual election as an advisory question in the last 26 years after the 
award was confirmed. Therefore, the Steering Committee felt the 
question needed to be answered to determine the direction of the 
Committee on distribution.
---------------------------------------------------------------------------
    \7\ Official Tally, ``Referendum for the Western Shoshone Claims 
Distribution Act'', 2002.
---------------------------------------------------------------------------
    <bullet> A REALISTIC OUTLOOK. It is time to put behind the 
disappointment in the failure of the tribal system of government and 
their inability after 26 years to coordinate their inter-tribal efforts 
to produce a comprehensive plan for distribution to settle this issue. 
It was the instability and manipulation of tribal politics by those 
opposed and their lawyers, that gave impetus to the formation of a 
``people's committee'' or the Western Shoshone Claims Distribution 
Steering Committee in 1997. It is the CIVIL RIGHT of a descendent group 
to submit a Bill to congress, to band together and take action. At a 
publicly held meeting concerning the legislation in Elko, NV, (8/21/99) 
with half of the gymnasium and the center filled in a ``division of the 
house'' a vote of confidence in the Bill and in the Steering Committee 
was called for. Three people stood opposing the legislation and the 
Committee. In Fallon NV, (9/12/99) no one in a gym half full stood 
against the Bill or Committee.
    Second, THE BAD:
    <bullet> THE DEATH OF ELDERLY BENEFICIARIES who had basic needs 
and were forgotten in the never-ending controversial litigation. Their 
dreams and hopes for a better future were never realized. It was their 
generation that was fraught with a multitude of social and economic 
problems in an era of little opportunity. A distribution could have 
provided something as simple as a new mattress. The growing resentment 
against those who oppose the claims distribution was obvious when at 
the public meeting on the Bill the three who opposed the Bill were 
loudly booed when speaking.
    <bullet> TRIBAL ELECTIONS ARE BASED ON KINSHIP NOT ON ISSUES,'' 
issues such as the ``Claims''. Unemployment remains high on isolated 
reservations (Yomba, Duckwater, South Fork, Duck Valley). Jobs are 
scarce with the exception of tribal jobs and having a tribal job means 
voting family members to office. Therefore, much time and energy is 
spent on electing relatives to council seats, not on a representative's 
stance on issues.
    <bullet> THE CHANGING FACES OF DEMOCRACY. Elections cause change--
in leadership, objectives, and claims negotiation's progress in the 
government-to-government process. Democracy is good in one sense, but 
has its weaknesses also. Constant change in tribal leadership means the 
end to long range goals and partially why no one comprehensive 
distribution plan ever materialized. When given a deadline to develop a 
plan under the 1973 Indian Judgment Funds Act in 1980, they failed. 
This tribal political instability was to the advantage of the stable 
core ``minority''. More recently (1997), it was also to the advantage 
of the Steering Committee's ability to move the claims issue forward, 
to obtain the consensus of the Shoshone people and to promote 
resolutions of support from the majority of tribal governments--some 
resolutions have vacillated with new councils the last seven years. 
However, the people's desire to have their court award distributed on 
all reservations never changed. Where a tribal government ``for, by and 
of the people'' did not exist in representing the distribution of the 
claims, the people organized petition drives so that they might be 
heard over their councils. Where a petition was necessary to support 
distributing the claims, endorsement ranged on two reservations at 85% 
and 90% (Yomba and South Fork councils has never supported the claims 
distribution due to councilmen's cattle interests).
    <bullet> COUNCILMEN OR LEADERS THAT REPRESENT SPECIAL INTEREST 
GROUPS OR HAVE A SELF INTEREST. Some leaders / councilmen opposed to 
the claims distribution have BLM cattle trespass charges amounting to a 
million dollars or more. <SUP>8</SUP> They work through their lawyers 
and the news media to defeat distribution of the award as a reason to 
continue to use the land by claiming it is still ``Shoshone land'' as 
``the people do not want the money'' or ``refuse to take the money''--
--in total disregard of the of the U.S. Supreme Court decision 
<SUP>9</SUP> and the decision of the Shoshone people per the two straw 
poll referendums. Information is power and the control of information 
coming through tribal offices is tightly guarded as to what is told or 
not told to the people. When information is kept from the Shoshone 
people or twisted it limits their ability to make well informed 
decisions and retards the decision making process. Telling the 
Shoshones they still own the land is a shameful deceit and only causes 
confusion and creates controversy. Of course, some will say there is 
money to be made in an atmosphere of controversy.
---------------------------------------------------------------------------
    \8\ http:// www.alphacdc.com/wsdp/[W.S. Land Rights and Grazing] 
W.S. Defense Project. No date.
    \9\ Nordwall, Wayne. BIA Area Director. Memorandum: ``W.S. Claims 
Distribution''. Phoenix, AZ, 1998.
---------------------------------------------------------------------------
    <bullet> CONTROL OF THE FOUR CHAIRMEN OF THE ``SUCCESSOR 
TRIBES''...controls the government-to-government relationship in 
negotiation, a subtle mechanism. The ``minority'' leadership and their 
lawyer(s) have utilized this process over the years. It resulted in the 
``majority'' opinion being suppressed, <SUP>10</SUP> the people being 
put on the ``back burner''. This political manipulation and maneuvering 
was evidenced most recently after the August 2, 2002, Senate hearing. 
In an illegal meeting of the four Te-Moak band chairs, several 
resolutions were passed against the people's voice or straw poll. 
<SUP>11</SUP> Once the people heard about this outrage in the largest 
band, Elko, the Elko council passed a resolution to not recognize the 
``illegal'' resolutions. <SUP>12</SUP>Even today, this is not widely 
known due to the control of information to the people by four leaders 
involved. An added drawback, is the lack of a tribal newspaper on 
various reservations.
---------------------------------------------------------------------------
    \10\ Elko, NV. Te-Moak Council Meetin. Flyer mailed to Fallon 
Committee: ``Cattle Over People, WSNC'', 1999.
    \11\ Letter to Senator Inouye, Senator Campbell, and Committee on 
Indian Affairs by Felix Ike, Te-Moak tribe chairman. 8/29/02. 2pp.
    \12\ Elko Band Council. Resolution N. 2002-ECB-28. Elko, NV 8/28/
02. 3 pp.
---------------------------------------------------------------------------
    Third, THE UGLY:
    <bullet> THE LACK OF FAITH IN TRIBAL ACCOUNTABILITY due to 
questionable accounting/ budgeting procedure and little to no public 
reporting mechanism <SUP>13</SUP>'' one reason people do not want any 
hold-back for tribal programming. The Steering Committee has received 
numerous comments on how if a hold-back on funds was implemented in the 
Bill with no restrictions, such as interest only to be expended plus 
categories for use, the capitalization to the tribes will not be able 
to be found in seven to nine years as has happened with other Indian 
nations' court awards.
---------------------------------------------------------------------------
    \13\ Reno Gazette Journal (Reno, NV), ``25 Month Prison Sentence 
for Embezzling Tribal Officer'' (Duckwater). 1997.
---------------------------------------------------------------------------
    <bullet> PRETENTIOUS DECLARATIONS BY THOSE OPPOSING DISTRIBUTION 
OF THE CLAIMS. Federally recognized IRA tribes have their own 
Constitution and By-Laws. They are independent of each other. For an 
organization to declare that they are part of a ``nation'' of people is 
questionable. No one single entity is a sole representative of the 
various Shoshones around the state. Yet, the Western Shoshone National 
Council (WSNC) <SUP>14</SUP> has made such preposterous claims of 
``representation''. The majority of Shoshones see this organization(s) 
with limited numbers attempting to assert themselves into the 
governmental process on negotiations or into the news media on behalf 
of the ``Western Shoshones'', in a sense displacing the officially 
recognized IRA governments. The WSNC goes on to use the ``Western 
Shoshone--name in international forums. Their term ``traditional 
government of the Shoshone nation'' or ``Western Shoshone nation'' is 
misleading. Most non-Indians or institutions will interpret this to 
mean an ``elected'' government, which is quite different than being a 
registered Nevada non-profit corporation. In addition, donations 
(money, gifts of real property, clothes, trucks, night vision goggles, 
etc.) being requested over the internet in the name of the ``Western 
Shoshones'' is debatable when most Shoshones are unaware of the 
contribution.
---------------------------------------------------------------------------
    \14\ Information on Those Opposed to Distribution--Who are They and 
What do They Represent?
---------------------------------------------------------------------------
    <bullet> THE LITIGANTS OPPOSING DISTRIBUTION, unlike the changing 
faces of elected official, these faces never change'' They were at the 
Interior Department negotiation meetings in 1982, 1984, 1985, 1986, 
1994, and former Congressman Vucanovich's House hearings in 1990 and 
1992--all of which failed. Some are still here today in opposition, 
probably not with a ``good faith plan'', but to undermine the 
``majority'' opinion and as always to stop distribution.
    <bullet> NEWSPAPER PROPAGANDA BY SPECIAL INTERESTS that tout the 
Shoshones are opposed to this or that <SUP>15</SUP> when in fact the 
average Shoshones know nothing about nor have they agreed to what is 
published. This same propaganda was used in the past to say, ``the 
Shoshones don't want the money they want their land''. This is why a 
straw poll had to be completed to reveal the truth about the interest 
of the Shoshone people, descendants and beneficiaries of ``The Western 
Shoshone Identifiable Group'' court award 326-K.
---------------------------------------------------------------------------
    \15\ Reno Gazette Journal (Reno, NV), ``W.S. Oppose F-22 Fighter''. 
1999.
---------------------------------------------------------------------------
    <bullet> THE UNENDING DEBATE BY MINORITY OPPONENTS over land 
title, mineral rights, religion, air, etc'' has kept the Shoshones' 
right to their court award or a tribal plan in limbo. The latest 
development is the presentation to staff members of the Indian Affairs 
Committee (7/26/02) of a 2001 international report by the Inter-
American Commission on Human Right (Case No. 11.140--Mary and Carrie 
Dann), which the United States rejected ``in its entirety''. The case 
that has been before the U. N. Commission since 1993. The U.S. Supreme 
Court (1985), after deciding that payment into trust for the Shoshone 
people effectuated full settlement of all claims and the 
extinguishments of aboriginal title, left the door open for 
``individual aboriginal title''. The Danns could have pursued this 
avenue, but the lawyers for the Danns withdrew their case from the U.S. 
court system in 1991. Now the deficiencies mentioned in the 
Commission's report, partly that the Danns ``be afforded resort to the 
courts for the protection of their property rights'', reiterates what 
probably should have continued to be litigated in 1991. Given the past 
history and the years of prior suit by the Danns (1974-1989), the 
Federally financed opportunities for land settlement negotiations 
amounting to over a million Federal dollars, and the Indian title 
issues before the U.S. courts in past case law'' it is best to separate 
the land issue ( reservation by reservation ) from the monetary 
distribution and, in following the people's wishes, distribute 326-K, 
326--A-1 and 326--A--3.
    FINALLY, the aforementioned factors both negative and positive have 
contributed to the present status of the Western Shoshone Claims. The 
Shoshones have endured much in their quest for justice and finality. 
The 1946 Indian Claim Commission Act passed by Congress gave the Indian 
people their day in court to air grievance suffered. The limitation was 
``no one should be allowed to litigate a claim forever.'' It was not 
the intent of Congress to leave claims hanging in limbo for over 52 
years. We now rely on the judgment of Congress, where 100% agreement is 
a rarity, to end this long standing Claim. The Steering Committee on 
behalf of the ``majority opinion'' respectfully requests that the 
Resource Committee pass H.R. 884, as soon as possible back to the full 
floor of the House for consideration in the interest of the long sought 
judgment and closure our people deserve. Thank you.
                                 ______
                                 
[GRAPHIC] [TIFF OMITTED] T7772.010
                                 
[GRAPHIC] [TIFF OMITTED] T7772.011
                                 
[GRAPHIC] [TIFF OMITTED] T7772.012
                                 

    The Chairman. Thank you.
    Chief Yowell?

              STATEMENT OF RAYMOND YOWELL, CHIEF, 
               WESTERN SHOSHONE NATIONAL COUNCIL

    Mr. Yowell. Good morning, Mr. Chairman, although it is 
afternoon now, and Committee members.
    My name is Raymond D. Yowell, a citizen of the Western 
Shoshone Nation. I presently hold the office of Chief of the 
Western Shoshone National Council, which is the government of 
the Western Shoshone Nation.
    Due to the limited time set for this testimony, the Western 
Shoshone Government has prepared this supplemental to its main 
opposition testimony for presentation at this hearing.
    In accordance with the rules of this Committee, the 
required number of copies of this supplement and our opposition 
main testimony has been filed with the clerk of this Committee.
    All the elements of our main opposition testimony are 
reaffirmed. We stand opposed to H.R. 884. This supplemental 
testimony will address and point out the events that have 
transpired recently in connection to the Western Shoshone 
territorial rights issue.
    ICC Docket 326 K. The last event to happen in the overall 
U.S. Indian Claims Commission process is a hearing of record 
that was held in the territory of the Western Shoshone Nation. 
This hearing took place in July 1980 at Elko, Nevada. At this 
hearing of record the Western Shoshone asked the Federal 
hearing officer, ``By what U.S. law did the United States 
acquire the territory of the Western Shoshone Nation?'' Because 
the hearing officer could not answer the question, the Western 
Shoshone rejected the monetary award from the ICC, Docket 326 
K, stating, ``Keep your money until you [meaning the United 
States] can show us how you acquired our territory.''
    I testified at the hearing of record, and I also asked the 
exact same question of the hearing officer. Again, when the 
hearing officer could not answer my question, I also rejected 
the monetary award from ICC Docket 326-K. Today, 23 years 
later, the United States has not answered the question put to 
it by the Western Shoshone.
    Since the hearing officer could not show how the United 
States acquired the territory of the Western Shoshone Nation, 
and since the Western Shoshone, myself included, rejected the 
monetary award from Docket 326 K, the Western Shoshone 
territory remains in the property of the Western Shoshone 
Nation, rightfully under Western Shoshone control and 
jurisdiction.
    Based on this fact, Western Shoshone cattlemen, myself 
included, and in compliance with Article VI of the 1863 Treaty 
of Peace and Friendship made with the United States, stopped 
paying the U.S. Government for grazing our cattle on our own 
Western Shoshone lands. We withheld grazing fees to show the 
United States that there was a problem with its claimed 
ownership of the territory of Western Shoshone Nation. From the 
very start of our nonpayment for grazing our cattle on our own 
Western Shoshone land, the Western Shoshone stated to the U.S. 
Government that if it could not answer the question of how it 
acquired the territory of the Western Shoshone Nation, then the 
best way to move toward a solution would be through negotiation 
between our two Nations.
    Confiscation of Western Shoshone Cattle. In May 2002, armed 
agents of the U.S. Bureau of Land Management came in the early 
morning hours and confiscated cattle belonging to me and to Mr. 
Myron Tybo. The BLM did this without answering the question 
first put to the Federal hearing officer at the 1980 hearing of 
record, ``By what U.S. law did the United States acquired the 
territory of the Western Shoshone Nation?'' In September of 
2002 armed agents of the BLM came in the early morning hours 
and confiscated the cattle of Mary and Carrie Dann, and did so 
without answering the above question.
    In 1924 Congress declared Indians to be citizens of the 
United States. If from the point of view of the U.S. Congress 
we are U.S. citizens, then this means that our property cannot 
be taken from us without a court order. But when the BLM agents 
were taking our cattle, we asked them if they had a court 
order. They said they did not have a court order and took our 
cattle anyway. The BLM theft of our property is a gross 
violation of our civil and human rights and robs us of our 
livelihood. It is also a violation of our 1863 Treaty vested 
right to be agriculturists and herdsmen.
    U.S. Supreme Court Ruling on U.S. v. Dann, 1985. In 1974 
the United States sued two Western Shoshone sisters, Mary and 
Carrie Dann for trespass, the allegation being made that they 
were grazing their cattle on Federal public land. After going 
back and forth in U.S. Federal Appeals Court several times, the 
case reached the U.S. Supreme Court in 1984. The Supreme Court 
ruled that because the U.S. Secretary of the Interior had 
accepted the monetary award from ICC on Docket 326 K as a 
trustee for the Western Shoshone, the Dann sisters could not 
defend on the grounds of original Western Shoshone title. The 
U.S. Supreme Court specifically based its decision on an 
erroneous assumption that the ICC had filed its final report 
with Congress.
    OSA Investigation, Docket 326 K.. In 1992 the Dann sisters 
petitioned the Organization of American States, OAS, to look 
into their treatment by the United States. The Danns were 
joined in the petition by the Western Shoshone IRA Reservation 
Tribal Councils and by the Western Shoshone National Council. 
In December of 2002 the OAS released its report, stating that 
United States, through its U.S. Indian Claims Commission 
process had violated the human rights of the Western Shoshone, 
that the ICC process lacked due process of law, and that the 
property rights of Western Shoshone had been ignored. The 
United States has to this date failed to remedy the violation 
put forth in the OAS report though asked by the OAS to do so.
    Thus, the U.S. Supreme Court in 1985, ruling on the case, 
U.S. v. Dann, used an Indian Claims Commission process against 
the Danns that has been found to be in violation of Western 
Shoshone human rights.
    The Indigenous Law Institute's Finding on the ICC's Failure 
to File a Final Report with Congress on the Western Shoshone 
Case. In January of 2203 the Indigenous Law Institute issued 
its finding that the U.S. Indian Claims Commission failed to 
file a final report with Congress regarding the Western 
Shoshone case. Docket 326 K, Section 21 of the ICCA, Report of 
Commission to Congress, requires such a report in order to 
provide Congress with the information it needs to make an 
informed judgment in every case. The ILI report reveals that 
the Indian Commission did not complete its work as required by 
law. The Indian Claims Commission failed to fulfill a legally 
required ingredient of finality in Section 22(a) of the ICC 
Act. Therefore, an essential part of the statutory basis that 
Congress has set up for a distribution of the monies in Docket 
326 K remains unfulfilled.
    The Amnesty International Report. In May of 2003, Amnesty 
International issued its report on the Western Shoshone case, 
and found that violations occurred in the ICC process 
concerning Western Shoshone human rights. The violations were 
lack of due process of law, violations of Western Shoshone 
human rights, and violations of Western Shoshone property 
rights. This report gives added credibility to what the OAS and 
ILI reports reveal about the ICC Docket 326 K.
    Recommendation. A distribution bill came before this 
Committee on Docket 326 K. The Committee at that time wisely 
rejected taking action on it by nor bringing it out of 
Committee. With the above referenced reports now bringing to 
light the major problems with the ICC process as it pertains to 
the Western Shoshone territorial rights issue, we request that 
this Committee not take action on bill H.R. 884, but to let it 
die the death it deserves in Committee.
    Thank you very much.
    [The prepared statement of Mr. Yowell follows:]

                Statement of Raymond D. Yowell, Chief, 
             Western Shoshone National Council, on H.R. 884

    Good Morning Mr. Chairman and Committee Members,
    My name is Raymond D. Yowell, a citizen of the Western Shoshone 
Nation. I presently hold the office of Chief of the Western Shoshone 
National Council, which is the Government of the Western Shoshone 
Nation.
    Due to the limited time set for this testimony, the Western 
Shoshone Government has prepared this supplement to its Main Opposition 
Testimony for presentation at this hearing.
    In accordance with the rules of this Committee, the required number 
of copies of this Supplement and our Main Opposition Testimony has been 
filed with the Chief Clerk of this Committee.
    All the elements of our Main Testimony are reaffirmed. We stand 
opposed to H.R. 884. This Supplemental Testimony will address and point 
out events that have transpired recently in connection with the Western 
Shoshone Territorial issue.
I.C.C. Docket 326-K
    The last event to happen in the overall U.S. Indian Claims 
Commission process is a hearing of record that was held in the 
Territory of the Western Shoshone Nation. This hearing took place in 
July of 1980 at ``Elko, Nevada.'' At this hearing of record, the 
Western Shoshone asked the Federal hearing officer, ``By what U.S. law 
did the United States acquire the Territory of the Western Shoshone 
Nation?'' Because the hearing officer could not answer the question, 
the Western Shoshone rejected the monetary award from the I.C.C., 
Docket 326-K, stating, ``Keep your money until you [meaning, the United 
States] can show us how you acquired our Territory.''
    I testified at the hearing of record, and I also asked the exact 
same question of the hearing officer. Again, when the hearing officer 
could not answer my question, I also rejected the monetary award from 
I.C.C. Docket 326-K. Today, twenty three years later, the United States 
has not answered the question put to it by the Western Shoshone.
    Since the hearing officer could not show how the United States 
acquired the Territory of the Western Shoshone Nation, and since the 
Western Shoshone, myself included, rejected the monetary award from 
Docket 326-K, the Western Shoshone Territory remains the property of 
the Western Shoshone Nation, rightfully under Western Shoshone control 
and jurisdiction.
    Based on this fact, Western Shoshone cattlemen, myself included, 
and in compliance with Article 6 of the 1863 Treaty of Peace and 
Friendship made with the United States, stopped paying the United 
States Government for grazing our cattle on Western Shoshone lands. We 
withheld grazing fees to show the United States that there was a 
problem with its claimed ownership to the Territory of the Western 
Shoshone Nation. From the very start of our non-payment for grazing our 
cattle on our own Western Shoshone land, the Western Shoshone stated to 
the United States Government that if it could not answer the question 
of how it acquired the Territory of the Western Shoshone Nation, then 
the best way to move towards a solution would be through negotiations 
between our two Nations.
Confiscation of Western Shoshone Cattle
    In May 2002, armed agents of the U.S. Bureau of Land Management 
came in the early morning hours and confiscated cattle belonging to me, 
and Mr. Myron Tybo. The BLM did this without answering the question 
first put to the Federal hearing officer at the 1980 hearing of record, 
``By what U.S. law did the United States acquire the Territory of the 
Western Shoshone Nation?'' In September 2002, armed agents of the BLM 
came in the early morning hours and confiscated the cattle of Mary and 
Carrie Dann, and did so without answering the above question.
    In 1924, Congress declared Indians to be citizens of the United 
States. If, from the point of view of Congress we are U.S. citizens, 
then this means that our property cannot be taken from us without a 
court order. But when the BLM agents were taking our cattle we asked 
them if they had a court order. They said that they did not have a 
court order and took our cattle anyway. The BLM theft of our property 
is a gross violation of our civil and human rights, and robs us of our 
livelihood. It is also a violation of our 1863 Treaty vested right to 
be agriculturalists and herdsmen.
U.S. Supreme Ruling On U.S. v. Dann (1985)
    In 1974, the United States sued two Western Shoshone sisters, Mary 
and Carrie Dann, for trespass, the allegation being made that they were 
grazing their cattle on Federal ``public land.'' After going back and 
forth in the U.S. Federal Appeals Courts several times, the case 
reached the U.S. Supreme Court in 1984. The Supreme Court ruled that 
because the U.S. Secretary of the Interior had accepted the monetary 
award from the I.C.C. on Docket 326-K as the ``trustee'' for the 
Western Shoshone, the Dann sisters could not defend on the grounds of 
original Western Shoshone Title. The U.S. Supreme Court specifically 
based its decision on an erroneous assumption that the I.C.C. had filed 
its final report with Congress.
OAS Investigation of Docket 326-K
    In 1992, the Dann sisters petitioned the Organization of American 
States (O.A.S.) to look into their treatment by the United States. The 
Danns were joined in their petition by Western Shoshone I.R.A. 
Reservation Tribal Councils, and by the Western Shoshone National 
Council. In December of 2002, the O.A.S. released its report, stating 
that the United States--through the U.S. Indian Claims Commission 
process--had violated the human right of the Western Shoshone, that the 
I.C.C. process lacked due process of law, and that the property rights 
of the Western Shoshone have been ignored. The United States Government 
has to this date failed to remedy the violations put forth in the 
O.A.S. report, though asked by the O.A.S. to do so.
    Thus, the U.S. Supreme Court in 1985, ruling on the case, U.S. v. 
Dann, used an Indian Claims Commission process against the Danns that 
has been found to be in violation of Western Shoshone human rights.
The Indigenous Law Institute's Finding on the I.C.C.'s Failure to File 
        A Final Report With Congress in the Western Shoshone Case
    In January of 2003, the Indigenous Law Institute, issued its 
finding that the U.S. Indian Claims Commission failed to file a final 
report with Congress regarding the Western Shoshone case, Docket 326-K. 
Section 21 of the I.C.C.A, ``Report of Commission to Congress'' 
requires such a report in order to provide Congress with the 
information it needs to make an informed judgment in every case. The 
I.L.I. report reveals that the Indian Commission did not complete its 
work as required by law. The Indian Claims Commission failed to fulfill 
a legally required ingredient of finality in Section 22(a) of the 
I.C.C. Act. Therefore, an essential part of the statutory basis that 
Congress set up for a distribution of the monies in Docket 326-K 
remains unfulfilled.
The Amnesty International Report
    In May of 2003, Amnesty International issued its report on the 
Western Shoshone case, and, found that violations occurred in the 
I.C.C. process concerning Western Shoshone human rights. The violations 
were lack of due process of law, violations of Western Shoshone human 
rights, and violations of Western Shoshone property rights. This report 
gives added credibility to what the O.A.S. and I.L.I. reports reveal 
about the I.C.C. Docket 326-K.
Recommendation
    A distribution bill came before this Committee on Docket 326-K. The 
Committee at that time wisely rejected taking action on it by not 
bringing it out of Committee. With the above referenced reports now 
bringing to light the major problems with the I.C.C. process as it 
pertains to the Western Shoshone Territorial rights issue, we request 
that this Committee not take action on bill H.R. 884, but let it die 
the death it deserves in Committee.
                                 ______
                                 
    The Chairman. Thank you. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman, and again, 
I have submitted a formal statement for the record on Bill 884 
that we have before us today, and I apologize to my witnesses 
here for being absent, but other duties kept me away at the 
time I could have introduced you. And I wanted to welcome you 
and the other Nevadans that are here today to Washington, D.C. 
to witness and partake in this Committee hearing, and it is 
certainly a pleasure to have you before us, and I certainly am 
very proud to see such great representation here before us 
today.
    Mr. Chairman, I would like to submit for the record of the 
Committee, several petitions that have been signed by a number 
of Shoshone Indians, Western Shoshone Indians, that would have 
been here, but they have submitted their petition in support of 
884, and I would like copies of these petitions to be admitted 
into the record if I could.
    The Chairman. Without objection.
    [The information referred to follows:] 

    [GRAPHIC] [TIFF OMITTED] T7772.007
    
    [GRAPHIC] [TIFF OMITTED] T7772.008
    
    [GRAPHIC] [TIFF OMITTED] T7772.009
    

    Mr. Gibbons. Mr. Chairman, this is indeed an issue which is 
long overdue, as I said earlier. And these witnesses--and I 
think the eloquence of Laura Piffero is certainly to be 
commended because she put in very clear perspective historical 
presentation of the whole process the that this thing has gone 
through over the last two decades, and certainly it is one 
which I think is timely. It is one which we have to deal with. 
If we don't deal with it, the money will serve no one. It will 
sit in an account, a trust fund, and do no good for anyone. I 
apologize for the double negatives. It will not do anyone any 
good. We want the bill.
    Ms. Piffero, let me say that I have looked over your 
technical suggestions for the language. I have no problem with 
working on the bill between now and when it is submitted to the 
Committee to make those technical corrections that you 
addressed in your opening statement as well. We will work with 
you on that to make sure that we take them into consideration.
    Ms. Piffero. Thank you.
    Mr. Gibbons. I guess I don't know what else to ask, because 
I think everything that has been said needed to have been said, 
and I think the record is clear.
    I would only turn basically to Chief Yowell and maybe ask 
him a question. It relates to the Western Shoshone National 
Council that you represent. My question is, is that an elected 
body by the Shoshone Nation?
    Mr. Yowell. No, it is not. It is the entity that signed the 
Treaty of 1963 that has continued from that time down to 
today's times.
    Mr. Gibbons. So what you are saying is that the rest of the 
Shoshone Nation over the years has had no elected effect on the 
membership of this national council?
    Mr. Yowell. Elections came to be the way that tribal 
councils were appointed based upon the Indian Organization Act 
entities that were established in Shoshone territory in 1938. 
From that time forward--
    Mr. Gibbons. I am not trying to undermine you in any way, 
but I want to just get some clarity out here. The Western 
Shoshone National Council, is it a registered nonprofit 
organization in the State of Nevada?
    Mr. Yowell. It is not.
    Mr. Gibbons. It is not?
    Mr. Yowell. No.
    Mr. Gibbons. Is it an IRA sanctioned council as contrasted 
to a reservation council?
    Mr. Yowell. It is not. It represents a nation based upon 
the treaty that it signed with United States.
    Mr. Gibbons. And how many members of the Shoshone tribes 
that are in Nevada, whether you consider the Te-Moak, the 
Fallon Western Shoshones, Duckvalley, how many of all of those 
members do you have in your organization?
    Mr. Yowell. None of the ones you mentioned. The Ely tribe 
belongs. The Tempe Nation belong, the traditional cattlemen 
from South Fork Reservation belongs, the Dann family belongs, 
the Great Basin Western Shoshone belong.
    Mr. Gibbons. And how many members would that be total?
    Mr. Yowell. We haven't computed the membership of those 
entities.
    Mr. Gibbons. Could you guess?
    Mr. Yowell. Not at this time. I couldn't give an accurate 
figure.
    Mr. Gibbons. Would either Mr. Ike or Ms. Piffero have an 
answer to that? Would you have an estimate?
    Mr. Ike. I don't have any privilege to their membership.
    Mr. Gibbons. Mr. Chairman, I see that my time has expired, 
and I will certainly hope that members look at this carefully. 
It does not waive any rights under any treaty organization or 
treaties that were established, and certainly I think it is 
time to look favorably upon this part of our cultural history 
and reward these people with the judgment that the courts have 
set out for many, many years ago, and it is time to put that 
money to good use and benefit these people, and I would hope 
that every member could support this bill.
    Thank you.
    The Chairman. Thank you, Mr. Gibbons. Mr. Pallone?
    Mr. Pallone. I will try to be brief, Mr. Chairman. I don't 
really have a position on the bill at this point, but I have to 
say that, you know, I am--two things are sort of weighing on 
me. One is the fact that I really don't like the idea of 
Nations having to give up land and, you know, getting some kind 
of payment in lieu of whatever land claims they might have. So 
that weighs very strongly on--you know, on the one hand, not 
being supportive of this type of a settlement.
    On the other hand, because of the fact that Nations are 
sovereign, they should be able to do what they please. In other 
words, if you have a vote and it is legitimate, there is no 
reason why you shouldn't be able to do what you think is best. 
That is the process.
    I guess my concern is, and I have heard some of the 
testimony and read some of the testimony--I wasn't here for the 
whole panel--everyone seems to be--on the one hand, Mr. Gibbons 
and, I guess, the chairman are suggesting that if this land 
settlement goes through and the bill is approved, that you 
could still claim title to certain lands. On the other hand, 
Chief Yowell seems to suggest that that is not the case, you 
know, that somehow the settlement, if it is granted, will be a 
contributing factor, if not total factor, toward extinguishing 
any rights to the land.
    So I guess I am a little confused. If either of you could 
just respond to that--what makes you think that this settlement 
does or does not preclude you from making claims to the land, 
and how successful you could be if this settlement and this 
legislation went through? If I could just ask the chairman and 
the chief that, quickly. I know you have probably answered 
already, but just to give me a little more information.
    You believe that, if this bill goes through, that 
essentially the land claims are extinguished, which is why you 
are not in favor of it in part. Is that true?
    Mr. Yowell. Yes, basically that is true. You have to go 
back to the rejection of the claim to begin with, in 1980, when 
the question was asked of the hearing officer, by what law did 
the United States acquire the territory of Western Shoshone. 
And these laws are explained fully in the main testimony that 
we have submitted to the clerk of this Committee. That question 
still remains unanswered to this day. And the very fact that 
the Indian Claims Commission award contains the wording ``per 
acre'' means that the land is, you know--that is payment for 
the land. And so that is why we take the position that, if we 
take this award, then we have been paid for the land.
    Mr. Pallone. OK, then let me ask the chairman, now, you 
seem to feel that that is not the case, right? That you could 
still exert certain claims successfully?
    Mr. Ike. I believe that, because I was in opposition to 
Kantovich's introduction of a bill in early 1990, and it was 
suggested at that particular time by Senator Inouye, to the 
Western Shoshone leadership, to go back to Western Shoshone 
country and to develop a land package. And we wanted to deal 
with the highest level of Government. And at that particular 
time, there was Secretary Babbitt who we were dealing with. We 
met with him in Denver, Colorado. Ample money was given to the 
Western Shoshone National Council for the Duckwater Tribe to 
initiate this process. This process only lasted about four or 5 
years. It fizzled right quick. The Western Shoshones could not 
get together on a land issue in regard to the expansion of the 
Reservations. I still believe that if the Western Shoshones 
themselves, through their Governments, through their Tribal 
councils, can ask for and will receive additional land base for 
an expansion of their existing land base that they now have. 
And that is the hope that we have coming before this Committee, 
so that we can get that language once more introduced.
    Mr. Pallone. OK. Thank you, Mr. Chairman.
    Mr. Gibbons. Would the gentleman yield?
    Mr. Pallone. Yes, sure. I don't have time, but--
    Mr. Gibbons. I appreciate the gentleman yielding his time. 
The bill only deals with the distribution of a settlement from 
a court award. In there, in Section 2(D)(9), it says that there 
is no waiver of any treaty rights in the bill. So that these 
Tribal Nations that are subject to this settlement still retain 
their treaty rights as pursuant to the treaty rights of Ruby 
Valley that was established. So there is no waiver of any of 
the rights that are inclusive of Article 1 through Article 8 of 
that treaty.
    Mr. Pallone. And I gather there are some that would argue 
that the treaty rights were extinguished long ago anyway, 
right? I mean, I guess none of us agree with that, but that is 
another argument that is out there. I thank you.
    The Chairman. Mr. Udall?
    Mr. Tom Udall. Thank you, Mr. Chairman. Chief Yowell, let 
me--just following up on this same question--let me read you 
part of this bill. In Section 2, paragraph A, it says--and this 
is not a waiver of treaty rights. It says, ``Receipt of a share 
of the judgment funds under this section shall not be construed 
as a waiver of any existing treaty rights pursuant to the 1863 
Treaty of Ruby Valley, inclusive of all Articles 1 through 
Article 8, and shall not prevent any Western Shoshone Tribe or 
band or individual Shoshone Indian from pursuing other rights 
guaranteed by law.''
    How do you interpret this? If this bill doesn't preclude 
claims under the treaty or on other grounds, what is 
objectionable about the bill?
    Mr. Yowell. The very fact that this is referring to Docket 
326-K that came out of the Indian Claims Commission, when that 
commission, which now I have stated is--that the law is 
incomplete--that the commission failed to file the final report 
with Congress. The final thing that happens in that, when the 
finality is achieved--you know, had this report been issued, 
the finality would have been achieved--is that Section 22(a) of 
this Indian Claims Commission Act kicks in and that bars any 
further--since this is based on a land issue--any further land 
claims to be brought forward.
    Mr. Tom Udall. So as I understand your position, you 
believe the ruling and the money, if that is taken, will 
actually extinguish the claims and that you feel that to 
proceed in that manner would extinguish the claims and there is 
no guarantee of any future land settlement?
    Mr. Yowell. Yes. It would make it very difficult for, you 
know, Western Shoshone to bring that issue forward again.
    Mr. Tom Udall. Now, one of the parts to this that is a 
little bit troubling to me--and I think there is a history out 
there when we do these ballots, and everybody talks about the 
ballots. The options that were laid before people in terms of 
the ballot was basically saying here is a big pot of money, do 
each of you want 30,000 of these dollars? I mean, there was no 
mention of a land settlement, there was no mention that this--
is that correct in terms of characterizing the way the ballot 
was phrased? I mean, was there any mention one way or another 
about the history, anything like that?
    Mr. Yowell. That is my understanding. I did not partake in 
that ballot or that voting process, so I didn't get to see the 
ballot itself. But it is my general understanding that it is 
only for money--you know, the choice is given only for money.
    Mr. Tom Udall. Ms. Piffero, I would like to ask you the 
question, because I have a copy of one of the ballots here and 
it says the ballot presents the following two options: Yes, I 
am in favor of 100 percent per capita claims payment to persons 
who have at least one-quarter degree of Western Shoshone blood; 
No, I am not in favor of receiving any claims payment. Is that 
basically what the ballot was?
    Ms. Piffero. Yes, it was.
    Mr. Tom Udall. So when people were balloting, the issue 
before them was, You have a big pot of money and do you want 
it? There was never any discussion about land claims or land 
settlements or the history that this has had over the last 25 
years and how that might impact on the tribe. Is that correct?
    Ms. Piffero. Right. And I would agree with that statement. 
However, that has been--the lack of communication between our 
people and the truth is making amends. That is true. There has 
been a lot of miscommunication, I believe. But in these last 
few years, that is closing. They are being told the correct 
information by the correct people. And so, yes, that was in 
fact a valid statement in the beginning; however, that is 
progressing, going forward in a positive manner so that they 
are aware.
    Mr. Tom Udall. Chairman Ike, do you foresee a process that 
is in place today and that is moving along for having a land 
settlement take place and you receiving a larger share of land? 
I mean, several administrations--the first Bush administration, 
I know, had negotiations going, the Clinton administration had 
negotiations going. My understanding Bush 2, there are no 
negotiations. I mean, what are--because you mentioned in your 
statement, you know, this doesn't preclude a settlement, what 
is the process you see reaching some kind of land settlement?
    Mr. Ike. That was the beginning of the process which you 
had just asked in regard to the monetary distribution. Because 
initially, when the Western Shoshone Tribal Governments were 
asked to participate in planning for the expansion of their 
reservations, those negotiations fell apart.
    With that being done and that not proceeding, the Western 
Shoshones claim committee that was developed initiated a 
different distribution package. And these things were discussed 
in many meetings in regard to the overall package and the 
procedure. And there were three questions on that ballot, and 
the ballot was very straightforward in regard to exactly what 
this process was going to be all about.
    I still do believe that there is a process available for 
the Western Shoshones, through Congress, to expand our land 
base. Those plans are still in place. All we have to do is go 
back, regenerate those plans, introduce them, and the we can 
move forward.
    Mr. Tom Udall. Thank you, Mr. Chairman. I see my time is 
out. If possible, I would like to ask the sponsor just an issue 
about this land settlement, but I can do it--
    Mr. Gibbons, I am just--I am puzzled by the two positions 
we have here with the-- You know, I understand the good intent 
of your bill in terms of getting this money out there and 
getting it to people. And yet at the same time, you see this 
tortured history of trying to negotiate a settlement and 
linking the two together and there being a lot of fear that if 
the settlement takes place, Congress will never pick up this 
issue again.
    And I was just wondering what your perspective was on this 
in terms of--and the chairman's, for that matter. I mean is 
there a sense of coming back to this issue later on? Are we 
going to give some directive to the Administration to try to 
reach a settlement? You know, where are we on that?
    Mr. Gibbons. I think, Mr. Udall, first of all, the old 
saying, ``Justice delayed is justice denied.'' And what we are 
trying to do with this bill is to allow for the justice to meet 
the needs of Western Shoshone people in the State of Nevada. 
And that is because the judgment that the Court ruled said that 
X number of dollars were to be paid to this Tribe for the 
taking of their land in the 1850's. There will always be the 
opportunity for extensions, additions, and acquisitions of new 
lands to be added to the existing holdings right now by the 
Shoshone Nations throughout Nevada.
    That is a process which is ongoing, which is not the 
subject of this bill. It is simply one--this bill, as I said 
earlier, is to ensure that the money does not remain in a trust 
account for another 20 or 30 years while senior members of the 
Shoshone Nation pass away without ever receiving the benefit of 
what this Government took from them decades and centuries ago.
    So the point is not--this bill is not the point to be the 
end-all solution to their needs. This bill is only directed to 
require the distribution of those funds which the Court had 
said was an award to be given to the Shoshone Nation for that 
taking. It has nothing to do with later rights of individual 
reservations or Tribes to request additional land, to negotiate 
with the Federal Government for extensions and trust lands to 
be added to that. This would make this bill so immensely 
complicated and delay it so long, that I would venture to say 
that everyone sitting in this room will not be here by the time 
that was ever negotiated and agreed upon at some point in the 
future.
    What we are trying to do is require justice to be delivered 
to these people today--not tomorrow, not a decade from now, not 
20 years from now. That is all this bill does. And it does not 
restrict any of the treaty rights, as you have said by reading 
and quoting that part of the bill.
     So the purpose, of course, is just to get the monies 
released and distributed, and it has nothing to do--and does 
not prevent later or even concurrent negotiations for 
additional lands for the Shoshone people.
    Mr. Tom Udall. If we can just for a second continue this 
colloquy. I mean, when Senator Reed--he asked that when the 
ballots were voted on in one of these elections, that a fact 
sheet be handed out. And the fact sheet said the following--and 
my understanding, it was handed out. ``The United States 
Supreme Court has ruled that claims to tribal aboriginal land 
title were extinguished upon the payment into the U.S. Treasury 
of judgment funds awarded under Docket Numbers 326-K, 326-A1, 
326-A1-3 by the Indian Lands Claims Commission. Accordingly, 
the distribution of these funds neither revives any 
extinguished claims nor extinguishes any existing future claims 
against the U.S. Government.''
    So if this statement is accurate, that the judgment by the 
claims commission and then further approved by the Supreme 
Court extinguished all claims--
    Mr. Gibbons. That was, as you've read, the aboriginal 
lands. But it did not, as it said in the last statement of that 
paragraph, extinguish any future claims that may be brought.
    Mr. Tom Udall. Yes. No, I understand.
    Mr. Gibbons. I don't understand where you are coming from. 
We are looking at an historic area that has been taken by the 
United States. And this bill only pays them $142 million for 
that, which has been sent out by the Court to be distributed.
    Mr. Tom Udall. I think where--I am trying to understand 
where the other side is coming from. And I think where they are 
coming from is saying since this has extinguished all these 
claims in the past and there isn't anything going on in the 
future in terms of existing claims or future claims, why don't 
we try to settle this in one package? I think that has been the 
basic position that has come up. Why can't we resolve this all 
at once? And I think there will be--it just, you know, it is 
just my opinion, I think there will be a strong movement that, 
once the funds have been paid out, that the Congress is done 
with this and will never come back to it. And so if there is an 
issue out there, it seems like there might be an argument for 
packaging it in one.
    But you are very close to this issue and spent a lot more 
time with it than I have, and I just wanted to raise this with 
you and the chairman. Thank you, Mr. Chairman, very much for 
allowing me to carry on this colloquy with my colleague here.
    The Chairman. Thank you. I have no problem and I would be 
more than happy to work with Mr. Gibbons and Mr. Porter and the 
Tribe in trying to come up with some kind of an equitable 
expansion in terms of what reservation lands should be there. 
And as Mr. Gibbons knows, I don't think there is any reason for 
the Federal Government to own 90 percent of his State or more. 
And anything that could help rectify that situation, I am in 
favor of doing. And if there is a way to put this together and 
do that, I am all for doing that.
    But having said that, I think it is crazy to have $140 
million sitting in an account somewhere that belongs to these 
people and not give it to them. I think that we are dealing 
with two separate issues here. And the one issue I think we 
should take care of immediately; the second issue I believe 
is--we are going to need a lot of help from you folks to do 
this and come up with an equitable solution for that. And as 
I've said, I am more than happy to work with you in order to 
make that happen.
    I think most of these issues have been dragging on for way 
too many years. And, you know, to hear Mr. Yarrow talk about 
this court case and how far it goes back and all this, I mean, 
you realize that this started 10 years before I was born, this 
whole thing. And that is just, to me, is unacceptable. So we 
need to get the money to the people it rightfully belongs to. 
We need to come up with a solution in terms of what lands 
should be tribal lands and get that done with. And I think that 
would, I think, help satisfy some of the concerns that are out 
there. I think they are legitimate. We do need to take care of 
that, and I support you in that. But at the same time, I do 
believe that we need to deal with this money that is in this 
judgment fund. It is not doing anybody any good where it is 
right now. We all know that. So I think we just need to deal 
with that. But I am more than happy to work with all of you to 
help solve this problem in as short a period of time as we 
possibly can.
    But I thank you very much for your testimony. I think is 
was very valuable to the members of the Committee to have you 
in, and I know it is not easy for you to come back. But I do 
appreciate you doing this.
    The members of the Committee will have additional 
questions. Several of them were unable to stay because of the 
late hour, but those questions will be submitted to you in 
writing. If you could answer those in a timely manner so that 
they can be included in the hearing record, I would appreciate 
that.
    If there is no further business before the Committee, I 
again thank the members of the Committee and our witnesses for 
this hearing. The Committee stands adjourned.
    [Whereupon, at 1:54 p.m., the Committee was adjourned.]


</pre></body></html>
